<html>
<title> - NOMINATIONS TO THE U.S. DEPARTMENT OF COMMERCE, THE U.S. DEPARTMENT OF TRANSPORTATION, AND THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[Senate Hearing 113-528]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-528

                   NOMINATIONS TO THE U.S. DEPARTMENT
                    OF COMMERCE, THE U.S. DEPARTMENT
                       OF TRANSPORTATION, AND THE
                   CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                 U.S. GOVERNMENT PUBLISHING OFFICE 

92-510 PDF                    WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




























       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 11, 2014....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Nelson......................................     2
Statement of Senator Thune.......................................     3
Statement of Senator Klobuchar...................................     6
Statement of Senator Blumenthal..................................    67
Statement of Senator Ayotte......................................    79

                               Witnesses

Bruce H. Andrews, Nominee to be Deputy Secretary, U.S. Department 
  of Commerce....................................................     7
    Prepared statement...........................................     8
    Biographical information.....................................     9
Victor M. Mendez, Nominee to be Deputy Secretary, U.S. Department 
  of Transportation..............................................    17
    Prepared statement...........................................    18
    Biographical information.....................................    19
Peter M. Rogoff, Under Secretary for Policy-Designate, U.S. 
  Department of Transportation...................................    28
    Prepared statement...........................................    30
    Biographical information.....................................    31
Marcus D. Jadotte, Nominee to be Assistant Secretary for Industry 
  and Analysis, International Trade Administration, U.S. 
  Department of Commerce.........................................    38
    Prepared statement...........................................    39
    Biographical information.....................................    40
Hon. Robert S. Adler, Nominee to be a Commissioner, Consumer 
  Product Safety Commission......................................    47
    Prepared statement...........................................    48
    Biographical information.....................................    50

                                Appendix

Letter dated June 25, 2014 to Hon. Robert Adler, Acting Chairman, 
  U.S. Consumer Product Safety Commission from Hon. John Thune, 
  Ranking Member, U.S. Senate Committee on Commerce, Science, and 
  Transportation.................................................    83
Letter dated July 17, 2014 to Hon. John Thune, Ranking Member, 
  Committee on Commerce, Science, and Transportation from Robert 
  S. Adler, U.S. Consumer Product Safety Commission..............    84
Prepared statement of Rep. Henry A. Waxman, Ranking Member, 
  Committee on Energy and Commerce...............................    90
Response to written questions submitted to Bruce H. Andrews by:
    Hon. Mark Pryor..............................................    90
    Hon. Mark Begich.............................................    91
    Hon. John Thune..............................................    92
    Hon. Kelly Ayotte............................................    94
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Victor M. Mendez and Peter M. Rogoff.........    95
Response to written questions submitted to Victor M. Mendez by:
    Hon. Maria Cantwell..........................................    97
    Hon. John Thune..............................................    99
Response to written questions submitted to Peter M. Rogoff by:
    Hon. Maria Cantwell..........................................   101
    Hon. John Thune..............................................   102
Response to written question submitted by Hon. John Thune to 
  Marcus D. Jadotte..............................................   104
Response to written questions submitted to Hon. Robert S. Adler 
  by:
    Hon. John Thune..............................................   104
    Hon. Roy Blunt...............................................   115
    Hon. Dean Heller.............................................   118
    Hon. Ron Johnson.............................................   124

 
                   NOMINATIONS TO THE U.S. DEPARTMENT
                    OF COMMERCE, THE U.S. DEPARTMENT
                       OF TRANSPORTATION, AND THE
                   CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:41 p.m., in 
room SR-252, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I apologize to everybody, except you, Mr. 
Andrews.
    [Laughter.]
    Senator Thune. Here we go again.
    The Chairman. OK. We have got some important folks here--
Department of Commerce, Department of Transportation, Consumer 
Product Safety Commission. And it says here, at least, that it 
is a particular pleasure for me to see Mr. Bruce Andrews, from 
Syracuse. The Orange, with just a hint maybe of some athletic 
scandal at the student stuff----
    [Laughter.]
    The Chairman.--associated with Syracuse. I mean, I don't 
know if that is true or not, but it is now part of the record.
    [Laughter.]
    Mr. Nelson. Are we going to have a hearing about that?
    [Laughter.]
    The Chairman. No. No. No, because you have got a Florida 
State University guy here, too.
    Mr. Nelson. Oh.
    The Chairman. You see? In good form. OK.
    Now, Bruce is a trusted aide and adviser. He worked forever 
for this committee as its General Counsel and just sort of had 
marvelous instincts. I regret to say, and I told the fellow 
outside, the Congressman who you grew up with and went to 
school with, that the only problem that you have in life is 
that you will have to live the rest of your life out knowing 
that I am just two or three steps ahead of you on baseball 
trivia.
    [Laughter.]
    The Chairman. Otherwise, you are perfect. You are a proud 
product of upstate New York. You were always very tuned into 
rural problems, which is important for Senator Thune and 
myself. You are kind of a big urban guy.
    Senator Thune. Both rural and urban.
    The Chairman. Both rural and--you are just showing off, you 
know?
    Anybody who spent--this, I love this part. Anybody who 
spent time with Bruce knows him to be smart, stubborn, wily, 
and an operator with a pragmatist's approach to getting things 
done. So I like that combination, which is true, you get stuff 
done.
    You are liked on both sides of the aisle. You were here. 
You are now, in your present job. You know the House and the 
Senate so well, and you are going to be Chief of Staff to 
Secretary Pritzker. I think that is really good news for the 
Department of Commerce, and not meaning to show my bias, I plan 
on voting for you three times.
    [Laughter.]
    The Chairman. I am confident that Bruce will provide a 
strong and effective leader in this role. It is a very 
difficult role. I mean, there is the Chief of Staff and there 
is a Deputy, and then how all that works, but you understand 
all of that. You are comfortable with all of that, and you are 
comfortable with power. You are comfortable with standing back 
when that arrives at a settlement more quickly.
    You have got to stay on top of the agency's management 
challenges. It is a large agency. You are a good organizer. 
Secretary Pritzker is an incredible organizer. I think she is 
the best Secretary of Commerce I have ever known. And you are 
committed to making the Department a consumer-friendly advocate 
for the American people.
    Our next nominee is going to be introduced right now by 
Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, thank you, Mr. Chairman, and yes----
    The Chairman. Oh, no.
    Senator Thune. No, that is all right. That is fine.
    The Chairman. Do you want to make a statement?
    Senator Thune. No, no. Go ahead. Go ahead.
    The Chairman. OK.
    Senator Nelson. I defer to the handsome Senator from South 
Dakota.
    [Laughter.]
    Senator Thune. Go ahead. He has teed you up.
    [Laughter.]
    Senator Nelson. Indeed, I met----
    The Chairman. He has 10 pages there.
    Senator Nelson.--Marcus Jadotte two decades ago when he was 
a graduate student at Florida State, and he had been positioned 
in the Florida legislature, in the Governor's office, and Chief 
of Staff for two members of the Florida delegation up here. He 
has also been in the private sector with NASCAR, and he has 
moved up the ranks.
    He is here with his wife, Jennifer, and their two children, 
Marcus and Sofia, and----
    The Chairman. Tell them to stand up.
    Senator Nelson. Would you all stand and be recognized? 
Welcome.
    And if he is confirmed, and I hope we do, as Assistant 
Secretary for Industry and Analysis, it is going to be an 
important liaison between U.S. industry and government, and his 
extensive experience between the Government sector and the 
private sector is going to allow him to even facilitate that 
communication between the two. I think Secretary Pritzker knows 
what she is doing in seeking him to be one of the leadership of 
her team.
    And I want to also say that I want to recognize 
Commissioner Bob Adler in the Consumer Product Safety 
Commission. A number of us worked very hard years ago to try to 
reform and reauthorize the CPSC. We wanted to get it off its 
duff when it was doing nothing, and since his appointment, he 
has worked very hard on that reform.
    Now, you see, that wasn't 10 pages.
    The Chairman. No, it wasn't.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    And now, I turn to the esteemed co-leader of this 
committee.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. I thank you, Mr. Chairman.
    And I want to welcome all of our nominees to the Committee 
today, and you are under consideration for senior positions in 
Department of Commerce and Department of Transportation, as 
well as the renomination of the current Acting Commissioner, 
Acting Chairman, I should say, of the Consumer Product Safety 
Commission.
    DOT, of course, plays a key role in the infrastructure of 
the Nation. It is important that its senior leadership be in 
place to work with Congress and the array of stakeholders as we 
seek to improve safety and maintain and expand the Nation's 
transportation networks.
    These transportation networks fundamentally underpin the 
Nation's economy. So it is important that those who directly 
oversee these networks have the experience and skills necessary 
to manage this critical enterprise.
    I will be asking Mr. Mendez and Mr. Rogoff about their 
perspectives on some of the challenges facing the Highway Trust 
Fund, as well as their broader views on the state of the 
Nation's transportation networks. These nominees already have 
track records of valuable service to DOT, and I suspect there 
will be considerable support for their nominations.
    The Department of Commerce plays an important role on a 
diverse range of issues, from managing satellite programs 
within the National Oceanic and Atmospheric Administration to 
managing the Federal Government's radio spectrum holdings. 
Senior leaders at the Department of Commerce must manage a wide 
range of challenging programs.
    If confirmed, Mr. Andrews and Mr. Jadotte will have no 
shortage of issues and problems to tackle. I am guessing that 
Mr. Andrews may have observed many nominees from this side of 
the dais and thought to himself, ``I can do that.''
    [Laughter.]
    Senator Thune. You think? Or maybe he was just thinking 
that while he was looking at us, Mr. Chairman, but either way, 
he is going to have his chance.
    I will be asking Mr. Andrews about his views on how best to 
manage the risks facing the Department of Commerce, 
particularly with respect to its satellite programs. I am also 
interested in Mr. Andrews' views on the progress of the 
FirstNet program, the nationwide public safety network that 
will be funded by the proceeds from the broadcast spectrum 
auction currently planned for next year.
    Finally, Mr. Chairman, the Consumer Product Safety 
Commission plays a leading role in overseeing the safety of a 
wide variety of consumer products. This is important work, and 
I am looking forward to hearing how the Commission is faring in 
meeting its mission and obligations.
    As I have stated previously, the CPSC is a creature of 
Congress, created in 1972 by the Consumer Product Safety Act, 
and as such, its authority is very carefully bounded by the 
law. I am aware that some have characterized the Commission as 
being too unaccountable and overreaching as a regulator that 
does not always abide by the boundaries prescribed by Congress.
    I will look forward to asking Mr. Adler, who has served as 
Acting Chairman of the CPSC over the past 8 months, about 
issues such as third-party testing, where Congress mandated 
that the CPSC pursue opportunities to reduce testing burdens, 
but where the Commission has thus far failed to adopt any 
meaningful reforms.
    Another issue surrounds the Buckyballs case, where many 
legal experts observed an apparent overreach in Federal 
regulatory power when the CPSC sought to pierce the so-called 
corporate veil of a lawful corporation selling a legal product, 
a step that is traditionally reserved for cases of fraud or 
criminal conduct.
    All of us support the CPSC's mission of ensuring consumer 
safety, but I am hoping that Mr. Adler will be able to address 
my misgivings about what appears to be a regulatory agency that 
has ignored some of its congressional moorings.
    Mr. Chairman, before we turn to the nominees for their 
prepared remarks, I also would like to underscore the 
importance of two pressing issues that relate to matters that 
this committee is closely involved with, the one being the 
Highway Trust Fund, which is going to be depleted here next 
month or the month after. And as we look toward a long-term 
solution, I hope we can come up with a short-term solution that 
at least addresses the immediate crisis in front of us, 
recognizing how important it is that we fund our highway and 
transportation infrastructure in this country.
    And then, second, is the Internet tax moratorium, which is 
set to expire on November 1. And this committee has had a role 
in establishing that, if you go back to 1998. We have to act 
before the August recess on that as well because if we don't, 
there will be tens of millions of Americans who will be 
receiving notifications from their Internet and wireless phone 
providers about new taxes that would kick in just before the 
holiday season.
    So I raise this topic because the tax moratoriums have been 
very instrumental when it comes to ensuring that broadband 
infrastructure investments are made, which is a win-win not 
just for consumers, but for our economy. And those of us who 
serve on the Finance Committee are also very interested in this 
issue, and I have worked with the Chairman there, Senator 
Wyden, on a permanent extension of the Internet tax moratorium 
and have appreciated the work of Senator Ayotte on this 
legislation on this committee and note that we have all of our 
members on this side as co-sponsors. A number of Democratic 
colleagues are co-sponsors.
    And I hope that we can, in addition to getting the Highway 
Trust Fund gap dealt with, also pass this bipartisan 
legislation before August so that we ensure that American 
consumers and businesses aren't faced with new charges and 
unnecessary taxes on their phone and cable bills come November 
of this year.
    So, Mr. Chairman, I appreciate having these nominees before 
us today and look forward to their testimony, and thank you for 
holding the hearing.
    The Chairman. Thank you.
    I am going to continue my opening statement.
    I welcome Victor Mendez, who is the President's nominee to 
be Deputy Secretary for the Department of Transportation. A lot 
of transportation experience, and serving as Administrator of 
Federal Highways and the Director of the Arizona Department of 
Transportation.
    And Peter Rogoff, who has been mentioned already, is 
nominated to be Under Secretary of Transportation for Policy at 
the Department of Transportation. Peter is a familiar face to 
many of us here. Many years in the Senate Appropriations where 
he served both with Patty Murray and a fellow named Robert C. 
Byrd, if I am not mistaken.
    Mr. Mendez, Mr. Rogoff, I am looking forward to hearing 
your perspectives on our transportation funding, which my able 
colleague has already mentioned, and I expect that, if 
confirmed, you will pay close attention to the transportation 
challenges of the State of West Virginia. You could do a 
minimalist effort with South Dakota.
    [Laughter.]
    The Chairman. As you both know, the Highway Trust Fund is 
going broke this summer, and the question that I am fascinated 
by is, at what point is it that contractors stop bidding 
because our short-term solution is too short-term, and they are 
expecting more short-term? So, in other words, how does that 
get in the way of or not get in the way of the right people 
bidding on important road, bridge projects, et cetera?
    States are already canceling and slowing down important 
projects, and on the other hand, allowing our transportation to 
run out of money is not an option.
    The Senate is hard at work finding a solution. Last month, 
EPW Chairman Boxer marked up a long-term, 6-year highway bill. 
In the Finance Committee, Senator Thune and myself, others of 
my colleagues and I are in the process of trying to find 
funding for our infrastructure needs, whether it is 6 years or 
shorter. And I am very hopeful, and I think I have some reason 
to be optimistic after our meeting that we will reach a deal 
before the August recess, which would be very good news.
    I worry that any solution that can pass this Congress will 
again be, however, a short-term fix, and that is why I want 
this discussion about when is it that contractors begin to pull 
back or charge more?
    I am a firm believer that the Federal Government has a 
major responsibility when it comes to investing in our Nation's 
infrastructure. We have to be leaders. Others aren't going to 
do it. This is not a private sector job. We can share 
responsibility, but basically, it is Federal and State that 
does this. That is the way it has been. That is really our 
proper role.
    And we need to be leaders on this committee. We are in some 
things, and we are not as much on others as we should be. We 
need to create a coherent and unified mission for our Federal 
Surface Transportation Programs and invest in those programs. 
We have to invest.
    Since becoming chairman, I have made safety a top priority 
for this committee, and recent safety incidents, such as the GM 
recalls, crude oil train derailments, truck crashes, highlight 
the need to find out just how much progress we really have 
made.
    And as an interesting dichotomy, for example, Senator 
Klobuchar, you remember with pilots, we wanted to make sure 
they got a full 8 hours of sleep, and that is now working. But 
on the other hand, at the same time, at essential air service 
airports, it is hurting because there are fewer pilots who are 
so trained, et cetera. So I want to discuss that also.
    And Mr. Robert Adler, who has been spoken of, Consumer 
Product Safety Commission, an incredibly important post you 
joined in 2009. You are already recognized as a leading 
consumer protection scholar, teacher, and advocate.
    And I really appreciate all of you being able to being 
willing to do public service. I mean, you know, we have a, 
what, the Congress has a 9 percent approval rating. That may be 
a point or two higher than we deserve. But public service, I 
fully believe, is one of the very best ways that one can serve 
out of life, and you are all prepared to do that, and I admire 
each of you greatly for that.
    Amy, do you want to say anything?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, I am just very excited about the 
nominees here, working in areas I care a lot about and my state 
does in the area of exports with Commerce. And also, both Mr. 
Mendez and Mr. Rogoff have been out in Minnesota, and we have 
some really exciting news this weekend with our light rail 
between Minneapolis and St. Paul opening. So we thank you for 
that.
    And obviously, I also do a lot of work with the CPSC from 
the day I got here on consumer issues, and we have really 
appreciated the work done on lead in children's toys, as well 
as the pragmatism on some of the issues with that legislation. 
And then, finally, the swimming pools, which we have had some 
success with.
    So thank you, Mr. Adler.
    The Chairman. Mr. Andrews, can we start with you, sir? And 
you can shoot back any bullets you want at me.
    [Laughter.]

STATEMENT OF BRUCE H. ANDREWS, NOMINEE TO BE DEPUTY SECRETARY, 
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Andrews. Chairman Rockefeller, Ranking Member Thune, 
and members of the Committee, thank you for having me here 
today regarding my nomination as the Deputy Secretary of the 
U.S. Department of Commerce.
    It is a great honor to be back at the Commerce Committee, 
although to your point, Senator Thune, I recall it being much 
more fun on that side of the dais than it is on this side of 
the dais.
    I would first like to introduce my wonderful family, who 
are here with me today. My wife, Didem; my daughters, Ella and 
Dahlia; my parents, Bill and Ginger Andrews, and my brother 
David, who came from Syracuse, New York, for this hearing.
    Mr. Chairman. Can they stand, please?
    [Applause.]
    Mr. Andrews. It is a true honor to be nominated to be the 
Deputy Secretary of Commerce. When I first moved to Washington, 
D.C., 24 years ago, I planned to stay for only a few years and 
then move back to my hometown of Syracuse, New York, where I 
would mention the basketball is much better.
    From a young age, my father, a World War II combat 
infantryman who spent his entire life engaged in his community, 
and my mother, a social worker who devoted her life to helping 
others, taught me and my siblings the importance of public 
service and giving back to your community and to your country. 
I have carried and nurtured my commitment to public service 
throughout my professional career.
    During both my work in the public and private sectors, I 
have had the opportunity to see the important work of the 
Department of Commerce from a variety of perspectives. In my 
position as Chief of Staff to the Secretary, I have served as a 
senior leader in the Department, overseeing its operations, 
including our 12 bureaus and over 44,000 employees, and have 
been heavily involved in creating and implementing the 
Department's strategic plan.
    During my tenure, I have become familiar with every aspect 
of the Department and Secretary Pritzker's vision for it. If 
confirmed, I will work hard to advance the Department's agenda 
and continue to build on our success as the voice of business 
and workers in the administration.
    My experience in the private sector at Ford Motor Company 
gave me a strong appreciation for the ways in which the 
Department of Commerce can help create the favorable conditions 
to help American businesses thrive. And as General Counsel of 
this committee, I had the unique opportunity to see the 
operations of the Commerce Department from an oversight 
perspective and understand the importance of the Department 
working closely with Congress.
    If confirmed, I will apply these skills and experiences to 
help American businesses and workers achieve success in the 
global marketplace. That is what we do at the Department of 
Commerce. We help the American public and businesses by 
creating the conditions for economic growth through our diverse 
programs.
    I have seen firsthand the valuable work of the Department 
and its hard-working employees. Under Secretary Pritzker's 
leadership, the Department is laser focused on developing and 
implementing our Open For Business agenda.
    One of the key elements underlying the Department's 
strategic plan is the focus on customer service and providing 
high-quality assistance to our stakeholders. Like a business, 
we have a number of customers who rely on our services and 
products, and we are very focused on delivering value for our 
customers and the American taxpayer.
    In order to deliver value, it is critical that the 
Department is well run. The Deputy Secretary serves as the 
Chief Operating Officer of the organization and is very focused 
on the Department's operations. Secretary Pritzker made 
operational excellence one of the key pillars of the 
Department's strategic plan because we need to constantly 
improve our efficiency and the Department's operations. And if 
confirmed as Deputy Secretary, this will be one of my primary 
objectives.
    I have had the honor to work for a number of great leaders 
during my career--Secretary Pritzker, Alan Mulally and Mark 
Fields at the Ford Motor Company, and you, Senator Rockefeller. 
And one of the things that I have learned from these 
experiences is that leadership matters. Leaders set the vision 
and the tone for an organization and play a key role in leading 
the team.
    I am proud of our team at Commerce and excited for the 
opportunity to help lead the Department as Deputy Secretary. If 
confirmed, I look forward to working with the Commerce team and 
this committee to strengthen the Department, help our 
stakeholders, grow the economy, and make our country a better 
place.
    Thank you for your consideration of my nomination. I am 
happy to respond to any questions that members of this 
committee may have.
    [The prepared statement and biographical information of Mr. 
Andrews follow:]

Prepared Statement of Bruce H. Andrews, Nominee to be Deputy Secretary, 
                      U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, thank you for having me here today regarding my nomination 
as the Deputy Secretary of the U.S. Department of Commerce. It is a 
great honor to be back at the Commerce Committee, although I recall it 
being more fun on your side of the dais than this side.
    I would first like to introduce my wonderful family who is here 
with me today--my wife Didem; my daughters, Ella and Dahlia; and my 
parents, Bill and Ginger Andrews, who came from Syracuse, New York for 
this hearing.
    It is a true honor to be nominated to be the Deputy Secretary of 
Commerce. When I first moved to Washington, D.C. 24 years ago, I 
planned to stay for only a few years and then return to my hometown of 
Syracuse, New York. From a young age, my father, a World War II combat 
infantryman, who spent his entire life engaged in his community, and my 
mother, a social worker who has devoted her life to helping others, 
taught me and my siblings the importance of public service and giving 
back to your community and your country. I have carried and nurtured my 
commitment to public service throughout my professional career.
    During my work in both the public and private sectors, I have had 
the opportunity to see the important work of the Department of Commerce 
from a variety of perspectives.
    In my position as Chief of Staff to the Secretary, I have served as 
a senior leader in the Department--overseeing its operations (including 
the 12 bureaus and over 44,000 employees), and have been heavily 
involved in creating and implementing the Department's strategic plan. 
During my tenure, I have become familiar with every aspect of the 
Department and Secretary Pritzker's vision for it. If confirmed, I will 
work hard to advance the Department's agenda and continue to build upon 
our success as the voice of business in the Administration.
    My experience in the private sector at Ford Motor Company gave me a 
strong appreciation for the ways in which the Department of Commerce 
can help create the favorable conditions to help American businesses 
thrive.
    And as General Counsel of this Committee, I had the unique 
opportunity to see the operations of the Commerce Department from an 
oversight perspective and understand the importance of the Department 
working closely with Congress.
    If confirmed, I will apply these skills and experiences to help 
American businesses and workers achieve success in the global 
marketplace.
    That is what we do at the Commerce Department, help the American 
public and American businesses by creating the conditions for economic 
growth, through our diverse programs.
    I have seen firsthand the valuable work of the Department and its 
hardworking employees. Under Secretary Pritzker's leadership, the 
Department is laser-focused on developing and implementing our ``Open 
for Business Agenda.''
    One of the key elements underlying the Department's strategic plan 
is a focus on customer service and providing high quality assistance to 
our stakeholders. Like a business, we have a number of customers who 
rely on our services and products, and we are very focused on 
delivering value for our customers and the American taxpayer.
    In order to deliver value, it is critical that the Department is 
well run. The Deputy Secretary serves as the Chief Operating Officer of 
the organization and is very focused on the Department's operations. 
Secretary Pritzker made ``Operational Excellence'' one of the key 
pillars of the Department's Strategic Plan because we need to 
constantly improve our efficiency and the Department's operations. If 
confirmed as Deputy Secretary, this will be one of my primary 
objectives.
    I have had the honor to work for a number of great leaders during 
my career--Secretary Pritzker; Alan Mulally and Mark Fields at Ford 
Motor Company; and you, Senator Rockefeller. And one of the things that 
I have learned from these experiences is that leadership matters. 
Leaders set the vision and tone for an organization and play a key role 
in leading the team. I am proud of our Commerce employees and am 
excited for the opportunity to help lead the Department as Deputy 
Secretary.
    If confirmed, I look forward to working with the Commerce team and 
with this committee to strengthen the Department, help our 
stakeholders, grow the economy, and make our country a better place.
    Thank you for your consideration of my nomination. I am happy to 
respond to any questions members of the Committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Bruce Huntington Andrews.

    2. Position to which nominated: Deputy Secretary, U.S. Department 
of Commerce.
    3. Date of Nomination: May 22, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: U.S. Department of Commerce, 1401 Constitution Ave, NW, 
        Washington, D.C. 20230.

    5. Date and Place of Birth: February 24, 1968; Syracuse, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Didem Nisanci (wife), Promontory Financial Group, Washington, 
        D.C., Managing Director; children: Ella Andrews--age 10; Dahlia 
        Andrews--age 8.

    7. List all college and graduate degrees. Provide year and school 
attended.

        College: Haverford College, Bachelor of Arts, 1990.
        Graduate: Georgetown University Law Center, JD, 1997.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    *Indicates management-level position.

        U.S. Department of Commerce: Chief of Staff, Office of the 
        Secretary (10/2011 to present)*

        U.S. Senate Committee on Commerce, Science, and Transportation: 
        General Counsel (03/2009-10/2011)*

        Ford Motor Company: Vice President (03/2007-03/2009)*

        Friends of Congressman Tim Holden: Campaign Manager (06/2002-
        11/2002)*

        Quinn Gillespie & Associates: Partner (01/2000-03/2007)*

        Arnold & Porter, LLP: Associate (09/1997-12/1999)

        Congressman Tim Holden: Legislative Director (01/1993-0611997)*

        Congressman Gus Yatron: Legislative Assistant (07/1991-12/1992)

        Senator Alan Cranston: Staff Assistant (09/1990-07/1991)

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Haverford College, Class Representative

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        No Greater Sacrifice Foundation
        Position: Executive Patron
        Dates: 09/2008 to Present

        American Constitution Society
        Position: Member
        Dates: Approx. 2001-2008

        116 Club
        Position: Member
        Dates: 04/2009-11/2011

        District of Columbia Bar Association
        Position: Member
        Dates: 11/1997 to Present

        New York Bar Association
        Position: Member
        Dates: Membership issued 01/1998; membership currently 
        inactive.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of$500 or more for the past ten years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

                         Political Contributions
------------------------------------------------------------------------
                    Recipient                         Date       Amount
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee            10/8/2008       $500
------------------------------------------------------------------------
Dingell, John D. Mr. via John D. Dingell for        7/28/2008     $1,000
 Congress
------------------------------------------------------------------------
Childers, Travis W. via Childers for Congress       7/21/2008       $500
------------------------------------------------------------------------
Kratovil, Frank M. Mr. Jr. via Frank Kratovil       6/24/2008       $500
 for Congress
------------------------------------------------------------------------
Cazayoux, Donald J. via Cazayoux for Congress       4/22/2008       $500
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee            4/18/2008       $500
------------------------------------------------------------------------
Maffei, Daniel Benjamin Mr. via Friends of Dan      3/31/2008       $500
 Maffei
------------------------------------------------------------------------
Adler,John H. via Adler for Congress                3/31/2008       $500
------------------------------------------------------------------------
Democratic Congressional Campaign Commitiee         3/19/2008     $1,000
------------------------------------------------------------------------
Cahir, William John via Cahir for Congress          3/17/2008       $500
------------------------------------------------------------------------
Cahir, William John via Cahir for Congress           2/5/2008       $500
------------------------------------------------------------------------
Democratic Congressional Campaign Commitiee        12/18/2007     $1,000
------------------------------------------------------------------------
Stabenow, Debbie via Stabenow For U.S. Senate      12/13/2007       $500
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee           10/31/2007       $500
------------------------------------------------------------------------
Clinton, Hillary Rodham via Hillary Clinton for     9/29/2007     $1,000
 President
------------------------------------------------------------------------
Klein, Ron via Klein for Congress                   6/30/2007       $500
------------------------------------------------------------------------
Rodriguez, Ciro D. via Ciro D. Rodriguez for        6/30/2007       $500
 Congress
------------------------------------------------------------------------
Pryor, Mark Lunsford via Mark Pryor for U.S.        6/29/2007       $500
 Senate
------------------------------------------------------------------------
Carney, Christopher P. via Carney for Congress      6/29/2007       $500
------------------------------------------------------------------------
Hill, Baron Paul via Hoosiers for Hill              6/28/2007       $500
------------------------------------------------------------------------
Clinton, Hillary Rodham via Hillary Clinton for     6/26/2007     $1,000
 President
------------------------------------------------------------------------
Pelosi, Nancy via Nancy Pelosi for Congress         6/21/2007     $1,000
------------------------------------------------------------------------
Murphy, Patrick J. via Patrick Murphy for           6/21/2007       $500
 Congress
------------------------------------------------------------------------
America's Leadership Pac                            5/22/2007       $500
------------------------------------------------------------------------
Rockefeller, John Davison IV via Friends of Jay     3/28/2007       $500
 Rockefeller
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee            3/20/2007       $500
------------------------------------------------------------------------
Landrieu, Mary L. via Friends of Mary Landrieu,     1/31/2007     $1,000
 Inc.
------------------------------------------------------------------------
Cantwell, Maria via Friends of Maria                9/30/2006       $500
------------------------------------------------------------------------
Democratic Congressional Campaign Commitiee         9/29/2006       $500
------------------------------------------------------------------------
Tester, Jon via Montanans for Tester                7/11/2006     $1,000
------------------------------------------------------------------------
Ford, Harold E. Jr, via Harold Ford Jr. for         6/15/2006     $1,000
 Tennessee
------------------------------------------------------------------------
Sanders, Bernard via Friends of Bernie Sanders      5/23/2006     $1,000
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee            5/23/2006       $500
------------------------------------------------------------------------
Casey, Robert P. Jr. via Bob Casey for              3/31/2006     $1,000
 Pennsylvania Commitiee
------------------------------------------------------------------------
McCaskill, Claire via McCaskill for Missouri        3/30/2006     $1,000
------------------------------------------------------------------------
Pederson, Jim via Pederson 2006                     2/15/2006     $1,000
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee           10/28/2005     $1,000
------------------------------------------------------------------------
Bingaman, Jeff via A Lot of People Who Support      6/30/2005       $500
 Jeff Bingaman (2000)
------------------------------------------------------------------------
Casey, Robert P, Jr, via Bob Casey for              6/29/2005     $1,000
 Pennsylvania Commitiee
------------------------------------------------------------------------
Carper, Thomas R. via Carper for Senate             3/14/2005       $500
------------------------------------------------------------------------
Democratic Senatorial Campaign Commitiee            3/14/2005       $500
------------------------------------------------------------------------
Higgins, Brian via Brian Higgins for Congress       10/4/2004       $500
------------------------------------------------------------------------
Salazar, John Tony Mr. via John Salazar for         9/30/2004       $500
 Congress
------------------------------------------------------------------------
Kerry, John F. via John Kerry for President Inc.     8/9/2004       $750
------------------------------------------------------------------------
Obama, Barack via Obama for Illinois Inc.           6/25/2004       $500
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements. None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Co-authored Government Contractors chapter in Political 
        Activity, Lobbying Laws and Gift Rules Guide (Chapter 11, 
        Glasser Legal Works, 2nd Issue, 1999); and Congressional Gift 
        Rules: New Congressional Gift Rules: A Summary (Arnold & 
        Porter, l998).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have over 20 years of professional experience that has prepared 
me for the position of Deputy Secretary at the U.S. Department of 
Commerce. This wide range of experience includes holding a senior 
position at the Department of Commerce; experience in the private 
sector; and serving on the staff of the U.S. Senate. I am honored to be 
nominated for the Deputy Secretary position, and if confirmed, would 
like to serve in this role because I am deeply committed to the mission 
of the Department to help create the conditions for economic growth in 
the United States.
    In my current position as Chief of Staff to the Secretary of 
Commerce, I have been one of the leaders in the Department--overseeing 
the operation of the Department (including its 12 bureaus and over 
40,000 employees), and have been heavily involved in creating and 
implementing the Department's strategic plan. I am very familiar with 
every aspect of the Department and Secretary Pritzker's vision for it. 
If confirmed, I would be honored to help advance the Department's 
agenda in a new leadership role as Deputy Secretary.
    My experience in the private sector at Ford Motor Company gave me a 
strong appreciation for the ways in which the Department of Commerce 
can help to create the conditions to help American businesses thrive. 
The Department's work in international trade and investment, data, 
innovation, research and development, and even the weather, contributes 
to the ability of American businesses to be successful. My experience 
at Ford provided me significant insight on how the United States 
Government can work with American businesses to help advance U.S. 
competitiveness.
    As General Counsel of the Senate Commerce Committee, I had the 
unique opportunity to see the operations of the Commerce Department 
from an oversight perspective and appreciate the importance of the 
Department working closely with Congress. In the Committee's oversight 
of the Department, I saw a number of the high risk areas and gained a 
better understanding of the importance of several of the Department's 
operations to Committee members. If confirmed, I will apply the skills 
and experience I have gained during my career to my work as Deputy 
Secretary to help American businesses and workers achieve success in 
the global marketplace.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Deputy Secretary plays a key role as the Chief Operating 
Officer of the Department in overseeing the operations and internal 
controls of the Department. To this end, the Deputy Secretary has two 
key direct reports, the Assistant Secretary for Administration/Chief 
Financial Officer and the Chief Information Officer, and works closely 
with every bureau and major function (including the Inspector General 
and General Counsel) on the efficient and effective operations of the 
Department. The Deputy Secretary also plays a key role in the budget 
process, overseeing the Department's high risk programs, implementing 
the strategic plan, and working closely to manage problems and issues 
within the Department.
    As previously mentioned, I have served in numerous senior 
management roles and have seen firsthand how important effective 
management and accounting is to running a large organization. As Chief 
of Staff at the Department of Commerce, I have eight direct reports and 
manage the Office of the Secretary staff of over 80 employees. I also 
assist the Secretary with the Department's day-to-day operations and am 
involved with all aspects of the Department's management and will 
therefore have no learning curve in understanding the operations and 
issues. Likewise, as Vice President at Ford Motor Company, I oversaw a 
large staff and was part of the senior management team. I worked 
closely with the current CEO, Alan Mullaly and incoming CEO, Mark 
Fields, and learned a great deal about managing a large organization.
    If confirmed, I will utilize all of my management experience and 
work closely with Secretary Pritzker and key leaders across the 
Department to ensure we do an outstanding job of managing the 
Department.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Three challenges I believe the Department faces are: implementation 
of the strategic plan, overseeing high risk programs, and doing more 
with our budget.

        1. Implementation of the Strategic Plan: Under Secretary 
        Pritzker's leadership, the Department has created a 
        comprehensive strategic plan, focusing on Trade and Investment, 
        Innovation, Data, the Environment, and Operational Excellence. 
        We are now in the process of implementing and executing the 
        plan. Like any large organization, there are constant 
        distractions, and competing demands and challenges. The 
        Department's senior management team needs to remain focused on 
        executing the strategic plan and working to implement its goals 
        and objectives to achieve results. If confirmed, overseeing 
        this process will be one of my primary objectives as Deputy 
        Secretary.

        2. Overseeing High Risk Programs: The Department has a number 
        of very important, but also operationally challenging programs, 
        such as the NOAA Satellites, the 2020 Census, SelectUSA, and 
        the FirstNet First Responder Network. Each of these programs is 
        very important to our country, but also requires capable and 
        effective management. If confirmed as Deputy Secretary, I would 
        spend a substantial amount of time working on the oversight of 
        these programs and their operation to ensure that they are 
        meeting established milestones and spending money smartly and 
        efficiently.

        3. Doing More with our Budget: In the current budget 
        environment, the Department's budget is likely to remain 
        relatively constant as we are asked to do more. The Department 
        will need to operate smarter and more efficiently to make the 
        most of our appropriated funds. There are a number of programs 
        which would be good investments if we were able to allocate 
        additional funding, including hiring more Commercial Services 
        Officers, scaling up SelectUSA, increasing the Federal 
        investment in manufacturing programs, adding resources to 
        enhance cybersecurity and fix or replace the Department's old 
        IT infrastructure, and moving to shared services. While 
        individual programs may change incrementally, we will need to 
        push to better prioritize and more efficiently spend our 
        resources in order to focus on high priority needs.
                   b. potential conflicts of interest
    1, Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

    QGA 401(k) Plan Holdings

  <bullet> Great West Maxim Life 2035: $423,512

    Ford Motor Company 401(k) Plan Holdings

  <bullet> Black Rock Life Path 2030: $9,858

  <bullet> Black Rock Life Path 2035: $17,243

    Ford Savings and Stock Plan for Salaried Employees

  <bullet> Fidelity Contra Fund: $12,758

  <bullet> Neuberger Berman Genesis Fund: $11,217

  <bullet> T Rowe Price International Discovery Fund: $12,241

    Thrift Savings Plan: $107,253

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    In my positions at Ford Motor Company and Quinn, Gillespie & 
Associates (QGA), I served as a registered lobbyist. At Ford, I worked 
on automobile issues impacting the company. At QGA, I represented a 
variety of clients before Congress and the Executive Branch.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    I was issued an appearance ticket in 1990 for unauthorized use of a 
motor vehicle. The charges were dismissed. The Dewitt, NY Police 
Department mistakenly believed that two of my friends had stolen golf 
carts which they had found on the road and driven back to the golf 
course.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for informationn set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      Resumee of Bruce H. Andrews
Professional Experience

U.S. Department of Commerce, Washington, D.C.
Chief of Staff, Office of the Secretary, October 2011-Present

  <bullet> Manage the day-to-day operations of the Office of the 
        Secretary, including supervising seven office directors and 
        ensuring coordination with the Department's bureaus.

  <bullet> Serve as the most senior advisor and counselor to the 
        Secretary.

  <bullet> Lead coordination with the White House and other Federal 
        agencies.

  <bullet> Work closely with bureau heads, bureaus, and administrative 
        offices; and oversee the Department's administrative, 
        programmatic, and policy functions.

  <bullet> Managed several Secretarial-transitions (of the Secretary 
        and Acting Secretary).

U.S. Senate Committee on Commerce, Science, and Transportation
Washington, D.C.
General Counsel, March 2009-October 2011

  <bullet> Served as chief counsel of the Committee.

  <bullet> Was a senior member of the Committee's management team, and 
        served as a senior policy advisor for Chairman Rockefeller.

  <bullet> Acted as primary parliamentary, jurisdictional, and ethics 
        officer for the Committee.

  <bullet> Worked on all nominations and confirmations in the 
        Committee's jurisdiction.

Ford Motor Company, Washington, D.C.
Vice President, Government Affairs, March 2007-March 2009

  <bullet> Oversaw and led all U.S. Federal and state government 
        affairs. Supervised government affairs personnel and a team of 
        outside government affairs and public affairs consultants, and 
        managed a $10 million annual budget.

  <bullet> Acted as lead external liaison to Executive Branch, 
        Congress, and state governments.

  <bullet> Coordinated and led internal policy development process to 
        achieve Ford's business objectives.

  <bullet> Initiated and supervised Washington communications and 
        public affairs including advertising, communications related to 
        legislation, and political branding.

  <bullet> Served as Member of the Board of Directors and Executive 
        Committee of the Alliance of Automobile Manufacturers, the 
        primary auto industry trade association.

  <bullet> Served as a Trustee of the Ford Motor Company Fund, the 
        philanthropic arm of the Ford Motor Company.

Quinn Gillespie & Associates, Washington, D.C.
Partner, January 2000-February 2007

  <bullet> Provided strategic and tactical counsel to clients on 
        administrative, legislative, political, and regulatory issues; 
        and represented clients before executive and legislative branch 
        officials.

  <bullet> Advised clients on public relations issues and worked with 
        the media on their behalf.

Arnold & Porter, LLP, Washington, D.C.
Attorney, September 1997-January 2000

  <bullet> Focused on state and Federal election and lobbying law, 
        government ethics, telecommunications, and legislative and 
        public policy issues.

  <bullet> Drafted legal briefs, motions, and administrative petitions; 
        researched complex legal and policy issues; and drafted policy 
        papers, talking points, legislation, and amendments.

  <bullet> Represented pro-bono clients before Congress, the Federal 
        Election Commission, the Social Security Administration, and 
        the District of Columbia Superior Court.

  <bullet> Co-authored Government Contractors chapter in Political 
        Activity, Lobbying Laws and Gift Rules Guide (Chapter 11, 
        Glasser Legal Works, 2nd Issue, 1999); and Congressional Gift 
        Rules: New Congressional Gift Rules: A Summary (Arnold & 
        Porter, 1998).

Congressman Tim Holden, Washington, D.C.
Legislative Director, November 1994-July 1997
Senior Legislative Assistant, January 1993-November 1994

  <bullet> Served as the Congressman's senior legislative and political 
        advisor; initiated and directed Member's legislative agenda; 
        and oversaw the legislative operations, including the training 
        and supervision of legislative staff.

Congressman Gus Yatron, Washington, D.C.
Legislative Assistant, July 1991-December 1992

  <bullet> Provided legislative support and expertise to the 
        Congressman on a range of policy issues.

Senator Alan Cranston, Washington, D.C.
Staff Assistant, September 1990-July 1991

Education

Georgetown University Law Center, Washington, D.C.
Juris Doctor, Cum Laude, May 1997

Haverford College, Haverford, PA
Bachelor of Arts, Political Science, May 1990

Bar Admissions: District of Columbia, New York

    The Chairman. Thank you, Mr. Andrews. That was--it was 
actually quite emotional, and I am almost tempted to adjourn 
the hearing.
    [Laughter.]
    The Chairman. But I am not going to.
    Mr. Andrews. I would be fine with that.
    [Laughter.]
    The Chairman. But that was a lovely statement. And the 
public service thing is so incredibly important, and you know, 
you don't find it all by yourself. That gets handed to you by 
parents.
    Mr. Andrews. Indeed.
    The Chairman. Yes, so that is great.
    Mr. Victor Mendez, please?

STATEMENT OF VICTOR M. MENDEZ, NOMINEE TO BE DEPUTY SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Mendez. Good afternoon, Chairman Rockefeller, Ranking 
Member Thune, and members of the Committee. I do appreciate the 
opportunity to be here today, as you consider my nomination to 
serve as the next Deputy Secretary of Transportation.
    It is an honor and a privilege to be recommended by 
Secretary Foxx and nominated by President Obama for this very 
important position. I appreciate the significant role this 
committee plays in establishing transportation policy, and if 
confirmed, I pledge to you that I will work every day to 
support Secretary Foxx, the Committee, and the talented 
professionals of the Department of Transportation.
    Transportation is a critical engine of the Nation's 
economy. Investments in the national air, highway, rail 
transport, transit, and pipeline transportation networks over 
the country's history, and especially the last half century, 
have been instrumental in developing the world's largest 
economy and most mobile society, and this system continues to 
be essential to the long-term prosperity of the United States.
    While the Department's mission is to ensure the safe and 
efficient movement of people and goods, we face daunting 
challenges ahead of us. Safety will always be the top priority 
of the Department, and in addition, virtually every element of 
our transportation system faces daunting capacity constraints 
and investment needs.
    We also face unprecedented challenges in maintaining our 
existing infrastructure while simultaneously building a true 
multi-modal transportation system that will serve the various 
needs of our communities and economy, now and into the future. 
Further, as several of you have mentioned, the Highway Trust 
Fund is in danger of becoming insolvent, as we fail to take 
action.
    I am very mindful of the challenges. However, I am 
confident that, if confirmed, I will be able to apply the 
skills that I have developed over 30 years in the 
transportation arena, including 5 years as Administrator of the 
Federal Highway Administration, over 7 years as Director of the 
Arizona Department of Transportation, and my hands-on 
transportation expertise to support Secretary Foxx and to work 
with you to address these challenges head on.
    During the President's first term, I had the privilege to 
serve as the Administrator of FHWA, and FHWA is the second-
largest mode in the Department, with field offices in every 
state and an annual budget of almost $40 billion per year.
    Early in my tenure as the Administrator, I launched the 
Every Day Counts innovation initiative that identified three 
areas for initial focus: shortening project delivery, 
accelerating technology and innovation deployment, and the 
Going Greener initiative, which is focused on internal 
operations within FHWA.
    EDC gives states a range of tools to streamline 
construction projects and make them more cost effective, all 
while drawing upon new and established technologies and working 
within current legal requirements. This very successful program 
has encouraged numerous innovations, such as the slide-in 
construction bridge, one of my favorites, and an example of the 
type of leadership that I will bring to bear as the Deputy 
Secretary.
    Prior to joining the Department, I served as the Director 
of the Arizona Department of Transportation, and during my 
tenure as Director at ADOT, we built the regional freeway 
system in Phoenix 6 years ahead of schedule. We delivered the 
statewide construction project on time for the past 8 years 
that I was there, and we continued to provide excellent 
customer service at Motor Vehicle Division offices throughout 
the state.
    This was accomplished during a time when there was hyper-
growth in Arizona, while demand for MVD's services increased 
dramatically and the highway construction program actually 
doubled. I also led ADOT in implementing many innovations in 
the area of funding and financing, technology, infrastructure, 
research, planning, and internal operations that resulted in 
improved agency operations and program delivery.
    So, Mr. Chairman, and members of the Committee, thank you 
very much for your consideration and the opportunity to appear 
before you. I am committed to work with you, if confirmed, to 
work with the administration, Secretary Foxx, and all the 
transportation stakeholders to find ways to meet our Nation's 
transportation needs. And I look forward to your questions.
    Thank you.
    [The prepared statement and biographial information of Mr. 
Mendez follow:]

   Prepared Statement of Victor M. Mendez, Acting Deputy Secretary, 
                   U.S. Department of Transportation
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, I appreciate the opportunity to be here today as you 
consider my nomination to serve as the next Deputy Secretary of 
Transportation.
    It is an honor and a privilege to be recommended by Secretary Foxx 
and nominated by President Obama for this very important position. I 
appreciate the significant role this Committee plays in establishing 
transportation policy and, if confirmed, I pledge to you that I will 
work every day to support Secretary Foxx and the talented professionals 
of the Department of Transportation.
    Transportation is a critical engine of the Nation's economy. 
Investments in the national air, highway, rail, port, and pipeline 
transportation networks over the country's history, and especially the 
last half-century, have been instrumental in developing the world's 
largest economy and most mobile society and this system continues to be 
essential to the long term prosperity of the United States.
    While the Department's mission is to ensure the safe and efficient 
movement of people and goods, we face daunting challenges ahead. Safety 
will always be the top priority of the Department. In addition, 
virtually every element of our transportation system faces daunting 
capacity constraints and investment needs. We also face unprecedented 
challenges in maintaining our existing infrastructure while 
simultaneously building a true multi-modal transportation system that 
will serve the varied needs of our communities and economy now and into 
the future. Further, the Highway Trust Fund is in danger of becoming 
insolvent if we fail to take action.
    I am mindful of these challenges. However, I am confident that, if 
confirmed I would be able to apply the skills I have developed over 30 
years in the transportation arena, including five years as 
administrator of the Federal Highway Administration (FHWA), over seven 
years as Director of the Arizona Department of Transportation (ADOT) 
and my hands-on transportation expertise to support Secretary Foxx and 
working with you to address these challenges head on.
    During the President's first term, I had the privilege of serving 
as Administrator of the FHWA. The FHWA is the second largest mode in 
the Department with field offices in every state and an annual budget 
of almost $40 billion. Early in my tenure as Administrator, I launched 
the Every Day Counts (EDC) innovation initiative that identified three 
areas for initial focus: Shortening Project Delivery, Accelerating 
Technology and Innovation Deployment, and the Going Greener initiative, 
which is focused on how the Agency can improve the environment through 
improvements in the internal operations. EDC gives states a range of 
tools to streamline construction projects and make them more cost 
effective--all while drawing upon new and established technologies and 
working within current legal requirements. This very successful program 
has encouraged numerous innovative projects such as the ``Slide-in'' 
construction bridge, one of my favorites, and is an example of the type 
of leadership I would bring to bear as Deputy Secretary.
    Prior to joining the Department, I served as the Director of ADOT. 
During my tenure as Director of ADOT we: 1) built the Regional Freeway 
System in the Phoenix area six years ahead of schedule, 2) delivered 
the statewide transportation construction program on time for the past 
eight years, and 3) continued to provide excellent customer service at 
all Motor Vehicle Division (MVD) field offices throughout the State. 
This was accomplished through innovative management strategies and 
solutions during a time of hyper-growth in Arizona, when demand for MVD 
services increased dramatically and the highway construction program 
doubled. I also led ADOT in implementing many innovations in the areas 
of funding and financing, technology, infrastructure, research, 
planning and internal operations, that resulted in improved agency 
operations and program delivery.
    Chairman Rockefeller and Members of the Committee, thank you for 
your consideration and the opportunity to appear before you today. I am 
committed to working with you, the Administration, Secretary Foxx, and 
all transportation stakeholders to find ways to meet our Nation's 
transportation needs, and I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Victor Manuel 
Mendez.
    2. Position to which nominated: Deputy Secretary, U.S. Department 
of Transportation.
    3. Date of Nomination: May 15, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: U.S. Department of Transportation, 1200 New Jersey 
        Avenue SE, Washington, DC 20590.

    5. Date and Place of Birth: August 13, 1957; Ciudad Juarez, 
Chihuahua, Mexico.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    None.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Arizona State University
        Tempe, AZ
        Masters in Business Administration, 1994

        University of Texas at El Paso
        El Paso, TX
        Bachelors of Science in Civil Engineering, 1980

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    (Management-level experience denoted in italics)
United States Department of Transportation (Washington, D.C.)
        Acting Deputy Secretary, U.S. Department of Transportation (01/
        2014 to present)

        Administrator, Federal Highway Administration (07/2009-12/2013)
Arizona Department of Transportation (Phoenix, AZ)
        Director, Arizona Department of Transportation (07/2001-02/
        2009)

        Deputy Director, Arizona Department of Transportation (09/1999-
        07/2001)

        Deputy State Engineer, Arizona Department of Transportation 
        (02/1997-09/1999)

        Assistant State Engineer, Arizona Department of Transportation 
        (09/1995-02/1997)

        Transportation Engineering Supervisor--Program and Project 
        Section, Arizona Department of Transportation (05/1994-09/1995)

        Transportation Engineering Supervisor--Special Programs 
        Section, Arizona Department of Transportation (09/1992-05/1994)

        Transportation Engineer Supervisor-Preconstruction Engineering, 
        Arizona Department of Transportation (05/1988-09/1992)

        Transportation Engineer I, Arizona Department of Transportation 
        (10/1985-05/1988)
U.S. Forest Service
        Civil Engineer, U.S. Forest Service, Flagstaff, AZ (10/1984-10/
        1985)

        Civil Engineer--Roadway Design and Facilities Engineering, U.S. 
        Forest Service, Prineville, OR (06/1980-10/1984)

    9. Attach a copy of your resume. Please see attachment.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> American Association of State Highway and Transportation 
        Officials (AASHTO); President (2006-2007)

  <bullet> Western Association of State Highway and Transportation 
        Officials (WASHTO); President (2006-2007)

  <bullet> City of Glendale (AZ) Citizens Transportation Oversight 
        Commission; Member and Chair (2002-2006)

  <bullet> City of Glendale (AZ) Special Events Committee; Member 
        (2006-2008)

  <bullet> Valley of the Sun YMCA; Board of Directors; Member (2008-
        2009)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes, I've held appointive office at the state and Federal levels. 
Specifically:

        In 2002, I was appointed by former Arizona Governor Jane Dee 
        Hull and confirmed by the Arizona State Senate to the position 
        of Director, Arizona Department of Transportation;

        In 2003, I was re-appointed by former Arizona Governor Janet 
        Napolitano to the position of Director, Arizona Department of 
        Transportation.

        In 2009, I was appointed by President Obama and confirmed by 
        the U.S Senate to the position of Administrator, Federal 
        Highway Administration.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Arizona State Democratic Central Executive       10/10/2006    $2,000.00
 Committee
------------------------------------------------------------------------
Obama Victory Fund                               03/05/2012      $500.00
                                                 07/05/2012    $2,000.00
                                                 10/05/2012    $2,000.00
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements. None.
    16. List each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of 
personal files and searches of publically available electronic 
databases. Despite my searches, there may be other materials I have 
been unable to identify, find, or remember. I have located the 
following below:

Speeches
    Speeches delivered in my capacity as DOT Acting Deputy Secretary:

  <bullet> January 10, 2014--National Association of Counties State 
        Associations Meeting

  <bullet> January 14, 2014--TRB Dwight Eisenhower Fellowship Program, 
        Washington D.C.

  <bullet> January 14, 2014--TRB Eisenhower Program Closing Reception, 
        Washington, D.C.

  <bullet> January 16, 2014--TRB Long-Term Bridge Performance program, 
        Washington, D.C.

  <bullet> January 22, 2014--Society of Automotive Engineers Government 
        Industry Meeting

  <bullet> January 24, 2014--Mayors Innovation Project Meeting

  <bullet> February 4, 2014--Bloomberg BGOV Infrastructure Conference

  <bullet> February 6, 2014--DOT Civil Rights Virtual Symposium [TAPED 
        Remarks]

  <bullet> February 7, 2014--Eisenhower School Visit

  <bullet> February 16, 2014--Transportation Trades Department 
        Executive Committee Meeting

  <bullet> March 2, 2014--National Association of Counties 
        Transportation Steering Committee Meeting

  <bullet> March 3, 2014--National Association of Counties Large Urban 
        County Caucus Steering Committee Meeting

  <bullet> March 5, 2014--OSDBU Women's History Month Event

  <bullet> March 6, 2014--Associated General Contractors of America 
        Convention

  <bullet> March 10, 2014--International Bridge, Tunnel, and Turnpike 
        Association Summit on Legislation, Policy, and Infrastructure 
        Finance

  <bullet> March 11, 2014--Purdue Road School [TAPED Remarks]

  <bullet> March 13, 2014--National Congress of American Indians 
        Executive Council Winter Session

  <bullet> March 19, 2014--Young Professionals in Transportation 
        Meeting

  <bullet> March 24, 2014--American Association of Port Authorities 
        Spring Conference

  <bullet> March 25, 2014--National Freight Advisory Committee Meeting

  <bullet> March 27, 2014--Garrett Morgan Sustainable Transportation 
        Competition

  <bullet> April3, 2014--Highway Safety Partners' Venture Meeting

  <bullet> April 22, 2014--Great Lakes Regional Small Business 
        Transportation Summit

  <bullet> April29, 2014--USMMA Board of Visitors Meeting

  <bullet> May 6, 2014--National Maritime Strategy Symposium

  <bullet> May 7, 2014--Construction Industry Ethics & Compliance 
        Initiative Spring Conference

  <bullet> May 7, 2014--National Bike to School Day Event

  <bullet> May 8, 2014--U.S. Army War College Visit

  <bullet> May 8, 2014--Representative Adam Smith's DC Day Meeting

  <bullet> May 12, 2014--International Association of Machinists and 
        Aerospace Workers Legislative Conference

  <bullet> May 13, 2014--Steel Manufacturers Association 2014 Annual 
        Member Conference

  <bullet> May 17, 2014--Manor Expressway Ribbon Cutting Ceremony

  <bullet> May 22, 2014--FTA GROW AMERICA Webcast

    Speeches delivered in my capacity as FHWA Administrator can be 
found on the following page of the FHWA website: http://www.fhwa 
dot.gov/briefingroom/speeches/

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

------------------------------------------------------------------------
                                                               Senate/
      Date               Topic               Committee          House
------------------------------------------------------------------------
June 2, 2009     Nomination Hearing    Environment and       Senate
                                        Public Works
------------------------------------------------------------------------
March 17, 2010   Strengthening         Committee on          House
                  Intermodal            Appropriations,
                  Connections and       Subcommittee on
                  Improving Freight     Transportation,
                  Mobility              Housing and Urban
                                        Development, and
                                        Related Agencies
------------------------------------------------------------------------
February 15,     Accelerating the      Committee on          House
 2011             Project Delivery      Transportation and
                  Process               Infrastructure,
                                        Subcommittee on
                                        Highways and
                                        Transit
------------------------------------------------------------------------
March 30, 2011   FHWA FY 2012 Budget   Committee on          House
                  Request               Appropriations,
                                        Subcommittee on
                                        Transportation,
                                        Housing and Urban
                                        Development, and
                                        Related Agencies
------------------------------------------------------------------------
March 22, 2012   President's FY 2013   Committee on          House
                  Budget                Appropriations,
                                        Subcommittee on
                                        Transportation,
                                        Housing and Urban
                                        Development, and
                                        Related Agencies
------------------------------------------------------------------------
March 14, 2013   Implementing MAP-21:  Committee on          House
                  Progress Report       Transportation and
                  from U.S. DOT Modal   Infrastructure,
                  Administrators        Subcommittee on
                                        Highways and
                                        Transit
------------------------------------------------------------------------
June 13, 2013    Crumbling             Committee on          Senate
                  Infrastructure:       Appropriations,
                  Examining the         Subcommittee on
                  Challenges of our     Transportation,
                  Outdated and          Housing and Urban
                  Overburdened          Development, and
                  Highways and          Related Agencies
                  Bridges
------------------------------------------------------------------------
November 14,     Progress Report:      Committee on          House
 2013             Hurricane Sandy       Transportation and
                  Recovery--One Year    Infrastructure
                  Later
------------------------------------------------------------------------

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    It's an exciting and challenging time to be engaged in 
transportation. The solutions for the future will require focus and a 
willingness to consider new ways of doing business. I have the 
experience, knowledge and competence to lead and assist during these 
times, if confirmed.
    During my career at FHWA and at the Arizona Department of 
Transportation, I have been a leader on transportation issues for many 
years. I know the issues and understand the needs of the various 
stakeholders, such as local municipalities, metropolitan planning 
organizations, tribes, elected officials, etc. Over the years, I have 
developed strong business relationships and partnerships with various 
levels of government and industry stakeholders.
    I believe I am in a position to be highly effective in helping 
shape transportation policy to meet the Nation's future needs. The 
nation is on the threshold of redefining its future transportation 
infrastructure and how it will pay for it and I would be privileged, if 
confirmed, to be part of that process.
    As Administrator of the Federal Highway Administration, I led an 
organization of approximately 3,000 employees with offices in every 
state and an annual operating budget of approximately $425 million. 
FHWA promotes the development, operation, and management of an 
intermodal transportation system that is economically efficient, 
environmentally sound, provides a foundation for the Nation to compete 
in the global economy, and moves people and goods safely.
    Under my leadership FHWA successfully administered an average 
annual $41 billion federal-aid transportation program to invest in our 
Nation's highways and bridges. Additionally, FHWA successfully 
implemented $26.6 billion from the American Recovery and Reinvestment 
Act (ARRA). Through ARRA we invested in more than 12,000 road, highway 
and bridge projects across the country. These projects put our fellow 
citizens back to work and made our communities safer, greener, more 
livable, less congested and economically stronger. During my tenure at 
FHWA, I placed significant emphasis on innovation and best practices to 
achieve our efficiency and project delivery objectives.
    Additionally, prior to my job at FHWA, for approximately 8 years I 
was the Director of the Arizona Department of Transportation. I led an 
organization of approximately 4,600 employees with an annual operating 
budget of approximately $430 million. The 5 year capital budget, 
consisting primarily of freeways and highways, averaged approximately 
$6 billion in state and Federal funds. At one point in time, the 
Department had approximately $1.5 billion under contract. ADOT impacts 
virtually every citizen of Arizona through its responsibility to 
license drivers, register vehicles, in addition to planning, building 
and operating the state's transportation infrastructure, as well as 
addressing general aviation needs throughout the state.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed for the position of Deputy Secretary, the chief 
operating officer of the Department of Transportation, it will be 
incumbent upon me to ensure that the Department is delivering the best 
value for the available taxpayer resources. Through the appropriate 
systems and controls, the Department must ensure that all financial 
transactions meet and exceed established protocols to ensure that there 
is no fraud, waste or abuse. In addition, as a manager, my philosophy 
has always been to use audits as management tools for two primary 
purposes: (1) to continuously improve the existing practices and 
processes; and (2) to fix any deficiencies that the auditors may 
identify. It will also be my responsibility to ensure that employees 
are properly trained to perform their responsibilities.
    To this role, I bring significant hands on experience managing 
large complex organizations with annual operating budgets in excess 
of$400 million and overseeing the expenditure of capital budgets that 
totaled well into the billions of dollars in taxpayer funds. Moreover, 
I have a proven track record of successfully leading large 
organizations and working within bureaucracies to deliver tangible 
benefits to the taxpayer.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Safety is our highest priority at USDOT. We will continue to search 
for solutions that improve safety. Safety touches everyone in the 
Nation in one way or another. Almost 33,000 people died on the Nation's 
highways and we need to find strategies to reduce further loss of life. 
We need to continue to remove unsafe motor coaches that operate and 
imperil unsuspecting bus customers. We will continue to focus on 
several new and emerging safety issues, such as the safe transport of 
energy products and addressing auto industry vehicle defects in a more 
timely manner. In the passenger rail sector we need to continue to 
focus on safety culture and positive train control issues. In the 
aviation sector, NextGen implementation is of high priority. It is also 
my belief that we will have to rely on technology solutions to improve 
safety on the Nation's transportation system.
    Appropriate Federal funding for the necessary investments in 
surface and aviation transportation is another challenge. The highway 
account of the Highway Trust Fund will become insolvent in late August, 
followed by insolvency of the transit account in early 2015. These 
infrastructure investments are crucial for the future of the Nation's 
economy and our citizens. Our transportation system which connects all 
of us to jobs, education, healthcare, and many other needs must provide 
for efficient trade and commerce; and allow all of our economic sectors 
to be competitive in a global economy.
    Finally, improving our efficiency is critically important. We must 
strive to obtain the best value for the taxpayers with the available 
resources. We will continue to pursue innovative solutions that will 
cut project delivery time and work on an interagency basis to ensure 
that the Federal Government is delivering infrastructure in the most 
efficient manner possible.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am a participant in the Arizona State Retirement System and 
receive monthly retirement benefits.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As mentioned in item A-17 above, I have testified before several 
congressional committees since 2009. The nature of this testimony has 
typically been to either advocate on behalf of the Administration's 
annual Budget request to Congress or to provide the committees before 
which I testified with an update on a specific policy issue under the 
specific committee's jurisdiction. Additionally, in my role as the 
Director of the Arizona Department of Transportation, I was responsible 
for identifying beneficial transportation-related policies at the state 
and Federal levels.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    First, as I stated in item 4 above I do not reside in Arizona 
anymore. I moved from Arizona approximately 5 years ago. Second, in my 
previous 5 years as the Administrator of the Federal Highway 
Administration a conflict of interest situation has never emerged due 
to my awareness and careful consideration of the national issues that 
we address. So, I will continue to focus on the national/federal nature 
of the issues that we address in transportation.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Approximately 38 years ago I was charged with public nuisance--
drinking a beer in public. The legal drinking age was 18. I was 18 
years of age and pled no contest. From memory, believe I paid a fine of 
$30 or $40. However, I do not recall the exact amount.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    During my tenure as Administrator of the Federal Highway 
Administration and as Director of the Arizona Department of 
Transportation, I was named in my official capacity in numerous civil 
claims. However, I was not directly involved in these legal proceedings 
and no judgments were made against me personally.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Over the past 12 years, as Administrator of the Federal Highway 
Administration and as Director of the Arizona Department of 
Transportation, I have been listed in my official capacity as one of 
the management officials in a few cases and claims, including EEO 
complaints. However, I was not directly involved in these matters and 
none resulted in any findings of wrongdoing against me personally.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      Resumee of Victor M. Mendez
Executive profile
    Victor Mendez is a high performing executive with a proven track 
record of successfully leading large transportation agencies. He has 
strong leadership and communication skills. Victor has worked with 
elected officials from all levels of government and has the distinct 
pleasure of having worked directly for 4 dynamic leaders who have held 
Secretarial positions in the Executive Branch of the Federal 
Government.
    Victor currently serves as the Acting Deputy Secretary at the U.S. 
Department of Transportation, while holding the position as the 
Administrator of the Federal Highway Administration (FHWA). Victor was 
nominated by President Obama and confirmed by the U.S. Senate in July 
2009 to be the FHWA Administrator. Previously, he was a member of 
former Arizona Governor Janet Napolitano's Cabinet as the Director of 
the Arizona Department of Transportation (ADOD. He was ADOT Director 
from 2001 through early 2009 and has been involved in national 
transportation policy issues for many years. In 2008, he was selected 
as Leader of the Year in Public Policy in Transportation by the Arizona 
Capitol Times. During 2006 through 2007, he served as President of the 
American Association of State Highway and Transportation Officials 
(AASHTO) and the Western Association of State Highway and 
Transportation Officials (WASHTO). Throughout 2008, he served on the 
Council of State Governments (CSG) Transportation Advisory Group. In 
past years, he served on several city commissions and committees as a 
citizen of the City of Glendale, Arizona.
    Throughout his career Victor has held various executive management 
positions leading large transportation agencies with thousands of 
employees. He has focused these leadership opportunities to promote: 
(1) effective and efficient government, (2) safety, (3) environmental 
protection and enhancement, (4) innovation, research and technology, 
(5) partnership with transportation interest groups, and (6) smart 
transportation investment that supports job creation. He understands 
that fulfilling government statutory and regulatory responsibilities 
involves resolving conflicts among competing objectives and interests, 
such as preserving neighborhoods, protecting our quality of life, and 
keeping the air clean while providing transportation infrastructure and 
services that grow the economy and create jobs.
    Victor earned a Masters of Business Administration degree from 
Arizona State University and a Bachelors of Science in Civil 
Engineering degree from the University of Texas at El Paso. He is a 
registered professional engineer in the State of Arizona.
Career profile

  <bullet> In December 2013, President Obama appointed Victor to serve 
        as the Acting Deputy Secretary of the U.S. Department of 
        Transportation.

  <bullet> In 2009, President Obama nominated and the U.S. Senate 
        confirmed Victor as the Administrator of the Federal Highway 
        Administration.

  <bullet> In 2003, former Arizona Governor (and current U.S. 
        Department Homeland Security Secretary) Janet Napolitano 
        appointed Victor as Director of the Arizona Department of 
        Transportation.

  <bullet> In 2001, former Arizona Governor Jane Dee Hull appointed 
        Victor as the Department's Acting Director, and he was 
        subsequently confirmed as Director by the State Senate in 2002.

  <bullet> In 1999, former ADOT Director (and past U.S. Department of 
        Transportation Secretary) Mary E. Peters appointed Victor as 
        the department's Deputy Director.

  <bullet> In 1997, Victor was selected as the Deputy State Engineer to 
        lead the implementation of the Phoenix area's multi-billion 
        dollar freeway system.
Leadership and executive management experience
Federal experience
    As the acting Deputy Secretary, Victor is the Department of 
Transportation's chief operating officer. Victor has responsibility for 
the day-to-day operations of 10 modal administrations and more than 
55,000 DOT employees nationwide and overseas. Mendez is focused on 
advancing the Secretary's key priorities and ensuring that the 
transportation system remains the safest in the world and contributes 
to the economic well-being of the Nation.
    As Administrator of the Federal Highway Administration, Victor 
leads an organization of approximately 3,000 employees with offices in 
every state and an annual operating budget of approximately $425 
million. FHWA promotes the development, operation, and management of an 
intermodal transportation system that is economically efficient, 
environmentally sound, provides a foundation for the Nation to compete 
in the global economy, and moves people and goods safely.
    Under Victor's leadership FHWA successfully administered an average 
annual $41 billion Federal aid transportation program to invest in our 
Nation's highways and bridges. Additionally, FHWA successfully 
implemented $26.6 billion from the American Recovery and Reinvestment 
Act (ARRA). Through ARRA we invested in more than 12.000 road, highway 
and bridge projects across the country. These projects put our fellow 
citizens back to work and made our communities safer, greener, more 
livable, less congested and economically stronger.
    In 2009, Victor launched a nationwide innovation initiative called 
Every Day Counts (EDC) to reduce project delivery times and to 
implement market ready technologies that will improve highway safety 
and mobility. EDC has been embraced and implemented by all state 
departments of transportation. Several strategies from EDC were 
actually included in the new surface transportation bill (MAP-21) that 
was signed by President Obama in 2012.
    In 2012, FHWA was recognized as one of the best Federal agencies to 
work, ranking #9 out of 292 sub-cabinet agencies and improving from 
last year's ranking of #12 in the ``Best Places to Work'' survey, 
conducted by the nonpartisan think tank Partnership for Public Service. 
Since 2009, FHWA's overall ranking has improved to #9 from #27.
State experience
    As Director of the Arizona Department of Transportation, Victor Jed 
an organization of approximately 4,600 employees with an annual 
operating budget of approximately $430 million. The 5 year capital 
budget, consisting primarily of freeways and highways, averaged 
approximately $6 billion in state and Federal funds. At one point in 
time, the Department had approximately $1.5 billion under contract. 
ADOT impacts virtually every citizen of Arizona through its 
responsibility to license drivers, register vehicles, as well as to 
plan, build and operate the state's transportation infrastructure, and 
to address general aviation needs throughout the state.
    Victor has a proven track record as a successful director of a 
state transportation agency. Through his leadership ADOT successfully; 
(1) built the Regional Freeway System in the Phoenix area six years 
ahead of schedule, (2) delivered the statewide transportation 
construction program on time for eight consecutive years, and (3) 
continued to provide excellent customer service at all Motor Vehicle 
Division (MVD) field offices throughout the state. This was 
successfully accomplished through innovative management strategies and 
solutions during a time of hyper-growth in Arizona, when demand for MVD 
services increased dramatically and the highway construction program 
doubled.
    During Victor's tenure as ADOT Director, the Department implemented 
many innovations in the areas of funding and financing, technology, 
infrastructure, research, planning and internal operations. These 
innovations resulted in improved agency operations and program 
delivery.
    Vlctor built an organization that was sensitive and responsive to 
the citizens of Arizona while ensuring compliance with statutory and 
regulatory requirements and being mindful of its fiduciary 
responsibilities to the taxpayers. He enhanced the agency's ability to 
communicate with the public and stakeholders through direct contact, 
partnerships, improved media communications and public involvement.
International experience
    Victor has also been actively engaged in international 
transportation issues. During my tenure at the Arizona Department of 
Transportation, he co-chaired the Transportation, Infrastructure and 
Ports Committee of the Arizona Mexico Commission. Additionally, he co-
chaired the Border Crossings and Logistics Worktable of the Border 
Governors Conference. In 2007, he participated and presented at the 
World Road Congress in Paris, France as a member of the AASHTO 
delegation. He is fluent in conversational Spanish. Comprehensive 
``Work History'' is attached
                                 ______
                                 
          Victor M. Mendez--Work History through January 2009
From (Month/Year): 01/2003 to (Month/Year): 01/2009
Employer Name: Arizona Department of Transportation
Position Title: Director
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor's Name: Former Arizona Governor Janet Napolitano

From (Month/Year): 07/2001 to (Month/Year): 01/2003
Employer Name: Arizona Department of Transportation
Position Title: Director
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor's Name: Former Arizona Governor Jane Dee Hull

From (Month/Year): 09/1999 to (Month/Year): 07/2001
Employer Name: Arizona Department of Transportation
Position Title: Deputy Director
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor's Name: Former ADOT Director Mary Peters

From (Month/Year): 02/1997 to (Month/Year): 09/1999
Employer Name: Arizona Department of Transportation
Position Title: Deputy State Engineer--Valley Transportation Group
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor: Tom Schmitt

From (Month/Year): 09/1995 to (Month/Year): 02/1997
Employer Name: Arizona Department of Transportation
Position Title: Assistant State Engineer--Statewide Project Management
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor: Wayne Collins

From (Month/Year): 05/1994 to (Month/Year): 09/1995
Employer Name: Arizona Department of Transportation
Position Title: Transportation Engineering Supervisor, Program and 
Project Section
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor: Dean Lindsey

From (Month/Year): 09/1992 to (Month/Year): 05/1994
Employer Name: Arizona Department of Transportation
Position title: Transportation Engineering Supervisor, Special Programs 
Section
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor: Bob Mickelson

From (Month/Year): 05/1988 To (Month/Year): 09/1992
Employer Name: Arizona Department of Transportation
Position Title: Transportation Engineering Supervisor, Preconstruction 
Engineering
City: Phoenix state: AZ counlry: Zip Code: 85007
Supervisor: Bob Mickelson

From (Month/Year): 10/1985 to (Month/Year): 05/1988
Employer Name: Arizona Department of Transportation
Position Title: Transportation Engineer I
City: Phoenix state: AZ country: Zip Code: 85007
Supervisor: Jamal Sarsam

From (Month/Year): 10/1984 to (Month/Year): 10/1985
Employer Name: U.S. Forest Service
Position Title: Civil Engineer
City: Flagstaff state: AZ country: Zip Code: 86001
Supervisor's Name: Bob Macdonald

From (Month/Year): 06/1980 to (Month/Year): 10/1984
Employer Name: U.S. Forest Service
Position Title: Civil Engineer, Roadway Design and Facilities 
Engineering
City: Prineville state: OR country: Zip Code: 97754
Supervisor's Name: Jim Saurbier

    The Chairman. Thank you very much, Mr. Mendez.
    Mr. Rogoff?

   STATEMENT OF PETER M. ROGOFF, UNDER SECRETARY FOR POLICY-
          DESIGNATE, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Rogoff. Well, thank you, Chairman Rockefeller, Ranking 
Member Thune, and members of the Committee.
    It is an honor for me to appear before you today as 
President Obama's nominee for Under Secretary of Transportation 
for Policy. Having served on the staff of a Senate Committee 
for 22 years, I know that the confirmation process is one of 
the most important constitutional responsibilities of the 
Senate. So I come to this hearing with great humility and a 
respect for the process.
    I would like also to introduce my family, Ms. Dina Morris, 
my wife; my daughter, Lucy Rogoff; our great friend and the 
greatest nanny on the planet, Marlene Dowling-Leech. And my 
teenage son is unfortunately charged with teaching a class to 
his peers in high school but he could not be here today but is 
with us in spirit.
    As you pointed out, Mr. Chairman, I did considerable work 
with a number of Senators on the Appropriations Committee. My 
first Chairman was actually Senator John Stennis of 
Mississippi. But shortly after he left the Committee and left 
the Senate, I was given the opportunity to move to the 
Transportation Subcommittee. I then served 19 years on the 
staff of the Transportation Subcommittee, including 14 years as 
its Democratic Staff Director.
    I am deeply proud of my contributions during that time, 
assisting the Senate in advancing improvements and new 
initiatives to make our transportation system across all modes 
safer and more efficient.
    My work included serving as a principal staff adviser for 
numerous policy initiatives, including the .08 drunk driving 
law, new maritime screening efforts to ban substandard ships 
and polluters from U.S. ports, new inspection regimes to ensure 
the safety of cross-border truck movements, new training and 
recruitment mechanisms for air traffic controllers, new drug 
and alcohol testing requirements for transportation industry 
employees, new Federal assistance measures for accident 
victims, and the development of new aviation user fees to 
finance security requirements in the wake of 9/11.
    Many of those initiatives were careful acts of coordination 
between the Appropriations Committee and the Commerce 
Committee. So I have had a great deal of work with this 
committee as well.
    In April 2009, the President nominated me to serve as his 
Federal Transit Administrator, and the Senate confirmed me to 
that position of May of that year. And then, this past January, 
the President directed me to serve as the Under Secretary of 
Transportation for Policy on an acting basis. My nomination to 
serve in that position is now before you.
    As Administrator of the FTA, I presided over the 
significant modernization of an $11 billion agency with more 
than 500 employees and 200 contractors across the Nation, as 
well as hundreds of grantees that ranged from our largest and 
most complex transit systems to small vanpools providing 
critical medical transportation in sparse, rural communities 
and on tribal lands.
    While Administrator, I developed and transmitted new safety 
legislation to Congress, which is now part of MAP-21, granting 
FTA new authority for the first time in its 50-year history to 
establish and enforce minimum transit safety standards on all 
federally funded rail transit systems.
    I am particularly proud of my effort to streamline the 
FTA's processes, including the New Starts program. We 
substantially transformed the approach away from a ``Washington 
knows best'' attitude, to one where the FTA works to help State 
and local leaders deploy their own vision for improved mobility 
in their community.
    We also made substantial improvements in the FTA's 
triennial audit and review process, moving away from a ``one 
size fits all'' enforcement exercise to one focused on each 
transit agency's unique characteristics, while ensuring 
continued Federal compliance.
    Currently, as Acting Under Secretary of Policy, I have had 
the pleasure of assisting Secretary Foxx and our modal 
administrators in developing, finalizing, and formally 
transmitting to Congress a comprehensive multi-modal surface 
transportation reauthorization act, or the GROW AMERICA Act. It 
is a $302 billion, 4-year proposal, all built around the 
imperative presented by the fact that our Nation will see 100 
million citizens in growth by the year 2050. That is 100 
million additional citizens who will put dramatically increased 
demands on our surface transportation system, both in moving 
people and freight.
    The year 2050 may seem very far away to some of us, but as 
the parents of two teenagers, my wife and I have to reflect on 
the fact that in the year 2050, our kids will be roughly the 
ages that we are now. And they will either be working in an 
economy that continues to grow and supports a rising quality of 
life, or they will be struggling in an economy whose potential 
has been choked off by punishing congestion and deteriorated 
infrastructure.
    These are the competing visions for the future that all of 
us transportation policymakers face today, as you, Mr. 
Chairman, and you, Senator Thune, expressed cogently in your 
opening statement. So I very much appreciate the opportunity to 
continue with this committee on these issues going forward.
    Thanks very much.
    [The prepared statement and biographical information of Mr. 
Rogoff follow:]

   Prepared Statement of Peter M. Rogoff, Under Secretary for Policy-
              Designate, U.S. Department of Transportation
    Chairman Rockefeller, Ranking Member Thune, Members of the 
Committee, it is an honor for me to appear before you today as 
President Obama's nominee for Under Secretary of Transportation for 
Policy.
    Having served on the staff of a Senate Committee for 22 years, I 
know that the confirmation process is one of the most important 
constitutional responsibilities of the Senate. So I come to this 
hearing with great humility and respect for the process.
    My experience in transportation policy began roughly 25 years ago 
when, in 1989, Appropriations Committee Chairman Robert C. Byrd gave me 
the opportunity to move from the staff of the subcommittee on Labor, 
HHS and Education to the Transportation subcommittee. I then served for 
19 years on the staff of the Transportation Subcommittee, including 14 
years as the Democratic Staff Director of the Subcommittee.
    I am deeply proud of my contributions during that time assisting 
the Senate in advancing improvements and new initiatives to make our 
transportation system across all modes safer and more efficient. My 
work included serving as a principal staff advisor for numerous 
groundbreaking transportation policy initiatives, including the .08 BAC 
drunk driving law, new maritime screening efforts to ban substandard 
ships and polluters from U.S. ports, new inspection regimes to ensure 
the safety of cross-border truck movements, new training and 
recruitment mechanisms for air traffic controllers, new drug and 
alcohol testing requirement for transportation industry employees, new 
Federal assistance measures for accident victims, and the development 
of new aviation user fees to finance security requirements and targeted 
unemployment benefits for aviation workers in the wake of 9/11. I was 
also heavily involved in efforts to strengthen safety inspections of 
substandard trucks, cargo vessels, and pipelines. Together, these laws 
and regulations are credited with saving tens of thousands of lives.
    In April 2009, the President nominated me to serve as his Federal 
Transit Administrator, and the Senate confirmed me to that position in 
May of that year. This past January, the President directed me to serve 
as the Undersecretary of Transportation for Policy on an acting basis. 
My nomination to serve in that position is now before you.
    As Administrator of the Federal Transit Administration (FTA), I 
presided over the significant modernization of an $11 billion agency 
with more than 500 employees and 200 contractors here in Washington and 
ten Regional offices. Throughout my tenure as the agency's 
Administrator, the FTA never failed to obtain a clean audit opinion 
while administering billions of dollars in grant funds to literally 
hundreds of grantees. These grantees ranged from our largest and most 
complex urban systems to small van pools providing critical medical 
transportation in sparse rural communities and tribal lands.
    While Administrator, I presided over the transition from SAFETEA-LU 
to a new, two-year surface transportation authorization, MAP-21. The 
new law reflects many of FTA's and the U.S. Department of 
Transportation's highest policy priorities to strengthen public 
transportation. In particular, the Administration developed and 
transmitted new safety legislation to Congress which is now part of 
MAP-21, granting FTA new authority for the first time in its 50-year 
history to establish and enforce minimum transit safety standards on 
all federally funded rail transit systems.
    I am particularly proud of my effort to streamline the FTA's 
processes, including the New Starts program--the agency's major capital 
public transportation program for expanding transit systems. We have 
substantially transformed the approach away from a ``Washington knows 
best'' attitude to one where the FTA works to help state and local 
leaders deploy their own vision for improved mobility in their 
community. We also made substantial improvements in the FTA's triennial 
audit and review process--moving away from a ``one size fits all'' 
enforcement exercise to one focused on each transit agency's unique 
characteristics while ensuring continued Federal compliance as they 
take on new challenges. I also initiated important revisions and 
clarifications to FTA's policies to better guarantee that all funding 
recipients comply fully with Federal civil rights laws including the 
Americans with Disabilities Act.
    Currently, as Acting Under Secretary of Transportation for Policy, 
I have had the pleasure of assisting Secretary Foxx and our modal 
administrators in developing, finalizing, and formally transmitting to 
Congress a comprehensive multimodal surface transportation 
reauthorization act--the GROW AMERICA Act. The GROW AMERICA Act is a 
$302 billion, four-year transportation reauthorization proposal built 
around the policy imperatives presented by the fact that our Nation 
will see an additional 100 million citizens by the year 2050--100 
million citizens that will put dramatically increased demands on our 
surface transportation system, both in moving people and freight.
    The year 2050 may seem far away to some of us. But as the parents 
of two teenagers, my wife and I often reflect on the fact that, in the 
year 2050, our kids will be roughly the ages that we are now. And they 
will either be working in an economy that continues to grow and 
supports a rising quality of life, or they will be struggling in an 
economy whose potential has been choked off by punishing congestion and 
deteriorated infrastructure.
    Those are the competing visions for the future that all of us as 
transportation policymakers face today, including the Members of this 
Committee. I would very much appreciate the opportunity to continue to 
work with this Committee and the rest of Congress as we tackle these 
challenges together in the years ahead.
    Thank you for the opportunity to present my testimony this 
afternoon. I would be happy to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Peter Matthew 
Rogoff.
    2. Position to which nominated: Under Secretary of Transportation 
for Policy, U.S. Department of Transportation (USDOT).
    3. Date of Nomination: May 15, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: U.S. Department of Transportation, 1200 New Jersey 
        Ave., SE, Washington, D.C. 20590
    5. Date and Place of Birth: March 9, 1960; New York, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Ms. Dena Morris, Legislative Director, Office of U.S. 
        Senator Richard Durbin (D-IL); children: Niles H. M. Rogoff, 
        Age 16; Lucille H.M. Rogoff, Age 14.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Amherst College
        Amherst, MA
        Bachelor of Arts, 1983

        Georgetown University
        Washington, D.C.
        Masters in Business Administration, 2001

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    (Management-level experience denoted in italics)

    U.S. Department of Transportation
    Washington, D.C.

  <bullet> Acting Under Secretary of Transportation for Policy (January 
        2014-Present)

  <bullet> Federal Transit Administrator (May 2009-Present)

    U.S. Senate Committee on Appropriations
    Washington, D.C.
    Subcommittee on Transportation, Housing and Urban Development, and 
Related Agencies

  <bullet> Democratic Staff Director (January 1995-May 2009)
  <bullet> Professional Staff Member (January 1990-December 1994)

    Subcommittee on Labor, Health and Human Services, Education, and 
Related Agencies

  <bullet> Professional Staff Member (January 1987-December 1989)

    National Association of Independent Colleges and Universities 
(NAICU) Washington, D.C.

  <bullet> Legislative Associate (est. April 1984-January 1987)

    Coalition of Private University Students (COPUS)
    Washington, D.C.

  <bullet> Legislative Director (Est. November 1983-April 1984)
    9. Attach a copy of your resume. Attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local govemments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap. None.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    In 2009, I was appointed by President Barack Obama and confirmed by 
the U.S. Senate to the position of Administrator of the Federal Transit 
Administration (FTA).
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Contributions over the last ten years:
------------------------------------------------------------------------
People for Patty Murray                          09/20/2010      $500.00
------------------------------------------------------------------------
Pennsylvania Democratic Party                    10/18/2004      $500.00
------------------------------------------------------------------------
Obama for America                                07/27/2012     $2500.00
                                                 10/24/2008    $1,100.00
                                                 09/15/2008    $1,000.00
------------------------------------------------------------------------
Obama Victory Fund                               10/22/2008    $1,300.00
------------------------------------------------------------------------

Services:
  <bullet> GOTV Volunteer, Presidential Campaign of Barack Obama (2008)

  <bullet> GOTV Volunteer, Patty Murray for U.S. Senate (2004; 2010)

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> Community Transportation Association of America's Dr. and 
        Mrs. William and Budd Bell Award (2012)

  <bullet> Conference of Minority Transportation Officials (COMTO) 
        National Chair's Award (2010)

  <bullet> Transportation Equity Network's Rosa Parks Award (2010)

  <bullet> Lester P. Lamm Memorial Award (2008)

  <bullet> United States Coast Guard Commandant's Distinguished Public 
        Service Award (2003)

  <bullet> Beta Gamma Sigma Honor Society for Business Education (2001)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of 
personal files and searches of publically available electronic 
databases. Despite my searches, there may be other materials I have 
been unable to identify, find, or remember. I have located the 
following below:
Publications:
  <bullet> ``Cost is still a factor. Just not the only one.'' St. Paul 
        Pioneer Press; January 20, 2010.

  <bullet> Letter to the Editor responding to ``Off the San Francisco 
        Rails.'' Wall Street Journal; September 3, 2011.
Speeches:
    Speeches delivered in my capacity as USDOT Acting Under Secretary 
of Transportation for Policy:

  <bullet> 04/14/2014--National Shippers Strategic Transportation 
        Council Annual Conference and Transportation Expo; Orlando, FL

  <bullet> 03/13/2014--Road Gang Annual Conference; Washington, D.C.

  <bullet> 03/13/2014--Mileage-Based User Free Alliance Conference; 
        Washington, D.C.

  <bullet> 03/06/2014--East Coast P3 Infrastructure Conference; 
        Charlotte, NC

  <bullet> 01/24/2014--New York Metropolitan Transportation Authority 
        Sandy Grants; New York, NY

  <bullet> 01/06/2014--Metro 7000 Series Rail Car Intro; Greenbelt, MD

    Speeches delivered in my capacity as FTA Administrator can be found 
on the following page of the FTA website: http://www.fta.dot.gov/
newsroom/12290.html
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

------------------------------------------------------------------------
    Date                Committee                       Topic
------------------------------------------------------------------------
01/16/2014    U.S. Senate Committee on      ``Progress Report on Public
               Banking, Housing, and Urban   Transportation Under MAP-
               Affairs                       21''
------------------------------------------------------------------------
12/11/2013    U.S. House Transportation     ``Examining the Current and
               and Infrastructure            Future Demands on FTA's
               Committee--Highways &         Capital Investment Grants''
               Transit Subcommittee
------------------------------------------------------------------------
11/14/2013    U.S. House Transportation     ``Progress Report: Hurricane
               and Infrastructure            Sandy Recovery--One Year
               Committee                     Later''
------------------------------------------------------------------------
09/18/2013    U.S. Senate Committee on      ``Recovering from Superstorm
               Banking, Housing, and Urban   Sandy: Assessing the
               Affairs--Housing,             Progress, Continuing Needs,
               Transportation, and           and Rebuilding Strategy''
               Community Development
               Subcommittee
------------------------------------------------------------------------
03/28/2013    U.S. Senate Committee on      ``Improving Transportation
               Banking, Housing, and Urban   Options in Rural States and
               Affairs--Field Hearing in     Tribal Areas Under MAP-21''
               Sioux Falls, SD
------------------------------------------------------------------------
03/14/2013    U.S. House Transportation     ``Implementing MAP-21:
               and Infrastructure            Progress Report from U.S.
               Committee--Highways &         DOT Modal Administrators''
               Transit Subcommittee
------------------------------------------------------------------------
12/20/2012    U.S. Senate Committee on      ``Recovering from Superstorm
               Banking, Housing, and Urban   Sandy: Rebuilding Our
               Affairs--Housing,             Infrastructure''
               Transportation, and
               Community Development
               Subcommittee
------------------------------------------------------------------------
05/19/2011    U.S. Senate Committee on      ``Public Transportation:
               Banking, Housing, and Urban   Priorities and Callenges
               Affairs                       for Reauthorization''
------------------------------------------------------------------------
04/21/2010    U.S. House Committee on       ``Audit of the Tri-State
               Oversight and Government      Oversight Committee and the
               Reform                        Washington Metropolitan
                                             Area Transportation
                                             Authority''
------------------------------------------------------------------------
03/23/2010    U.S. House Committee on       ``Federal Transit
               Appropriations--Subcommitte   Administration's FY2011
               e on Transportation,          Budget Request''
               Housing and Urban
               Development, and Related
               Agencies
------------------------------------------------------------------------
12/08/2009    U.S. House Transportation     ``Public Transit Safety:
               and Infrastructure            Examining the Federal
               Committee--Highways &         Role'' Note: DOT Secretary
               Transit Subcommittee          Ray LaHood with the primary
                                             witness for this hearing
                                             and was accompanied by FTA
                                             Administrator Rogoff
------------------------------------------------------------------------
08/04/2009    U.S. Senate Committee on      ``Rail Modernization:
               Banking, Housing, and Urban   Getting Transit Funding
               Affairs--Housing,             Back on Track``
               Transportation, and
               Community Development
               Subcommittee
------------------------------------------------------------------------
07/14/2009    U.S. House Committee on       ``Back on Track: WMATA Red
               Oversight and Government      Line Metrorail Accident and
               Reform--Federal Workforce,    Continual Funding
               Postal Service, and the       Challenges``
               District of Columbia
               Subcommittee
------------------------------------------------------------------------
05/13/2009    U.S. Senate Committee on      Confirmation hearing as the
               Banking, Housing, and Urban   Administrator-Nominee for
               Affairs                       the Federal Transit
                                             Administration
------------------------------------------------------------------------

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My professional career for the last 24 years has been focused 
almost exclusively on transportation policy. Of my 22 years serving on 
the staff of the U.S. Senate Appropriations Committee, I spent 19 
serving on the Transportation Subcommittee, including 14 years as the 
Democratic Staff Director of the Subcommittee. Throughout that period, 
I developed both budget and policy expertise regarding all modes to 
transportation and had the opportunity to contribute to numerous 
landmark legislative accomplishments, including both authorization and 
appropriations bills.
    In serving as the Federal Transit Administrator for the last four 
and half years, I have gained a full appreciation of how policy 
direction can best be applied in the administration of Federal programs 
to maximize efficiency and effectiveness for the benefit of 
transportation stakeholders and taxpayers.
    I desire to serve as the Under Secretary of Transportation for 
Policy, if confirmed, so that I can apply these experiences to 
improving the cost effectiveness and performance of Federal 
transportation programs across all modes.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The importance of proper management controls and financial 
accountability cannot be overstated when developing and applying 
Federal policy for transportation programs. All funds expended at USDOT 
are derived from taxpayers and system users, and we have the highest 
obligation to see to it that their funds are spent wisely and without 
waste.
    As Federal Transit Administrator, I headed an agency of more than 
500 employees and some 200 contractors with an annual budget of more 
than $11 billion. The FTA has literally hundreds of grantees and any 
one of those grant relationships have the potential for waste or abuse. 
Even so, the FTA received a clean audit opinion throughout my tenure 
with zero known Anti Deficiency Act violations. Throughout that time, I 
have had a productive relationship with the DOT Office of Inspector 
General, and I have not hesitated to personally refer cases to that 
office when I have had suspicions or concerns.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Safety has been, and must continue to be, the highest priority for 
senior officials at the Department of Transportation. Rapid changes in 
technology represent both a threat to safety and a huge opportunity to 
strengthen safety across all transportation modes. USDOT will face a 
considerable challenge in addressing those threats, like distracted 
driving, while maximizing the benefits new technology can provide, like 
guaranteeing vehicle separation on highways, railways, and runways.
    The most recent census indicates that, as a nation, we will have 
more than 100 million additional citizens by the year 2050. And many of 
the areas that will see the most rapid population growth are already 
struggling to accommodate the population growth they have already 
experienced over the last decade. Working together with state and 
localities, the Department of Transportation must start planning for 
that population growth now so that growing congestion does not hinder 
the movement of people and freight to the point that it threatens the 
ability of the economy to grow. At the same time, DOT must work 
aggressively to ensure that economic changes do not result in 
communities that are not growing from being cut off from our national 
transportation network, especially our aviation and rail networks, but 
also our highway and marine networks.
    Most immediately, the USDOT is facing the imminent insolvency of 
both the highway and transit accounts of the Highway Trust Fund. 
Working with Congress, the Department must ensure that sufficient 
revenues are deposited in both accounts to ensure that our highway and 
transit construction and maintenance efforts are not reduced to 
crippling levels by the end of this commg summer.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I continue to have a Mass Mutual retirement account with the 
National Association of Independent Colleges and Universities. No 
contributions have been made to the account since I left their employ 
in 1987.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    During my period as FTA Administrator, I advocated for the 
President's program in advancing annual budget requests and the 
enactment of comprehensive transit safety legislation that was 
transmitted by the Administration to Congress in December of 2009.
    In my previous role as Staff Director of the U.S. Senate 
Appropriations Subcommittee on Transportation, Housing and Urban 
Development, I advocated for the passage of, or modification to, 
appropriations and authorization legislation consistent with the 
direction provided by the Subcommittee and Full Committee Chairman.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    During my tenure as Administrator of the Federal Transit 
Administration, I was named in my official capacity in numerous civil 
claims. However, I was not directly involved in these legal proceedings 
and no judgments were
    made against me personally.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other tl1an a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    During my tenure as Administrator of the Federal Transit 
Administration, I was named in my official capacity in a few cases and 
claims, including EEO complaints. I was not directly involved in these 
matters and none resulted in any findings of wrongdoing against me 
personally or in my official capacity as the principal of the agency.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
frrsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testif'y before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resumee of Peter M. Rogoff
Acting Under Secretary of Transportation for Policy
U.S. Department of Transportation; January 2014 to Present

  <bullet> On January 25, 2014, President Barack Obama directed Peter 
        M. Rogoff to perform the duties of the Office of Under 
        Secretary of Transportation for Policy.

  <bullet> In this role, he serves as the principal advisor to the 
        Secretary, while providing leadership in the development of 
        policies for the Department, generating proposals and providing 
        advice regarding legislative and regulatory initiatives across 
        all modes of transportation. His office oversees the Office of 
        Transportation Policy and the Office of Aviation and 
        International Affairs.

Federal Transit Administrator
U.S. Department of Transportation; May 2009 to Present

  <bullet> Successfully lead an agency of more than 500 staff through a 
        period of historic change and reform, redirecting an annual 
        budget of more than $10.9 billion to investments that focus on 
        key Obama Administration priorities, including reducing 
        consumption of foreign oil, improving mobility for working 
        families, reducing emissions of Greenhouse Gases, creating 
        thousands of family wage jobs, developing and deploying cutting 
        edge technologies, and streamlining and eliminating 
        bureaucratic processes to put taxpayer funds to work rapidly 
        and effectively.

  <bullet> Successfully administer a single year 80-percent surge in 
        funding as a result of the Recovery Act, meeting all statutory 
        deadlines while ensuring compliance with all Federal rules.

  <bullet> Successfully develop and advocate for a historic expansion 
        of FTA's mission to include critical safety responsibilities in 
        the wake of a spate of rail transit accidents across the 
        Nation.

  <bullet> Reinvigorate and strengthen the FTA's Civil Rights 
        enforcement functions to ensure full application of Title VI of 
        the Civil Rights Act, Environmental Justice requirements, and 
        the American with Disabilities Act.

  <bullet> Dramatically increase public transit's participation in the 
        DOT's credit assistance programs to foster public-private 
        partnerships that expedite investment in new transit capacity.

  <bullet> Revolutionize the FTA's application of the Buy America Act 
        to re-create U.S. manufacturing jobs, reducing the number of 
        Buy America ``waivers'' by more than 90 percent.

  <bullet> Use broad-based experience with other Transportation issues 
        to advise the Secretary on policy and budget matters in other 
        DOT Modal Administrations.

Democratic Staff Director; January, 1995 to May, 2009
Professional Staff Member; January 1990 to December 1994
Subcommittee on Transportation, Housing and Urban Development, and 
Related Agencies
U.S. Senate Committee on Appropriations

  <bullet> Ably advised Subcommittee and Full Committee Chairman on all 
        areas of Federal transportation policy. Managed and mentored a 
        staff of policy professionals. Liaised regularly with senior 
        DOT, OMB, and other WH officials as well as State 
        Transportation Commissioners, Port Authorities, trade unions, 
        advocacy groups, and transit, railroad, airport, airline, 
        shipping, trucking and pipeline executives.

  <bullet> Served as principal staff advisor for numerous 
        groundbreaking transportation policy initiatives including the 
        .08 BAC drunk driving law, new aviation user fees to finance 
        security requirements, new maritime screening efforts to ban 
        substandard ships and polluters from U.S. ports, new inspection 
        regimes to ensure the safety of cross-border truck movements, 
        new training and recruitment mechanisms for the air traffic 
        controller workforce, new drug and alcohol testing requirement 
        for transportation industry employees, new Federal assistance 
        measures for accident victims, and targeted unemployment 
        benefits for aviation workers in the wake of the industry 
        upheaval following 9/11.

  <bullet> Developed extensive expertise in Federal transportation 
        budgeting and infrastructure investment mechanisms. Served as 
        principal staff advisor on several successful bipartisan 
        efforts to sure up the balance of the Highway Trust Fund. 
        Routinely reviewed agency budgets with a focus on eliminating 
        wasteful and unnecessary spending.
Prior Professional Positions

  <bullet> Professional Staff Member, Senate Appropriations 
        Subcommittee on Labor, Health and Human Services, Education, 
        and Related Agencies; January 1987 to December 1989.

  <bullet> Legislative Associate, National Association of Independent 
        Colleges and Universities; Est. April 1984 to January 1987.

  <bullet> Legislative Director, Coalition of Private University 
        Students (COPUS); Est. November 1983 to April 1984.
                               Education
Masters in Business Administration (MBA), with honors, 2001. Georgetown 
University. Achieved degree while working full time. Inducted into Beta 
Gamma Sigma Honors Society.

Bachelor of Arts, Amherst College, 1983. Majored in American Studies.
                          Awards and Citations
Dr. and Mrs. William and Budd Bell Award, 2012. Awarded for ``tireless 
advocacy for seniors and people with disabilities.'' Community 
Transportation Association of America.

National Chair's Award, 2010. Conference of Minority Transportation 
Officials (COMTO).

Rosa Parks Award, 2010. Transportation Equity Network, awarded for 
``overturn(ing) restrictive Bush-era transit funding guidelines to 
allow livability, equity and sustainability to become criteria in 
funding major transit projects.''

Lester P. Lamm Memorial Award, 2008. Awarded for outstanding leadership 
and dedication to U.S. highway transportation programs.

Distinguished Public Service Award, 2003. The highest public service 
award granted by the Commandant, United States Coast Guard, for 
outstanding efforts in advancing Coast Guard missions.
                                Personal
Age 53. Married with two teenage children.
Security Clearance: TS--1990 to present. SCI--2003 to present.

    Mr. Chairman. Thank you very much, sir.
    And now, Mr. Marcus Jadotte. And you can reintroduce.
    [Laughter.]

         STATEMENT OF MARCUS D. JADOTTE, NOMINEE TO BE

         ASSISTANT SECRETARY FOR INDUSTRY AND ANALYSIS,

              INTERNATIONAL TRADE ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Jadotte. I will. I am afraid that my son may run out if 
we did.
    Thank you very much, Mr. Chairman, Ranking Member Thune, 
and members of the Committee. I am honored by and grateful for 
your consideration to serve as Assistant Secretary of Commerce 
for Industry and Analysis.
    I know that Senator Nelson had to leave, but I want to 
acknowledge his warm introduction of myself and my family 
earlier, especially grateful for his friendship over the years 
and his leadership in our home state.
    I also again want to acknowledge Jennifer and our children. 
We are very proud to be here.
    The opportunity to speak with you today on this panel of 
nominees is truly humbling. I am honored that President Obama 
and Commerce Secretary Pritzker believe that I can make a 
contribution to the work the United States Department of 
Commerce is doing to support American business, economic 
growth, and jobs.
    The Industry and Analysis team is perhaps the best-kept 
secret in the Federal Government, and I look forward to working 
with each and every member of that team, if I am confirmed. I 
strongly believe in the value of public service. If confirmed, 
I would welcome the opportunity to combine my private sector 
and public sector experiences to make a meaningful contribution 
to the Department's work.
    As an executive at NASCAR, I managed staff with a broad 
range of expertise and oversaw complex budgets and high-profile 
projects. The skills I developed in that role are skills that 
are applicable to the role of Assistant Secretary for Industry 
and Analysis.
    Additionally, at NASCAR, I was responsible for fostering 
relationships with key business partners, organizing community 
outreach, and developing and implementing strategic plans to 
achieve results, all important experiences that have helped me 
prepare for a leadership role at the International Trade 
Administration, should I be confirmed.
    If confirmed to this position, I will oversee programs 
focused on strengthening the U.S. economy and helping more 
companies export and create jobs. The I&A staff have an array 
of skills and are specifically focused on helping U.S. 
manufacturing, services, tourism, and textile companies, and 
other industries, increase exports. I look forward to working 
with this experienced staff to help advance its goals and 
mission.
    As I mentioned, I&A is comprised of offices that are 
focused on various sectors of the economy. During my career, I 
have worked extensively with two I&A critical sectors--tourism 
and travel, and automotive. I have a strong understanding of 
these industries and a history of working collaboratively with 
industry stakeholders and would welcome an opportunity to bring 
that knowledge to the industry team at ITA.
    In my roles as Chief of Staff for two members of Congress, 
and as a special assistant at the Labor Department, I gained 
valuable insight into the legislative process and the 
operations of the Federal Government, all of which I believe 
would be called upon in the role to which I have been 
nominated.
    Last, an effective leader must communicate a vision that 
colleagues understand and support. A leader must also be 
accountable for results. This approach is important to the 
success of any organization, and I will work hard every day to 
meet this standard, if I have an opportunity to serve in the 
position.
    If confirmed, I will apply the experience that I have 
gained as an executive and as an administrator to ensure that 
I&A does an even better job of helping U.S. business contribute 
to the growth of the economy, improving customer service, and 
educating American business on the important services available 
at the Department of Commerce to help them grow at home and 
abroad.
    Thank you for your time and consideration. I look forward 
to answering any questions you may have.
    [The prepared statement and biographical information of Mr. 
Jadotte follow:]

 Prepared Statement of Marcus D. Jadotte, Nominee--Assistant Secretary 
      of Commerce for Industry and Analysis, International Trade 
              Administration, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, I am honored by and grateful for your consideration to serve 
as Assistant Secretary of Commerce for Industry and Analysis.
    I would especially like to thank Senator Nelson for his leadership, 
his friendship over the years--and for the warm introduction today.
    I also want to acknowledge my wife Jennifer and our children Ashton 
and Sofia, who are with me here today. Jennifer and I both arrived in 
our country as children. She arrived from Seoul as a newborn and I 
arrived from Nassau as a fourth grader. We met as grad students at 
Florida State University and are both grateful for the opportunity to 
build our lives and family in this great country.
    The opportunity to speak with you today on this panel of nominees 
is truly humbling. I am honored that President Obama and Commerce 
Secretary Pritzker believe that I can make a contribution to the work 
the United State Department of Commerce is doing to support American 
business, economic growth, and jobs. The Industry and Analysis team is 
perhaps the best kept secret in the Federal Government and I look 
forward to working with each and every member of that team, if I am 
confirmed.
    I strongly believe in the value of public service, and if 
confirmed, I welcome the opportunity to combine my private and public 
sector experience to make a meaningful contribution to the Commerce 
Department's work.
    As an executive at NASCAR, I managed a diverse staff, and oversaw a 
complex budget and high-profile projects. The skills I developed to be 
successful in that role are skills which are applicable to the role of 
Assistant Secretary for Industry and Analysis.
    Additionally, at NASCAR, I was responsible for fostering 
relationships with key business partners, organizing community 
outreach--and developing and implementing strategic plans to achieve 
results--all important experiences that have helped prepare me for a 
leadership role at the International Trade Administration, should I be 
confirmed.
    If confirmed for this position, I will oversee staff and 
initiatives that focus on strengthening the U.S. economy and helping 
more companies export and create jobs. The staff at I&A have an array 
of skills and are specifically focused on helping U.S. manufacturing, 
services, tourism, textile, and consumer goods companies--and most 
other industries increase their exports. I look forward to working with 
this experienced staff to help advance its goals and mission.
    As I mentioned, I&A is comprised of offices focused on various 
sectors of our economy. These offices review, quantify, and develop 
strategies to strengthen the global competitiveness of American 
industries. During my career, I worked extensively with two of I&A's 
critical sectors: travel and tourism and automotive. I have a strong 
understanding of these industries and a history of working 
collaboratively with stakeholders in those fields, and I welcome the 
opportunity to bring that knowledge to the industry teams at ITA.
    In my roles as Chief of Staff for two members of Congress and as a 
Special Assistant at the Labor Department, I gained valuable insight 
into the legislative process and the operations of the Federal 
Government, all of which I believe will be helpful and called upon for 
the role to which I have been nominated.
    Lastly, an effective leader must communicate a vision that 
colleagues and co-workers can understand and support--to enable the 
organization to succeed--and hold those responsible accountable for 
results. I believe that this approach is important to the success of an 
organization and I will work hard to meet this standard every day if I 
have the opportunity to serve in this position.
    If confirmed, I will apply the experience I have gained as an 
executive and an administrator to ensure that I&A takes steps necessary 
to help our businesses contribute to the growth of the U.S. economy; 
remain focused on improving customer service; and, educating American 
businesses on all of the important services available to at the 
Department of Commerce.
    Thank you for your time and consideration. I look forward to taking 
your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Marcus 
Jadotte.
    2. Position to which nominated: Assistant Secretary for Industry 
and Analysis.
    3. Date of Nomination: May 22, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Ormond Beach, Florida.

    5. Date and Place of Birth: October 18, 1971; Nassau, Bahamas.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Jennifer Park-Jadotte Ph.D.-homemaker; children: Marcus 
        Ashton Park Jadotte--11 years old; Sofia Pearl Park Jadotte--8 
        years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        AA, Miami-Dade Community College (1989-1992)
        BS, Florida State University (1992-1994)

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Jadotte Consulting--Public Affairs and Business Development 
        Consultant (April 2014 to Present)

        NASCAR (March 2005-April 2014)
                Vice President, Public Affairs and Multicultural 
                Development
                Managing Director, Public Affairs
                Senior Manager, Public Affairs

        U.S. House of Representatives, Office of Congresswomen Debbie 
        Wasserman Schultz--Chief of Staff (December 2004-March 2005)

        John Kerry for President--Deputy Campaign Manager (March 2003-
        December 2005)

        U.S. House of Representatives, Office of Congressman Peter 
        Deutsch--Chief of Staff (January 2001-March 2003)

        Al Gore for President--Florida State Director (July 2000-
        December 2000)

        United States Department of Labor--Intergovernmental Officer/
        Special Assistant to the Deputy Secretary (April 1999-July 
        2000)

        Florida AFL-CIO--Consultant/Communications Director (February 
        1999-Apri/1999)

        MacKay for Governor--Political Director (July 1998-November 
        1998)

        Executive Office of the Governor (Tallahassee, FL)--Special 
        Assistant to the Governor (February 1997-February 1999)*

    *All positions are management-level except where noted.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        NASCAR Inc.--Vice President Public Affairs and Multicultural 
        Development (March 2005-April 2014)

        TEAM Volusia--Economic Board Member (2011 to Present)

        Ben Gamla Charter School--Board Member (2007 to Present)

        Potomac Waves--Partner (2008 to Present)

        Florida Democratic Party--Board Member (2013 to Present)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Florida Democratic Party--Board Member (February 2013 to Present)
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Schedule C Appointments during the Clinton Administration:

        Special Assistant to the Deputy Secretary
        United States Department of Labor, Washington, D.C.
        February 2000-July 2000

        Intergovernmental Officer
        United States Department of Labor, Washington, D.C.
        April 1999-January 2000

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
Contributions:

------------------------------------------------------------------------
                  Name                        Amount           Date
------------------------------------------------------------------------
Kosmas for Congress                                 $500      12-21-2007
Kosmas for Congress                                 $500      06-30-2008
Kendrick Meek for Florida                           $500      02-13-2010
Bill Nelson for U.S. Senate                         $500      08-30-2010
Friends of Harry Reid                               $500      10-04-2010
Kosmas for Congress                               $1,000      10-20-2010
Obama Victory Fund 2012                           $1,000      06-09-2011
Obama for America                                 $1,000      06-09-2011
Debbie Wasserman Schultz for Congress               $500      06-25-2012
Mike Thompson for Congress                          $500      03-29-2013
America's Leadership PAC                            $500      06-17-2013
Friends of Jeanne Shaheen                         $1,000      09-23-2013
Democratic Executive Committee of                   $500      09-25-2013
 Florida
Lori Edwards for Congress                           $500      06-30-2009
Darrell Thompson for DC City Council                $500      03-07-2014
Judithanne McLauchlan for FL State Rep              $500      11-30-2014
Jeff Yarbro for TN State Senate                     $500      03-01-2010
------------------------------------------------------------------------
The above list represents my best effort to recall/research all covered
  political contributions.


    All offices and Services for the past ten years:

        John Kerry for President, Deputy Campaign Manager, (March 2003-
        December 2004)

    Acted as an outside consultant with the following groups via 
Potomac Waves, LLC:

  <bullet> Florida Democratic Party/OFA Florida (2012)

  <bullet> DCCC IE (2008)

  <bullet> DSCC IE (2008)

  <bullet> Friends United PAC (2012)

  <bullet> Terry McAuliffe for Governor (2009)

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstandiog service or achievements.

        Merit-based scholarship from Florida State University, 1992-
        1994

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I strongly believe in the value of public service. The role that I 
have been nominated to fill is a humbling opportunity to give back to 
our great country. If confirmed, I would welcome the opportunity to 
combine my private and public sector experience to make a meaningful 
contribution to the Commerce Department's work to help businesses and 
workers achieve success.
    Specifically, as a senior manager with NASCAR, I gained experience 
managing staff, a budget and high-profile projects, skills which are 
applicable to the role of Assistant Secretary for Industry and 
Analysis. At NASCAR, I was responsible for fostering relationships with 
key business partners, organizing community outreach and developing and 
implementing strategic plans to achieve results.
    In addition, in my roles as chief of staff for Representatives 
Debbie Wasserman Schultz and Peter Deutsch and as a special assistant 
at the Department of Labor, I gained valuable insight into the 
legislative process and the operations of the Federal Government, which 
I believe have prepared me for a leadership role in the International 
Trade Administration, if I am confirmed.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as the Assistant Secretary for the Industry and 
Analysis (I&A) unit, I will oversee staff and initiatives that focused 
on strengthening the U.S. economy, helping more companies export and 
creating jobs. The staff in I&A have an array of skills and are 
specifically focused on helping our manufacturing, services, textile, 
consumer goods companies, and every other industry increase U.S. 
exports. Knowing that I would be joining a team with such a diverse set 
of skills is exciting, but more importantly it is important that 
benchmarks and metrics are part of the overall strategy.
    As an executive at NASCAR, I understood the value of implementing 
management controls with benchmarks to track the progress of key goals 
and objectives. If confirmed, I will work closely with the staff and my 
colleagues within the International Trade Administration to ensure that 
I&A is properly managed, focused and is accountable to our industry 
stakeholders.
    During my time at NASCAR, I oversaw projects that crossed local, 
state and government offices, which I believe will be advantageous to 
the agency-as international trade and export promotion are no longer 
occurring just at the Federal level. Local and State offices are 
working hard to get their companies abroad, I&A has the ability to help 
with these endeavors. In addition, I was the chief of staff to two 
Members of Congress, which afforded me the unique opportunity of 
developing and implementing administrative policies and procedures to 
manage staff in two distinctively different environments. If confirmed, 
I will use my experiences gained by working with these partners and in 
the Congressional offices to improve the agency's communication with 
these groups and further strengthen the partnerships that I&A has 
already cultivated.
    Additionally, I believe an effective leader of an organization must 
communicate a vision for the organization that co-workers can 
understand, provide support to enable the organization to succeed, 
recognize success and hold those responsible accountable for results. 
This approach is important to the success of an organization and I will 
work hard to meet this standard every day if I have the opportunity to 
serve in this position. If confirmed, I will apply the experience I 
have learned as an administrator to ensure that proper management and 
accounting controls are employed in all areas that are entrusted to my 
oversight.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  1.  Contributing to the growth of the U.S. economy via encouraging 
        increased exports.

  2.  Remaining focused on ever improving customer service to the 
        public and American business.

  3.  Unlocking and promoting the value of assets and services 
        available to American business via the Department of Commerce. 
        All three challenges are core to the department's mission and 
        the priorities outlined by Secretary Pritzker.

    (1) Contributing to the Growth of the U.S. economy:

    With less than 1 percent of companies exporting and over 95 percent 
of the world's consumers living outside of the United Stated, we need 
to get U.S. companies exporting. People from all around the world want 
to buy U.S. goods--we make high valued products--we have a great brand 
name. There are small and medium-sized companies, minority and women 
owned business that should be growing faster, paying higher wages and 
hiring more workers, this can all happen if we get companies to look 
beyond our borders.

    (2) Remaining Focused on Improving Customer Service to the Public 
and to America Businesses:

    As I mentioned above, there is so much opportunity, but with 
opportunity there is also risk and companies that are new to exporting 
have services and people here that are positioned to help. You hear 
time and time again of companies that encounter problems when 
attempting to export their goods--sometimes the fix might be simple and 
sometimes it is a much bigger policy issue. American companies deserve 
to have assistance from the U.S. Government and I believe that I&A has 
the right skills to help companies succeed.

    (3) Unlocking and promoting services available to American 
Businesses:

    As I have been meeting with Commerce staff and doing my research on 
what it means to be successful in international trade, I am struck by 
how this agency and the I&A unit might be the best kept secret. I&A 
oversees the Advisory Committees, which is the venue for U.S. companies 
to weigh in on trade policy issues, to raise problems that they are 
facing and to advise the U.S. Government on upcoming policy decisions. 
In addition, I&A helps local and State leaders plan their trade 
missions-as I noted previously, more and more local and State offices 
are taking their businesses abroad to find customers and business 
partners; but not all 50 states are using these services.
    I believe that my experience in NASCAR in the Public Affairs office 
will allow me to get the message out on all of the services that I&A, 
ITA and the Department of Commerce have to offer U.S. companies. If 
confirmed, I plan to aggressively promote the services, remain focused 
on improving the services and get more companies exporting.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I received a severance payment from my former employer when I ended 
my employment with the company. This payment is based upon a pre 
existing employment arrangement and is not contingent on my decision to 
accept a nomination or government position if confirmed. I also 
participate in an employer sponsored 401(k) program at NASCAR; the 
underlying holdings are all diversified, widely traded funds.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, the Department of 
Commerce's designated Agency Ethics Official has worked to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Department of Commerce's designated 
Agency Ethics Official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, the Department of 
Commerce's designated Agency Ethics Official has worked to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Department of Commerce's designated 
Agency Ethics Official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have supported NASCAR 's public policy agenda during my 
employment with the company. Details are available on the company's LD-
2 filings and the quarterly filings of Purple Strategies (NASCAR 's 
public affairs and government affairs consultant).
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, the Department of 
Commerce's designated Agency Ethics Official has worked to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Department of Commerce's designated 
Agency Ethics Official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    NASCAR was involved in a number of civil cases during my tenure 
with the company. I have not been named or accused of wrongdoing 
individually in any of these proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes
                                 ______
                                 
                      Resumee of Marcus D. Jadotte
Professional Experience
Jadotte Consulting, Daytona Beach, FL
Public Affairs and Business Development Consultant
April 2014-Present

  <bullet> Issues and Reputation Management
  <bullet> Policy Risk Analysis
  <bullet> Sports Marketing Business Development

NASCAR, Daytona Beach, FL
Vice President of Public Affairs and Multicultural Development
March 2011-Present

Managing Director of Public Affairs
September 2006-February 2011

Senior Manager of Public Relations
March 2005-August 2006

  <bullet> Managed NASCAR Public Affairs and Diversity Affairs 
        departments. Oversaw all staff and programs.

  <bullet> Managed a $7 million annual budget
  <bullet> Established and maintained effective working relationships 
        with local, state, and federal government officials across 
        NASCAR's 26-state corporate footprint.

  <bullet> Served as principle spokesperson for all topics related to 
        NASCAR public affairs.

  <bullet> Led NASCAR's efforts to expand media coverage of the sport 
        in the top 20 media markets.

Obama for America (OFA) Florida, Tampa, FL
Senior Advisor
June 2012-November 2012

  <bullet> Served on the Florida leadership team for Obama for America.
  <bullet> Developed and executed Florida's communication programs.
  <bullet> Oversaw political, digital, op-vote and scheduling 
        departments in Florida.

United States House of Representatives, Washington, D.C.
Chief of Staff, Office of Congresswoman Debbie Wasserman-Schultz
December 2004-March 2005

  <bullet> Served as principle policy and political aide to then, newly 
        elected Congresswoman Wasserman-Schultz of Florida.

  <bullet> Organized the Congresswoman's office including the 
        development and implementation of administrative policies and 
        procedures,hired staff, and managed Capitol Hill and district 
        offices.

  <bullet> Developed and coordinated legislative strategies; planned 
        and implemented targeted mailings, maintained relationships 
        with Federal agencies, iHill staff, and representatives of 
        interest groups.

Kerry/Edwards 2004 Presidential Campaign, Washington, D.C.
Deputy Campaign Manager
March 2003-December 2004

  <bullet> Oversaw the day-to-day management of Senator John Kerry's 
        bid for the Democratic Nomination,including political 
        operations,fundraising,scheduling and advance, and budget 
        through the Iowa Caucus and New Hampshire Primary.

  <bullet> Served in senior advisory role through the balance of the 
        pre-convention period and oversaw running-mate Senator John 
        Edwards' campaign team on behalf of Senator Kerry during the 
        general election phase of the campaign.

United States House of Representatives, Washington, D.C.
Chief of Staff Office of Congressman Peter Deutsch
January 2001-March 2003

  <bullet> Served as principle policy and political aide to Congressman 
        Deutsch of Florida.

  <bullet> Re-organized the Congressman's office including the 
        development and implementation of administrative policies and 
        procedures,hired staff, and managed Capitol Hill and district 
        offices.

  <bullet> Managed all aspects of the Congressman's political operation 
        including re-election and PAC efforts.

Gore/Lieberman 2000 Presidential Campaign, Tallahassee, FL
Florida State Director
July 2000-December 2000

  <bullet> Developed the campaign's Florida strategy, including 
        regional and county chairs and the steering committees in each 
        of the 67 counties.

  <bullet> Managed all campaign staff deployed in Florida.

  <bullet> Developed earned media strategies for each of Florida's 
        media markets.

United States Department of Labor, Washington, D.C.
Special Assistant to the Deputy Secretary
February 2000-July 2000

Intergovernmental Officer
April 1999-January 2000

  <bullet> Assisted the Deputy Secretary in managing a portfolio of 
        issues and agencies within the Labor Department that included: 
        The Employment and Training Administration, The Office of 
        Congressional Intergovernmental Affairs, Welfare-to-Work, and 
        Rapid Response.

  <bullet> Carried out a variety of sensitive and highly complex 
        projects involving workforce and policymaking. Participated in 
        intra- and inter-agency committees established to review and 
        recommend administrative initiatives.

  <bullet> Provided technical advice and assistance to The White House, 
        The Secretary of Labor, and representatives of National, State 
        and local officials regarding the implications of analytical 
        findings.
Other Positions Held

Florida AFL-CIO, Tallahassee, FL
Consultant/Communications Director
February 1999-April 1999

Executive Office of the Governor, Tallahassee, FL
Special Assistant to Governor Lawton Chiles
February 1997-February 1999

1996 Florida Coordinated Campaign, Volusia County, FL
Regional Coordinator and Earned Media Director
July 1996-November 1996

Florida House of Representatives, Tallahassee, FL
Research Assistant III, Committee on Finance and Taxation
January 1995-December 1996

Florida Agency for Health Care Administration, Tallahassee, FL
Assistant to the Chief of Health Policy
March 1994-January 1995
Education

Florida State University, Economics,Bachelor of Science, 1994
Florida State University, 30 graduate level course credits in Economics 
and Statistical Analysis, 1994-1996

    The Chairman. Thank you very much, Mr. Jadotte. What comes 
through in your testimony is your sense of humbleness and pride 
in being in public service. And all of you have done that all 
of your life.
    And now Mr. Adler is here to be renominated. We don't get 
that choice often enough. So we welcome you, sir.

      STATEMENT OF HON. ROBERT S. ADLER, NOMINEE TO BE A 
        COMMISSIONER, CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Adler. Thank you so much, and good afternoon, Chairman 
Rockefeller and Ranking Member Thune and other members of the 
panel.
    I thank you for the opportunity to appear before you 
regarding my nomination to serve a second term as a 
Commissioner at the Consumer Product Safety Commission. As I 
approach my fifth year on the Commission, I am deeply honored 
to be considered for reappointment.
    As a starting point, I would like to introduce my wonderful 
wife, Terrie Gale, to whom I have been married for the past 39 
years and who daily inspires me. She is teaching criminal law 
at George Washington University, after serving 18 years as 
legal counsel to the Police Department in Chapel Hill.
    Also, I want to introduce my extraordinary son, Paul, who 
is completing his Ph.D. in History at Georgetown University, 
and who is heading off this fall in the History and Literature 
Program at Harvard University.
    And because I consider my staff to be family, I would beg 
your indulgence--I will stay within the time--I would like to 
introduce my staff.
    First, I would like to introduce Ophelia McCardell, my 
terrific executive assistant. Ophelia and I have worked on and 
off together for almost 40 years. Four years ago, I pulled her 
from her second retirement to work with me, and I am afraid the 
next time she says she is retiring she is really going to mean 
it.
    And I wanted to introduce my special assistant, Jason 
Levine, who has been serving as the agency's Chief of Staff 
since I became Acting Chair last December. Jason's brilliance 
is matched only by his dedication and commitment to the mission 
of the CPSC.
    And finally, although she left my office to take a new job, 
I want to thank Jana Fong Swamidoss, my special assistant for 
the past 4 years, who always given me straight, blunt feedback 
that, while not necessarily pleasant, constantly steered me in 
the right direction.
    Mr. Chairman, when I appeared before this committee for my 
first confirmation hearing, I was asked what I thought the 
biggest challenge before the CPSC was, and I answered that we 
needed to restore some lost luster to the agency by 
implementing the many mandates contained in a recently enacted 
omnibus piece of legislation known as the Consumer Product 
Safety Improvement Act. Included in the Act were a host of new 
requirements, which I believe we have acted on with 
effectiveness and dispatch.
    Among the tasks we have addressed are the following: we 
have enforced stringent limits on lead and phthalates in 
children's products; we have promulgated the strongest safety 
standard for cribs in the world; and we have made mandatory a 
comprehensive voluntary toy standard, ASTM F963.
    We have written, and continue to write, a series of 
standards for durable infant products like play yards and 
strollers. We have developed new approaches to catching 
dangerous imported products. And despite occasional glitches, I 
think we have made tremendous progress in meeting these 
statutory requirements.
    Notwithstanding our considerable progress, we still have 
work to do to protect American lives from unreasonably 
dangerous products, and we should not lose sight of the fact 
that in order to do so, we must work cooperatively with our 
friends in the business community to figure out ways to meet 
our safety mission with them as our partners, not our 
adversaries.
    And on this point, I want to pause to note the tremendous 
progress I have seen in the voluntary standards community over 
the past 40 years. Groups such as ASTM, ANSI, and UL have 
dramatically improved their technical skills, their efficiency 
in drafting standards, their openness and transparency in their 
outreach to all stakeholders, especially consumers affected by 
their work. I am pleased to see my agency work so closely with 
these groups, and I look forward to the partnership deepening 
in the years to come.
    I have similar high hopes for collaborating with my fellow 
Commissioners, because I am on a Commission. It has been an 
absolute delight to work with Commissioners Marti Robinson and 
Ann Marie Buerkle this past year. And actually, one of the 
reasons I hope to be confirmed is the opportunity to continue 
working with them.
    Similarly, I have worked closely with and have gotten to 
know Elliot Kaye, current nominee to be the CPSC Chair. If 
Elliot is confirmed, I believe his experience, dedication, and 
temperament will make him a truly outstanding chairman. And 
although I have not yet gotten to know our other nominee, Joe 
Mohorovic, as well, I hope and believe he will round out a 
group of talented and gracious Commissioners.
    In closing, I would like to mention one critical 
demographic that I believe has not received enough attention 
over the past number of years--senior citizens, a group of 
which I am a proud member. Our data show that the second most 
vulnerable population after kids is adults over age 65, and I 
note this is a rapidly growing group, due to the aging of the 
baby boomers and the greater longevity of our citizens.
    In fact, seniors, while comprising only 13 percent of the 
U.S. population, account for 65 percent of our consumer 
product-related deaths. And by 2020, they--we--will be 20 
percent of the U.S. population. I recently created a Senior 
Safety Initiative at CPSC, and if confirmed, I will continue my 
advocacy on behalf of this group's safety needs.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement and biographical information of Mr. 
Adler follow:]

  Prepared Statement of Hon. Robert S. Adler, Acting Chairman of the 
     Consumer Product Safety Commission, Nominee for Commissioner, 
           Consumer Product Safety Commission (Reappointment)
    Good afternoon, Chairman Rockefeller and Ranking Member Thune. I 
thank you for the opportunity to appear before you regarding my 
nomination to serve a second term as a Commissioner at the U.S. 
Consumer Product Safety Commission. As I approach my fifth year on the 
Commission, I am deeply honored to be considered for reappointment.
    As a starting point, I would like to introduce my wonderful wife, 
Terrie Gale, to whom I have been married for the past thirty-nine 
years--and who daily inspires me. Terrie is now teaching criminal law 
at The George Washington University after serving 18 years as legal 
counsel to the Police Department in Chapel Hill, North Carolina.
    I would also like to introduce my extraordinary son, Paul Adler, 
who is completing his Ph.D. in History at Georgetown University--and 
who is heading off this Fall to teach in the History and Literature 
Program at Harvard University.
    If I may, I would also like to introduce my staff to you. First, I 
would like to introduce Ophelia McCardell, my terrific Executive 
Assistant. Ophelia and I have worked on and off together for almost 40 
years. Four years ago, I pulled her from her second retirement to work 
with me, and I'm afraid the next time she says she's retiring, she's 
really going to mean it.
    And, I would like to introduce my Special Assistant, Jason Levine, 
who has been serving as the agency's Chief of Staff since I became 
Acting Chairman last December. Jason's brilliance is matched only by 
his dedication and commitment to the mission of the CPSC.
    Finally, although she recently left my office to take a wonderful 
new job, I want to thank Jana Fong Swamidoss, my Special Assistant for 
the past four years, who always gave me straight, blunt feedback that, 
while not necessarily pleasant, constantly steered me in the right 
direction.
    Mr. Chairman, when I appeared before this Committee for my first 
confirmation hearing, I was asked what I thought the biggest challenge 
before the CPSC was, and I answered that we needed to restore some lost 
luster to the agency by implementing the many mandates contained in a 
recently-enacted omnibus piece of legislation known as the Consumer 
Product Safety Improvement Act (CPSIA). Included in the Act were a host 
of new requirements, which I believe we have acted on with 
effectiveness and dispatch. Among the tasks that we have addressed are 
the following.
    We have:

  <bullet> Enforced stringent limits on lead and phthalates in 
        children's products,

  <bullet> Promulgated the strongest safety standard for cribs in the 
        world,

  <bullet> Developed implementing rules for the new CPSIA requirement 
        that firms have independent laboratories do third-party testing 
        of children's products before introducing them into the U.S. 
        market,

  <bullet> Made mandatory a comprehensive voluntary toy standard, ASTM 
        F963,

  <bullet> Written, and continue to write, a series of standards for 
        durable infant products like play yards and strollers,

  <bullet> Drafted and enforced new guidelines on civil penalties and 
        set broader limits on consumer product recalls, and

  <bullet> Developed new approaches to catching dangerous imported 
        products.

    And, despite occasional glitches, I believe that we have made 
tremendous progress in meeting these statutory mandates.
    Notwithstanding our considerable progress in implementing the 
CPSIA, we still have work to do to protect American lives from 
unreasonably dangerous products. And, we should not lose sight of the 
fact that, in order to do so, we must work cooperatively with our 
friends in the business community to figure out ways to meet our safety 
mission with them as our partners, not our adversaries.
    On this point, I pause to note the tremendous progress I have seen 
in the voluntary standards community over the past forty years. Groups 
such as ASTM, ANSI, and UL have dramatically improved their technical 
skills, their efficiency in drafting standards, their openness and 
transparency, and their outreach to all stakeholders--especially 
consumers--affected by their work. I'm pleased to see CPSC work so 
closely with these groups, and I have little doubt that our partnership 
with them will only grow and deepen in the years to come.
    I have similar high hopes for collaborating with my fellow 
Commissioners, both current and future. It has been an absolute delight 
to work with Commissioners Marti Robinson and Ann Marie Buerkle this 
past year, and one of the reasons I hope to be confirmed is the 
opportunity to continue working with them.
    Similarly, I have worked closely with and have gotten to know 
Elliot Kaye, current nominee to be CPSC Chair, over the past three 
years. If Elliot is confirmed, I believe his experience, dedication, 
and temperament will make him a truly outstanding Chairman. And, 
although I have not yet gotten to know our other nominee, Joe 
Mohorovic, as well, I hope and believe he will round out a group of 
talented and gracious Commissioners.
    In closing, I would like to mention one critical demographic that I 
believe has not received enough attention over the past number of 
years: senior citizens --a group of which I am a proud member. Our data 
show that the second most vulnerable population after kids is adults 
over age 65. And, I note that this is a rapidly growing group due to 
the aging of the baby boomers and the greater longevity of our 
citizens. In fact, seniors, while comprising only 13 percent of the 
U.S. population, account for 65 percent of our consumer product-related 
deaths. And, by 2020, they--we--will be 20 percent of the U.S. 
population. I recently created a Senior Safety Initiative at CPSC and, 
if confirmed, I will continue my advocacy on behalf of this group's 
safety needs.
    Thank you for your time, and I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Robert Sanford Adler
        Nickname: Bob

    2. Position to which nominated: Commissioner, U.S. Consumer Product 
Safety Commission.
    3. Date of Nomination: May 14, 2014.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: U.S. Consumer Product Safety Commission, 4330 East West 
        Highway, Bethesda, MD 20814.

    5. Date and Place of Birth: September 27, 1944; Reno, Nevada 
(Washoe County).
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Terrie Jean Gale (wife), Professorial Lecturer in Sociology 
        Sociology Department, George Washington University, 801 22nd 
        St. NW, Phillips 409, Washington, D.C. 20052; Paul Kogan Adler 
        (son) Age 31.

    7. List all college and graduate degrees. Provide year and school 
attended.

        J.D., 1969
        University of Michigan Law School

        A.B., 1966
        University of Pennsylvania

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

 
 
 
2009-present:         Commissioner
                      U.S. Consumer Product Safety Commission
                      Acting Chair, 12/13 to present
                      Vice-Chair, 2010-present
 
2003-2009:            Luther Hodges, Jr. Scholar in Law & Ethics (2006-
                       2009)
                      Professor of Legal Studies
                      Kenan-Flagler Business School
 
2002-2003:            Associate Dean
                      MBA Program, Kenan-Flagler Business School
 
1995-2002:            Professor of Legal Studies
                      Kenan-Flagler Business School
 
1994-1998:            Associate Dean
                      Undergraduate (BSBA) Program
                      Ken an-Flagler Business School
                      University of North Carolina
 
1987-1995:            Associate Professor of Legal Studies
                      Kenan-Flagler Business School
                      University of North Carolina (received tenure,
                       1990)
 
1985-1987:            Counsel to the Subcommittee on Health and the
                       Environment
                      Committee on Energy and Commerce
                      U.S. House of Representatives
                      Washington, D.C.
 
1984-1985:            Of Counsel
                      Schmeltzer, Aptaker and Sheppard
                      Washington, D.C.
 
1983-1985:            Adjunct Professor
                      Washington College of Law
                      American University
                      Washington, D.C.
 
1982-1984:            Attorney-advisor to Commissioner Sam Zagoria
                      U.S. Consumer Product Safety Commission
                      Washington, D.C.
 
1973-1982:            Attorney-advisor to Commissioner R. David Pittle
                      U.S. Consumer Product Safety Commission
                      Washington, D.C.
 
1971-1973:            Deputy Attorney General
                      Director, Southwestern Regional Office
                      Pennsylvania Bureau of Consumer Protection
                      Pennsylvania Justice Department
                      Pittsburgh, PA.
 
1969-1971:            Director, Consumer Division
                      Neighborhood Legal Services Association
                      Pittsburgh, PA
 

    I have highlighted above the jobs in which I have had management/
supervisory responsibility (as opposed to strictly academic or 
professional responsibility). Most of the jobs I have held since 1973 
have related in some fashion, either by employment or my scholarship, 
to consumer issues, and specifically to consumer product safety issues.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.
    Member, Obama Transition Team and co-author of Report on U.S. 
Consumer Product Safety Commission, 2008-2009.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

------------------------------------------------------------------------
  Name/Location      Position/Nature of Affiliation          Dates
------------------------------------------------------------------------
Consumers Union    Member, Board of Directors. CU is   1989 to 2009
 Yonkers, NY        the publisher of Consumer Reports  (resigned, 5/
                                                        2009)
------------------------------------------------------------------------

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Board of Directors of Consumers Union, publisher of 
        Consumer Reports magazine, 1989-05/2009. No membership 
        restrictions.

        Member, North Carolina Bar, (inactive) 1989-present. No 
        membership restrictions.

        Member, District of Columbia Bar (inactive), 1976-present. No 
        membership restrictions.

        Member, Pennsylvania Bar (inactive), 1969-present. No 
        membership restrictions.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Barack Obama, 2012 = $450.00

        Barack Obama, 2008 = $825.00

        John Edwards, 2007-2008 = $595.00

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        ``Tar Heel of the Week,'' selected by Raleigh News & Observer, 
        December 2009

        Faculty Appreciation Award for Distinguished MBA Teaching, 
        2005-2009

        Recipient of Dean's Teaching Bonus, 2005-2006; 2006-2007

        Gerald Barrett Faculty Award (excellence in teaching and 
        service in the UNC Kenan Flagler MBA Program), 2004

        Best Article Award, CPR Institute for Dispute Resolution, for 
        article in Harvard Negotiation Law Review [``When David Meets 
        Goliath: Dealing With Power Differentials in Negotiations,'' 5 
        Harv. Neg. L. Rev. (Summer 2000) pp. 1-112 (co-authored with 
        Elliot Silverstein)]

        President, The University of North Carolina at Chapel Hill, 
        Academy of Distinguished Teaching Scholars, 2003-2007 
        (association of faculty who have won university-wide teaching 
        awards)

        Order of the Grail-Valkyries, 1999 (UNC Student and Faculty 
        Honorary Society)

        Order of the Golden Fleece, 1997 (UNC Student and Faculty 
        Honorary Society)

        Tanner Award for Excellence in Undergraduate Teaching 
        (university-wide teaching award), 1996

        O'Herron Scholar, (excellence in teaching and research) 1996

        Elected to Board of Directors, Consumers Union, publishers of 
        Consumer Reports (1989-2009) (resigned 5/2009)

        McColl Award for Teaching, Research and Service Excellence, 
        1994. (UNC Business school award)

        UNC Business School Undergraduate Program Distinguished 
        Teaching Award, 1990

        Federal Executive Board, Outstanding Achievement, 1973

        Reginald Heber Smith Fellow, 1969-1971

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of 
personal files and searches of publicly available electronic databases. 
Despite my searches, there may be other materials I have been unable to 
identify, find, or remember. I have located the following:

        (a) Refereed Articles:

        ``Mastering the Art of Negotiating With Liars,'' Sloan 
        Management Review, Vol. 48, No. 4 (Summer 2007) pp. 69-74.

        ``Flawed Thinking: Addressing Decision Biases in Negotiation,'' 
        Ohio State Journal on Dispute Resolution, Vol. 20, No. 3 (2005) 
        pp. 683-774.

        ``When David Meets Goliath: Dealing With Power Differentials in 
        Negotiations,'' Harvard Negotiation Law Review, (co-authored 
        with Elliot Silverstein) Vol. 5 (Summer 2000) pp. 1-112.

        ``Here's Smoking At You, Kid: Has Tobacco Product Placement in 
        the Movies Really Stopped?'' University of Montana Law Review, 
        Vol. 60 (2) (Summer 1999) pp. 243-284.

        ``Emotions in Negotiation: How to Handle Fear and Anger,'' (co-
        authored with Ben Rosen and Elliot Silverstein) The Negotiation 
        Journal Vol. 14 (2) (April1998) pp. 161-179.

        ``The Preemption Pentad: Federal Preemption of Products 
        Liability Claims After Medtronic v. Lohr,'' (co-authored with 
        Rob Leflar) University of Tennessee Law Review Vol. 64 (Spring 
        1997) pp. 691-748.

        ``Encouraging Employers To Abandon Their ``No Comment'' 
        Policies Regarding Job References: A Reform Proposal,'' (co-
        authored with Ellen Peirce) Washington & Lee Law Review, Vol. 
        50, No. 4 (1996) pp. 1381-1469.

        ``Addressing Product Misuse at the Consumer Product Safety 
        Commission: Redesigning People Versus Redesigning Products,'' 
        University of Virginia Journal of Law & Politics Vol. XI, No. 1 
        (Winter 1995) pp. 79-127, reprinted in Charles H. Koch, Jr., 
        Fundamentals of Administrative Practice and Procedure (3rd 
        ed.).

        ``Preemption and Medical Devices: The Courts Run Amok,'' (co-
        authored with Richard Mann) University of Missouri Law Review 
        Vol. 59 (Fall 1994) pp. 895-945.

        ``Good Faith: A New Look At An Old Doctrine,'' (co-authored 
        with Richard A. Mann) Akron Law Review Vol. 28 (Summer 1994) 
        pp. 31-52.

        ``The Last Best Argument for Eliminating Reliance From Express 
        Warranties: `Real World' Consumers Don't Read Warranties,'' U. 
        of So. Carolina Law Review, Vol. 45 (Spring 1994) pp. 429-475.

        ``Avoiding Misuse of New Information Technologies,'' (co-
        authored with Paul Bloom and George Milne) Journal of 
        Marketing, Vol. 58 (January 1994) pp. 98-110.

        ``The Legal, Ethical and Social Implications of the `Reasonable 
        Woman' Standard in Sexual Harassment Cases,'' (co-authored with 
        Ellen Peirce) Fordham Law Review, Vol. 361, No. 4 (March 1993) 
        pp. 773-827, reprinted in Ethics in the Workplace, E. 
        Ottensmeyer and G. McCarthy (1996) pp. 211-235.

        ``Contemporary Ethical Issues in Labor-Management Relations,'' 
        Journal of Business Ethics (co-authored with William Bigoness), 
        Vol. 11 (1992) pp. 351-360.

        ``Cooperative Learning Groups in Undergraduate and Graduate 
        Contexts: Different Strokes for Different Folks,'' Journal of 
        Legal Studies Education (co-authored with Ed Neal), Vol. 9, No. 
        3, (Fall l991) pp. 427-435.

        ``Stalking the Rogue Physician: An Analysis of the Health Care 
        Quality Improvement Act,'' American Business Law Journal, Vol. 
        28, No. 4, (1991) pp. 683-741.

        ``Shaping Up Federal Agencies: A Basic Training Program for 
        Regulators,'' The University of Virginia Journal of Law & 
        Politics, Vol. VI, No. 2 (co-authored with Stephen Klitzman & 
        Richard Mann) (1990) pp. 343-371.

        ``From `Model Agency' to Basket Case: Can the Consumer Product 
        Safety Commission Be Redeemed?'' Administrative Law Review, 
        Vol. 41, (1989) pp. 61-129.

        ``The 1976 Medical Device Amendments: A Step in the Right 
        Direction Needs Another Step in the Right Direction,'' Food 
        Drug Cosmetic Law Journal, Vol. 43, No. 3. pages 511-532 
        (1988). Revised and updated as ``Legislation Needed to Improve 
        the Medical Devices Law'' in The Medical Device Industry: 
        Science. Technology, and Regulation in a Competitive 
        Environment, pp. 531-549 (1990).

        ``Product Recalls: A Remedy in Need of Repair,'' Case Western 
        Law Review, Vol. 34, No. 4 (co-authored with Teresa M. 
        Schwartz) (1983-84) pp. 401-464.

        ``Cajolery or Command: Are Education Campaigns an Adequate 
        Substitute for Regulation?'' Yale Journal on Regulation, Vol. 
        1, No. 2 (1984) (co-authored with R. David Pittle) pp. 159-193.

        ``Commentary on Product Liability: An Interaction of Law and 
        Technology,'' Duquesne Law Review, Vol. 12 (1974) (co-authored 
        with R. David Pittle) pp. 487-495.

        (b) Chapters in Books:

        ``Product Safety: The Consumer Product Safety Commission,, in 
        Changing America: Blueprints for the New Administration (co-
        authored with R. David Pittle) pp. 540-553 (1993).

        ``A Framework for Identifying the Legal and Political Risks of 
        Using New Information Technologies to Support Marketing 
        Programs,'' (co-authored with Paul N. Bloom & George Milne), 
        Monograph for Marketing Science Institute, Report No. 92-102, 
        February 1992, reprinted as ``Identifying the Legal and Ethical 
        Risks and Costs of Using New Information Technologies To 
        Support Marketing Programs,'' in The Marketing Information 
        Revolution, Harvard Business School Press, 1994, pp. 289-305 
        (1994).

        ``Psycholegal Aspects of Organizational Behavior: Assessing and 
        Controlling Risk'' in Handbook of Psychology and Law, eds. 
        Dorothy K. Kagehiro & William S. Laufer, pp. 523-541 (co-
        authored with Alan J. Tomkins & Bart Victor) (1992).

        ``Product Safety: the Consumer Product Safety Commission'' in 
        America's Transition: Blueprints for the 1990s, (co-authored 
        with R. David Pittle) 268-86 (1989).

        (c) Editorials and Professional Publications:

        ``Vigilance is Best Answer to Safety in Pools,'' (co-authored 
        with Congresswoman Debbie Wasserman Schultz) South Florida Sun 
        Sentinel, May 11, 2014.

        ``Safety Regulators Don't Add Costs. They Decide Who Pays 
        Them,'' New York Times (on-line), October 16, 2011.

        ``Moving Forward on Product Safety,'' Politico (on-line). 
        August 14, 2011.

        ``Thrust and Parry: The Art of Tough Negotiating,'' (co-
        authored with Ben Rosen and Elliot Silverstein) Training & 
        Development, Vol. 50, No. 3 (March 1996) 42-48.

        ``New Leadership at the Consumer Product Safety Commission: 
        Will It Make A Difference?'' TRIAL, Vol. 30, No. 11 (November 
        1994) 63-67.

        ``The CPSC at 20 Is Still Immature,'' TRIAL, Vol. 28, No. 11 
        (November 1992) pp. 30-34.

        ``New CPSC Act: A Disappointment,'' TRIAL, Vol. 27, No. 11 
        (November, 1991) pp. 18-25.

        ``Manufacturers Blind CPSC to Product Hazards,'' TRIAL, Vol. 
        26, No. 10 (October, 1990) pp. 20-24.

        ``Toy Safety: No Kidding Around,'' TRIAL, Vol. 25, No. 11, 
        pages 44-47 (1 989).

        ``0f Ketchup, Ozone, and Airline Delays: A Regulatory Legacy,'' 
        Legal Times (April 11, 1988) pp. 18-20; reprinted as 
        ``Rethinking Reagan's Deregulation Drive,'' Miami Legal Review 
        (May 2, 1988) pp. 9-10; and reprinted as ``Reagan's 
        Deregulation Efforts Have Done More Harm Than Good,'' Manhattan 
        Lawyer, (April 19-25, I 988) pp. 30-31.

        ``Will CPSC Halt U.S. Export of Hazardous Items? Legal Times 
        (April 16, 1984) pp. 113.

        ``Does CPSC's Past Bode Ill for Future of Regulatory 
        Negotiations?'' Legal Times (June 20, 1983) (co-authored with 
        R. David Pittle) pp. 10-11.

        (d) Book Reviews:

        ``Innovation, Safety, and Costs: A Delicate Balance,'' Review 
        of Managing the Medical Arms Race: Innovation and Public Policy 
        in the Medical Device Industry, (University of California 
        Press) in Health Affairs, Vol. 12, No. 3 (Fall l993) pp. 271-
        273.

        Review of The Product Liability Handbook: Prevention, Risk, 
        Consequence and Forensics of Product Failure, ed. Sam Brown 
        (Van Nostrand Reinhold 1991), Products Liability Law Journal, 
        Volume 3, No. 3 (May 1992) pp. 212-218.

        Review of R. Mayer, The Consumer Movement: Guardians of the 
        Marketplace (Twayne 1989) and D. Vogel, Fluctuating Fortunes: 
        The Political Power of Business (Basic Books 1989), Journal of 
        Consumer Policy, Volume 14 (1991) pp. 243-248.

        (e) Other Publications:

        ``Time to Strengthen Consumer Protection,'' Christian Science 
        Monitor (May 8, 1989) (co-authored with R. David Pittle) p. 18.

        Lawsuits Without Lawyers, monograph on lawsuits in small claims 
        courts (1973) (co-authored with Carol Knutson, Larry Slesinger, 
        and David Worstell) pp. 1-49.

        (f) Speeches and Presentations:

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to Walmart Compliance and Enforcement Officials, 
        video broadcast from Washington, D.C. to Walmart Officials, 
        Bentonville, Arkansas (May 12, 2014).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to various consumer groups, in Washington, D.C. 
        (April 10, 2014).

        ``Non-traditional Careers in Law,'' at Career Day, Washington 
        College of Law, American University, (April 1, 2014).

        ``Pool Safely,'' to National Drowning Prevention Alliance, in 
        Orlando, Florida (April 1, 2014).

        ``Recent Developments at the Consumer Product Safety 
        Commission, to Toy Industry Association, in New York, NY 
        (February 18, 2014).

        Recent Developments at the Consumer Product Safety 
        Commission,'' to Juvenile Product Manufacturers Association, in 
        Washington, D.C. (February 5, 2014).

        ``CPSC Challenge to Safety App Manufacturers,'' at White House 
        Datapalooza Conference, in Washington, D.C. (January 14, 2014).

        ``Carbon Monoxide Safety,'' to Chicago Firefighters and Members 
        of Media, Chicago, Illinois (December 19, 2013).

        ``From Professor to Regulator: Trials and Tribulations of a 
        CPSC Commissioner,'' DePauw University, Greencastle, IN 
        (November 5, 2013).

        ``Product Safety Versus Product Liability,'' to American 
        Conference Institute Seminar, Chicago, Illinois (June 26, 
        2013).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to International Council of Toy Industries, 
        Washington, D.C. (June 3, 2013).

        ``Product Liability and its Interaction with Product Safety at 
        the Consumer Product Safety Commission,'' Louis Brandeis School 
        of Law, University of Louisville, Louisville, KY (April 15, 
        2013).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to Society of Glass and Ceramic decorated 
        Products,'' Louisville, KY (April 14, 2013).

        ``How Standards Work at the U.S. Consumer Product Safety 
        Commission,'' to Workshop on Standards Policy and Practices for 
        Federal Agencies, sponsored by National Institute of Standards 
        and Technology, Washington, D.C. (November 8, 2012).

        ``Voluntary Standards at the U.S. Consumer Product Safety 
        Commission,'' to the ANSI Caucus of the American National 
        Standards Institute, Washington, D.C. (October 3, 2012).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to Midwest Product Safety Workshop of the 
        International Consumer Product Safety and Health Organization 
        (ICPHSO), at the Cook School of Business, St. Louis University, 
        St. Louis, MO. (August 13, 2012).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the American Apparel and Footwear Association, 
        New York, NY (July 31, 2012).

        ``In Commemoration of President Kennedy's Statement of Consumer 
        Rights,'' to Consumers, International, Washington, D.C. (June 
        20, 2012).

        ``Product Liability and Product Safety Issues at the U.S. 
        Consumer Product Safety Commission,'' to the American 
        Legislative Exchange Council (ALEC), Charlotte, NC (May 11, 
        2012).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to National Association of Manufacturers, 
        Washington, D.C. (March, 2012).

        ``The New CPSC Database,'' to Consumer Advocates Web 
        Conference, Washington, D.C. (January 11, 2012).

        ``Product Safety and Older Americans,'' to Association of 
        Retired Americans, Washington, D.C. (September 7, 2011).

        ``Polyurethane Foam and Upholstered Furniture Flammability,'' 
        to Polyurethane Foam Manufacturers Association, Baltimore, MD 
        (May 19, 2011).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to Consumer Specialty Products Association, 
        Washington, D.C. (May 6, 2011).

        ``Recent Developments at U.S. Consumer Product Safety 
        Commission,'' to Consumer Federation of America (CFA), (March 
        18, 2011).

        ``Recent Developments at U.S. Consumer Product Safety 
        Commission,'' at Toy Fair, New York, NY (February 15, 2011).

        ``Meet the U.S. Consumer Product Safety Commission,'' to 
        general audience, St. Louis University, St. Louis, MO (December 
        2, 2010).

        ``The Hard Work of Being a Product Safety Compliance 
        Official,'' to graduating class receiving Certificate in 
        Product Safety, Cook School of Business, St. Louis University, 
        St. Louis, MO. (December 2, 2010).

        ``The CPSC and Retailers,'' to Retail Law Conference, 
        Washington, D.C. (November 9, 2010).

        ``How the Consumer Product Safety Commission Operates,'' to 
        Consumers Union Activist Summit, Washington, D.C. (June 11, 
        2010).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the American Apparel and Footwear Association, 
        New York, NY (June 16, 2010).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the Toy Industry of America, Washington, D.C. 
        (May 2010).

        ``How the CPSC Works with State and Local Officials,'' to State 
        Designees Liaison with CPSC (February 17, 2010).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the American Apparel and Footwear Association, 
        New York, NY (October 29, 2009).

        ``Consumer Product Safety Commission: Reflections from the 
        Obama Transition Team'' to Conference of International Consumer 
        Product Health and Safety Officials (ICPHSO), Orlando, Florida 
        (February 25, 2009).

        ``One Million ATV Injuries Later . . . Will the End of the 
        Consent Decree Bring More Consumer Litigation? The Government 
        Perspective'' Nationwide Teleconference by Telephone, (December 
        2 and December 4, 1998).

        ``A Strategic Plan for ICPHSO,'' at conference of International 
        Consumer Product Health and Safety Officials, Orlando, Florida 
        (February 26-27, 1998).

        ``The Future of Product Safety and Product Liability,'' at 
        conference of International Consumer Product Health and Safety 
        Officials, Key West, Florida (February 28, 1997).

        ``Product Safety versus Product Liability,'' at conference of 
        International Consumer of Consumer Product Health and Safety 
        Officials (February 29, 1996).

        ``Remarks on CPSC Long-Range Plan,'' testimony before Chairman 
        and Commissioners of the U.S. Consumer Product Safety 
        Commission, Washington, D.C. (June 18, 1992).

        ``Regulation, Deregulation, and Reregulation,'' presented at 
        American Business Law Association Conference, Toronto, Canada 
        (jointly presented with Richard A. Mann), (August 17, 1990).

        ``The Role of Federal Safety Standards in Product Liability 
        Litigation,'' presented at Conference on ``Avoiding Product 
        Liability Suits,'' Union College (July 12, 1990).

        ``Needed: A College for Regulators,'' presented at Southeastern 
        Regional Business Law Association Conference (Fall, 1988).

        ``Federal Deregulation and State Reregulation,'' presented to 
        the American Bar Association Committees on Consumer Product 
        Regulation and State Administrative Law of the Administrative 
        Law Section and the Section of Urban, State and Local 
        Government Law (August 11, 1987).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        August 5, 2009: Testimony before Senate Committee on Commerce, 
        Science, and Transportation regarding my nomination to be a 
        Commissioner at the U.S. Consumer Product Safety Commission

        July 7, 2011: Testimony before Subcommittee on Oversight and 
        Investigation of the House Energy & Commerce Committee on 
        ``Views of the Independent Agencies on Regulatory Reform''

        August 2, 2012: Testimony before the Subcommittee on Commerce, 
        Manufacturing, and Trade of the House Committee on Energy and 
        Commerce on ``Oversight of the U.S. Consumer Product Safety 
        Commission''

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualities you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served as a Commissioner at the U.S. Consumer Product Safety 
Commission for the past four and a half years. During that time, I have 
been deeply involved in the critical issues that have come before the 
CPSC, including the promulgation of a number of rules regarding 
children's safety: cribs, play yards, bassinets, cradles, bedside 
sleepers, handheld infant carriers baby walkers, children's portable 
bed rails, and baby bath seats. In addition, I have worked to encourage 
the Commission and our various stakeholders to become aware of and work 
to address the problems of the elderly who constitute 13 percent of the 
population, but account for 65 percent of consumer product-related 
fatalities.
    Further, I wish to continue to serve as a Commissioner, if 
confirmed, because of my long professional and personal commitment to 
consumer issues and to the CPSC specifically. I can think of few more 
critical causes than reducing consumer-related injuries, illness, and 
death.
    I believe that my background demonstrates an ongoing commitment to 
consumer product safety issues and to consumer protection generally. 
After law school, I worked as the Chief of the Consumer Division of a 
legal services program in Allegheny County, PA. Thereafter, I served as 
a Deputy Attorney General in charge of a regional office of the Bureau 
of Consumer Protection for the Pennsylvania Justice Department.
    Subsequent to this consumer protection experience, I have spent the 
better part of the past 36 years involved in the CPSC in one form or 
another. I served as an attorney-adviser to two CPSC Commissioners (R. 
David Pittle, from 1973-1982 and Sam Zagoria from 1982-1984). I 
subsequently served as Counsel to the Subcommittee on Health and the 
Environment of the House Energy & Commerce Committee performing 
oversight of the CPSC. After that, I became a professor at the 
University of North Carolina where I wrote numerous articles on 
consumer product safety issues. And, from October 2008-January 2009, I 
served as a member of the Obama Transition Team on which I co-authored 
the Transition Team Report on the Consumer Product Safety Commission.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    At the moment, I serve as the Acting Chairman of the CPSC. In that 
capacity, Ihave done my best to direct the agency to follow proper 
management and accounting rules, including meeting on an ongoing basis 
with administrative and financial staff to be certain that the rules, 
in fact, are being followed.
    Under the governing act of the agency, the Consumer Product Safety 
Act, the Chair has the primary responsibility for managing the agency. 
Commissioners, however, share equally in setting agency policies and 
have a broad right to monitor the implementation of those policies. 
Given this shared responsibility, Icommit myself to monitoring the 
management and administrative activities of the CPSC in a conscientious 
manner to the extent that the governing statute of the agency gives me 
the authority and responsibility to do so.
    My management experience began when I ran a regional office of the 
Pennsylvania Justice Department in Pittsburgh where I had a staff of 
roughly 7 investigators and administrative personnel. At the Kenan-
Flagler Business School, as an Associate Dean for the BSBA Program, I 
ran the undergraduate business program which included 4 professional 
staff and roughly 600 undergraduate students. Later, as Associate Dean 
of the MBA Program, l ran the school's MBA Program, which included 
roughly 10 professional staff and 600-plus MBA students.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The Commission's first challenge is to continue to implement the 
mandates contained in the Consumer Product Safety Improvement Act 
(CPSIA), as amended by P.L. 112-28. The agency is well along the way in 
doing so, and continues to provide a balanced, effective approach to 
America's consumers and the agency's various stakeholders.
    A second challenge is to raise awareness both within the CPSC and 
the Product Safety Community generally about the growing need for the 
agency to focus on the problems of older Americans. Seniors, those over 
age 65, currently constitute 13 percent of the population, but will 
make up 20 percent by the year 2030. Moreover, as I have previously 
noted, even though seniors constitute only 13 percent of the 
population, they constitute 65 percent of consumer product-related 
fatalities.
    Finally, I would like to help make the CPSC, a very small agency, 
as effective as it can be in protecting consumers. Being small is not 
always a disadvantage if the agency can demonstrate a truly nimble and 
thoughtful approach to product safety. J hope to continue to work to 
expand the agency's approach to the digital revolution to expand the 
agency's outreach and effectiveness both with consumers and industry.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Retirement Accounts: Virtually all of my retirement accounts are in 
broad based mutual funds with no individual company holdings.
    Please see section E of this form for a complete listing of my 
retirement account information.
    Ongoing Business Dealings: I have no other ongoing business 
dealings. My wife and I own a one-bedroom apartment next to our 
condominium, which we may rent in the future, but have not done so yet.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have done no advocacy on issues of public policy beyond my 
regular research and teaching activities as a professor with the 
exception that I served on the Obama Transition Team from October 2008-
January 2009, co-authoring the report on the Consumer Product Safety 
Commission.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the CPSC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    When I served as a Deputy Attorney General in the Bureau of 
Consumer Protection in the Pennsylvania Justice Department, I 
investigated an individual for fraud in 1972 or 1973. At one point, he 
wrote a letter to the Bar Association that accused me of trying to 
intimidate him during a negotiation for a consent decree (which he 
never signed). As I recall, I disputed this complaint, pointing out 
that the individual's attorney sat through the entire negotiation and 
disagreed with his client's characterization of events. The Bar 
Association dismissed the charge against me. Whether this was 
considered a formal complaint, I cannot recall. When I last checked 
with the Bar Association many years ago, Iwas told that they have no 
record of any complaint listed against me. I cannot recall the name of 
the complainant.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. I filed a lawsuit in 1973 or 1974 in Allegheny County, PA (or 
in the district court for the western district of Pa.) as the plaintiff 
in a case under the Fair Credit Reporting Act against a company that 
had illegally run a credit check on me while Iwas investigating them 
for possible consumer fraud violations as part of my job with the 
Pennsylvania Justice Department. We settled the case before trial, with 
the company paying me roughly $3,000. Despite my best efforts, I cannot 
find my records of the case. Irecently spoke to the attorney who 
handled my case. He has changed law firms several times over the years, 
and he cannot recall any of the details of the case either.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
3. Will you cooperate in providing the Committee with requested 
    witnesses, including technical experts and career employees, with 
    firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    Resumee of Robert Sanford Adler

 
 
 
Education:            J.D., University of Michigan Law School, 1969
                      A.B., University of Pennsylvania, 1966, cum laude
Honors, Awards,       Member, Obama Transition Team, 2009
Special Recognition:  ``Tar Heel of the Week,'' selected by Raleigh News
                       & Observer,
                      December 2009
                      Faculty Appreciation Award for Distinguished MBA
                       Teaching, 2005-2006; 2006-2007; 2008-2009
                      Recipient of Dean's Teaching Bonus, 2005-2006;
                       2006-2007
                      Gerald Barrett Faculty Award (excellence in
                       teaching and service in the Kenan-Flagler MBA
                       Program), 2004
                      Best Article Award, CPR Institute for Dispute
                       Resolution, for article in Harvard Negotiation
                       Law Review, 2001
                      President, The University of North Carolina at
                       Chapel Hill Academy of Distinguished Teaching
                       Scholars, 2003-2007
                      Order of the Grail-Valkyries, 1999 (campus-wide
                       honor society)
                      Order of the Golden Fleece, 1997 (campus-wide
                       honor society)
                      Tanner Award for Excellence in Undergraduate
                       Teaching (university-wide teaching award), 1996
                      O'Herron Scholar, (excellence in teaching and
                       research), 1996
                      Elected to Board of Directors, Consumers Union,
                       publishers of Consumer Reports (6 terms; first
                       elected, 1989)
                      McColl Award for Teaching, Research and Service
                       Excellence, 1994
                      Undergraduate Program Distinguished Teaching
                       Award, 1990
                      Federal Executive Board, Outstanding Achievement,
                       1973
                      Reginald Heber Smith Fellow, 1969-1971
Employment:
2009-present:         Commissioner, U.S. Consumer Product Safety
                       Commission
                      Vice-Chair, 2010-2014; Acting Chairman, Dec. 2013-
                       present
2003-2009:            Luther Hodges, Jr., Scholar in Law & Ethics
                      Kenan-Flagler Business School
2002-2003:            Associate Dean
                      MBA Program, Kenan-Flagler Business School
1995-2002:            Professor of Legal Studies
                      Kenan-Flagler Business School
1994-1998:            Associate Dean
                      Undergraduate (BSBA) Program
                      Kenan-Flagler Business School
                      University of North Carolina
                      Chapel Hill, North Carolina
1987-1995:            Associate Professor of Legal Studies
                      Kenan-Flagler Business School
                      University of North Carolina
                      Chapel Hill, North Carolina (received tenure,
                       1990)
1985-1987:            Counsel to the Subcommittee on Health and the
                       Environment
                      Committee on Energy and Commerce
                      U.S. House of Representatives
                      Washington, D.C.
1984-1985:            Of Counsel
                      Schmeltzer, Aptaker and Sheppard
                      Washington, D.C.
1983-1985:            Adjunct Professor
                      Washington College of Law
                      American University
                      Washington, D.C.
1982-1984:            Attorney-advisor to Commissioner Sam Zagoria
                      U.S. Consumer Product Safety Commission
                      Washington, D.C.
1973-1982:            Attorney-advisor to Commissioner R. David Pittle
                      U.S. Consumer Product Safety Commission
                      Washington, D.C.
1971-1973:            Deputy Attorney General
                      Director, Southwestern Regional Office
                      Pennsylvania Bureau of Consumer Protection
                      Pennsylvania Justice Department
                      Pittsburgh, PA.
1969-1971:            Director, Consumer Division
                      Neighborhood Legal Services Association
                      Pittsburgh, PA.
 

    Publications:

        (a) Refereed Articles:

        ``Mastering the Art of Negotiating With Liars,'' Sloan 
        Management Review, Vol. 48, No. 4 (Summer 2007) pp. 69-74.

        ``Flawed Thinking: Addressing Decision Biases in Negotiation,'' 
        Ohio State Journal on Dispute Resolution, Vol. 20, No. 3 (2005) 
        pp. 683-774.

        ``When David Meets Goliath: Dealing With Power Differentials in 
        Negotiations,'' Harvard Negotiation Law Review, (co-authored 
        with Elliot Silverstein) Vol. 5 (Summer 2000) pp. 1-112.

        ``Here's Smoking at You, Kid: Has Tobacco Product Placement in 
        the Movies Really Stopped?'' University of Montana Law Review, 
        Vol. 60 (2) (Summer 1999) pp. 243-284.

        ``Emotions in Negotiation: How to Handle Fear and Anger,'' (co-
        authored with Ben Rosen and Elliot Silverstein) The Negotiation 
        Journal Vol. 14 (2) (April 1998) pp. 161-179.

        ``The Preemption Pentad: Federal Preemption of Products 
        Liability Claims After Medtronic v. Lohr,'' (co-authored with 
        Rob Leflar) University of Tennessee Law Review Vol. 64 (Spring 
        1997) pp. 691-748.

        ``Encouraging Employers To Abandon Their ``No Comment'' 
        Policies Regarding Job References; A Reform Proposal,'' (co-
        authored with Ellen Peirce) Washington & Lee Law Review, Vol. 
        50, No.4 (!996) pp. 1381-1469.

        ``Addressing Product Misuse at the Consumer Product Safety 
        Commission: Redesigning People Versus Redesigning Products,'' 
        University of Virginia Journal of Law & Politics Vol. XI, No. 1 
        (Winter 1995) pp. 79-127, reprinted in Charles H. Koch, Jr., 
        Fundamentals of Administrative Practice and Procedure (3rd ed.)

        ``Preemption and Medical Devices: The Courts Run Amok,'' (co-
        authored with Richard Mann) University of Missouri Law Review 
        Vol. 59 (Fall 1994) pp. 895-945.

        ``Good Faith: A New Look At An Old Doctrine,'' (co-authored 
        with Richard A. Mann) Akron Law Review Vol. 28 (Summer 1994) 
        pp. 31-52.

        ``The Last Best Argument for Eliminating Reliance From Express 
        Warranties: `Real World' Consumers Don't Read Warranties,'' U. 
        of So. Carolina Law Review, Vol. 45 (Spring 1994) pp. 429-475.

        ``Avoiding Misuse of New Information Technologies,'' (co-
        authored with Paul Bloom and George Milne) Journal of 
        Marketing, Vol. 58 (January 1994) pp. 98-110.

        ``The Legal, Ethical and Social Implications of the `Reasonable 
        Woman' Standard in Sexual Harassment Cases,'' (co-authored with 
        Ellen Peirce) Fordham Law Review, Vol. 361, No.4 (March 1993) 
        pp. 773-827, reprinted in Ethics in the Workplace, E. 
        Ottensmeyer and G. McCarthy (1996) pp. 211-235.

        ``Contemporary Ethical Issues in Labor-Management Relations,'' 
        Journal of Business Ethics (co-authored with William Bigoness), 
        Vol. 11 (1992) pp. 351-360.

        ``Cooperative Learning Groups in Undergraduate and Graduate 
        Contexts: Different Strokes for Different Folks,'' Journal of 
        Legal Studies Education (co-authored with Ed Neal), Vol. 9, No. 
        3, (Fall l991) pp. 427-435.

        ``Stalking the Rogue Physician: An Analysis of the Health Care 
        Quality Improvement Act,'' American Business Law Journal, Vol. 
        28, No. 4, (1991) pp. 683-741.

        ``Shaping Up Federal Agencies: A Basic Training Program for 
        Regulators,'' The University of Virginia Journal of Law & 
        Politics, Vol. VI, No. 2 (co-authored with Stephen Klitzman & 
        Richard Mann) (1990) pp. 343-371.

        ``From `Model Agency' to Basket Case: Can the Consumer Product 
        Safety Commission Be Redeemed?'' Administrative Law Review, 
        Vol. 41, (1989) pp. 61-129.

        ``The 1976 Medical Device Amendments: A Step in the Right 
        Direction Needs Another Step in the Right Direction,'' Food 
        Drug Cosmetic Law Journal, Vol. 43, No.3. pages 511-532 (1988). 
        Revised and updated as ``Legislation Needed to Improve the 
        Medical Devices Law'' in The Medical Device Industry: Science. 
        Technology, and Regulation in a Competitive Environment, pp. 
        531-549 (1990).

        ``Product Recalls: A Remedy in Need of Repair,'' Case Western 
        Law Review, Vol. 34, No.4 (co-authored with Teresa M. Schwartz) 
        (1983-84) pp. 401-464.

        ``Cajolery or Command: Are Education Campaigns an Adequate 
        Substitute for Regulation?'' Yale Journal on Regulation, Vol. 
        1, No. 2 (1984) (co-authored with R. David Pittle) pp. 159-193.

        ``Commentary on Product Liability: An Interaction of Law and 
        Technology,'' Duquesne Law Review, Vol. 12 (1974) (co-authored 
        with R. David Pittle) pp. 487-495.

        (b) Professional Publications/Op-Ed Articles:

        ``Vigilance is Best Answer to Safety in Pools,'' (co-authored 
        with Congresswoman Debbie Wasserman Schultz) South Florida Sun 
        Sentinel, May 11, 2014.

        ``Safety Regulators Don't Add Costs. They Decide Who Pays 
        Them,'' New York Times (on-line), October 16, 2011.

        ``Moving Forward on Product Safety,'' Politico (on-line). 
        August 14, 2011.

        ``Thrust and Parry: The Art of Tough Negotiating,'' (co-
        authored with Ben Rosen and Elliot Silverstein) Training & 
        Development, Vol. 50, No. 3 (March 1996) 42-48.

        ``New Leadership at the Consumer Product Safety Commission: 
        Will It Make A Difference?'' TRIAL, Vol. 30, No. 11 (November 
        1994) 63-67.

        ``The CPSC at 20 Is Still Immature,'' TRIAL, Vol. 28, No. 11 
        (November 1992) pp. 30-34.

        ``New CPSC Act: A Disappointment,'' TRIAL, Vol. 27, No. 11 
        (November, 1991) pp. 18-25.

        ``Manufacturers Blind CPSC to Product Hazards,'' TRIAL, Vol. 
        26, No. 10 (October, 1990) pp. 20-24.

        ``Toy Safety: No Kidding Around,'' TRIAL, Vol. 25, No. 11, 
        pages 44-47 (1989).

        ``Of Ketchup, Ozone, and Airline Delays: A Regulatory Legacy,'' 
        Legal Times (April 11, 1988) pp. 18-20; reprinted as 
        ``Rethinking Reagan's Deregulation Drive,'' Miami Legal Review 
        (May 2, 1988) pp. 9-1 0; and reprinted as ``Reagan's 
        Deregulation Efforts Have Done More Harm Than Good,'' Manhattan 
        Lawyer, (April 19-25, 1988) pp. 30-31.

        ``Will CPSC Halt U.S. Export of Hazardous Items? Legal Times 
        (April16, 1984) pp. 11-13.

        ``Does CPSC's Past Bode Ill for Future of Regulatory 
        Negotiations?'' Legal Times (June 20, 1983) (co-authored with 
        R. David Pittle) pp. 10-11.

        (c) Chapters in Books:

        ``Product Safety: The Consumer Product Safety Commission,'' in 
        Changing America: Blueprints for the New Administration (co-
        authored with R. David Pittle) pp. 540-553 (1993).

        ``A Framework for Identifying the Legal and Political Risks of 
        Using New Information Technologies to Support Marketing 
        Programs,'' (co-authored with Paul N. Bloom & George Milne), 
        Monograph for Marketing Science Institute, Report No. 92-102, 
        February 1992, reprinted as ``Identifying the Legal and Ethical 
        Risks and Costs of Using New Information Technologies To 
        Support Marketing Programs,'' in The Marketing Information 
        Revolution, Harvard Business School Press, 1994, pp. 289-305 
        (1994).

        ``Psycholegal Aspects of Organizational Behavior: Assessing and 
        Controlling Risk'' in Handbook of Psychology and Law, eds. 
        Dorothy K. Kagehiro & William S. Laufer, pp. 523-541 (co-
        authored with Alan J. Tomkins & Bart Victor) (l992).

        ``Product Safety: the Consumer Product Safety Commission'' in 
        America's Transition: Blueprints for the 1990s, (co-authored 
        with R. David Pittle) 268-86 (1989).

        (d) Book Reviews:

        ``Innovation, Safety, and Costs: A Delicate Balance,'' Review 
        of Managing the Medical Arms Race: Innovation and Public Policy 
        in the Medical Device Industry, (University of California 
        Press) in Health Affairs, Vol. 12, No. 3 (Fall l993) pp. 271-
        273.

        Review of The Product Liability Handbook: Prevention, Risk, 
        Consequence and Forensics of Product Failure, ed. Sam Brown 
        (Van Nostrand Reinhold 1991), Products Liability Law Journal, 
        Volume 3, No. 3 (May 1992) pp. 212-218.

        Review of R. Mayer, The Consumer Movement: Guardians of the 
        Marketplace (Twayne 1989) and D. Vogel, Fluctuating Fortunes: 
        The Political Power of Business (Basic Books 1989), Journal of 
        Consumer Policy, Volume 14 (1991) pp. 243-248.

        (e) Other Publications:

        ``Time to Strengthen Consumer Protection,'' Christian Science 
        Monitor (May 8, 1989) (co-authored with R. David Pittle) p. 18.

        Lawsuits Without Lawyers, monograph on lawsuits in small claims 
        courts (1973) (co-authored with Carol Knutson, Larry Slesinger, 
        and David Worstell) pp. 1-49.

    Speeches:

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to Walmart Compliance and Enforcement Officials, 
        video broadcast from Washington, D.C. to Walmart Officials, 
        Bentonville, Arkansas (May 12, 2014).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to various consumer groups, in Washington, D.C. 
        (April 10, 2014)

        ``Non-traditional Careers in Law,'' at Career Day, Washington 
        College of Law, American University, Washington, D.C. (April 1, 
        2014).

        ``Pool Safely,'' to National Drowning Prevention Alliance, in 
        Orlando, Florida (April 1, 2014).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to Toy Industry Association, in New York, NY 
        (February 18, 2014).

        Recent Developments at the Consumer Product Safety 
        Commission,'' to Juvenile Product Manufacturers Association, in 
        Washington, D.C. (February 5, 2014).

        ``CPSC Challenge to Safety App Manufacturers,'' at White House 
        Datapalooza Conference, in Washington, D.C. (January 14, 2014).

        ``Carbon Monoxide Safety,'' to Chicago Firefighters and Members 
        of Media, Chicago, Illinois (December 19, 2013).

        ``From Professor to Regulator: Trials and Tribulations of a 
        CPSC Commissioner,'' DePauw University, Greencastle, IN 
        (November 5, 2013).

        ``Product Safety Versus Product Liability,'' to American 
        Conference Institute Seminar, Chicago, Illinois (June 26, 
        2013).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to International Council of Toy Industries, 
        Washington, D.C. (June 3, 2013).

        ``Product Liability and its Interaction with Product Safety at 
        the Consumer Product Safety Commission,'' Louis Brandeis School 
        of Law, University of Louisville, Louisville, KY (April l5, 
        2013).

        ``Recent Developments at the Consumer Product Safety 
        Commission,'' to Society of Glass and Ceramic decorated 
        Products,'' Louisville, KY (April 14, 2013).

        ``How Standards Work at the U.S. Consumer Product Safety 
        Commission,'' to Workshop on Standards Policy and Practices for 
        Federal Agencies, sponsored by National Institute ofStru1dards 
        and Technology, Washington, D.C. (November 8, 2012).

        ``Voluntary Standards at the U.S. Consumer Product Safety 
        Commission,'' to the ANSI Caucus of the American National 
        Standards Institute, Washington, D.C. (October 3, 2012).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to Midwest Product Safety Workshop of the 
        International Consumer Product Safety and Health Organization 
        (ICPHSO), at the Cook School of Business, St. Louis University, 
        St. Louis, MO. (August 13, 2012).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the American Apparel and Footwear Association, 
        New York, NY (July 31, 2012).

        ``In Commemoration of President Kennedy's Statement of Consumer 
        Rights,'' to Consumers, International, Washington, D.C. (June 
        20, 2012).

        ``Product Liability and Product Safety Issues at the U.S. 
        Consumer Product Safety Commission,'' to the American 
        Legislative Exchange Council (ALEC), Charlotte, NC (May 11, 
        2012).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to National Association of Manufacturers, 
        Washington, D.C. (March, 2012).

        ``The New CPSC Database,'' to Consumer Advocates Web 
        Conference, Washington, D.C. (January 11, 2012).

        ``Product Safety and Older Americans,'' to Association of 
        Retired Americans, Washington, D.C. (September 7, 2011).

        ``Polyurethane Foam and Upholstered Furniture Flammability,'' 
        to Polyurethane Foam Manufacturers Association, Baltimore, MD 
        (May 19, 2011),

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to Consumer Specialty Products Association, 
        Washington, D.C. (May 6, 2011).

        ``Recent Developments at U.S. Consumer Product Safety 
        Commission,'' to Consumer Federation of America (CFA), (March 
        18, 2011).

        ``Recent Developments at U.S. Consumer Product Safety 
        Commission,'' at Toy Fair, New York, NY (February 15, 2011).

        ``Meet the U.S. Consumer Product Safety Commission,'' to 
        general audience, St. Louis University, St. Louis, MO (December 
        2, 2010).

        ``The Hard Work of Being a Product Safety Compliance 
        Official,'' to graduating class receiving Certificate in 
        Product Safety, Cook School of Business, St. Louis University, 
        St. Louis, MO. (December 2, 2010).

        ``The CPSC and Retailers,'' to Retail Law Conference, 
        Washington, DC (November 9, 2010).

        ``How the Consumer Product Safety Commission Operates,'' to 
        Consumers Union Activist Summit, Washington, D.C. (June 11, 
        2010).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the American Apparel and Footwear Association, 
        New York, NY (June 16, 2010).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the Toy Industry of America, Washington, D.C. 
        (May 2010).

        ``How the CPSC Works with State and Local Officials,'' to State 
        Designees Liaison with CPSC (February 17, 2010).

        ``Recent Developments at the U.S. Consumer Product Safety 
        Commission,'' to the American Apparel and Footwear Association, 
        New York, NY (October 29, 2009).

    Presentations:

        ``Business Ethics and Product Safety,'' to International 
        Consumer Product Safety and Health Organization (ICPHSO) (March 
        2, 2012).

        ``Consumer Product Safety Commission: Reflections from the 
        Obama Transition Team'' to conference of International Consumer 
        Product Health and Safety Officials, Orlando, Florida (February 
        25, 2009).

        ``How the Consumer Product Safety Commission Works with 
        Underwriters Laboratories,'' to Executive Education Class, Yale 
        School of Business (November 12, 2011).

        ``Protecting Consumers and Business in a Politicized World,'' 
        to UNC Kenan-Flagler DC Alumni Club (November 3, 2011).

        ``The Great Debt Ceiling Debate: Lessons for Negotiators,'' to 
        faculty and students, Wharton Business School, University of 
        Pennsylvania (November 1, 2011).

        ``Saving Our Seniors: An Urgent Product Safety Message,'' to 
        Alliance for Retired Americans (September 7, 2011).

        ``Update on the Consumer Product Safety Commission,'' to the 
        Polyurethane Foam Association Semi-Annual Meeting (May 19, 
        2011).

        ``What the Consumer Product Safety Commission Does and How it 
        Does it,'' to Business and Government Relations Class, UNC 
        Kenan-Flagler Business School, March 24, 2011).

        ``A Progress Report on the Consumer Product Safety 
        Commission,'' to the Consumer Assembly of the Consumer 
        Federation of America (March 18, 2011).

        ``How to Negotiate with the Consumer Product Safety 
        Commission,'' to International Consumer Product Health and 
        Safety Organization (ICPHSO) (February 24, 2011).

        ``Remarks to Graduates'' to Certificate in Product Safety 
        Management Program, St. Louis University (December 2, 2010).

        ``Regulating Product Safety: Future Challenges,'' to 
        university-wide audience at Cook School of Business, St. Louis 
        University (December 2, 2010).

        ``Implementing the Consumer Product Safety Improvement Act,'' 
        to American Apparel and Footwear Association (June 16, 2010).

        ``Consumer Activism and Product Safety,'' to Consumers Union 
        Activist Summit (June 11, 2010).

        ``CPSC, the Consumer Product Safety Improvement Act and Toy 
        Safety,'' to board of directors, Toy Industry of America (May 
        4, 2010).

        ``How CPSC is Implementing the Consumer Product Safety 
        Improvement Act,'' to Annual Meeting, Association of Home 
        Appliance Manufacturers (April 26, 2010).

        ``Current Developments Regarding Toy Safety,'' Keynote Address 
        at International Toy Fair, New York, NY (February 15, 2011).

        ``Professor Adler Becomes Commissioner Adler,'' given as the 
        Donald F. Clifford, Jr. Distinguished Lecture to Law School, 
        University of North Carolina (February 5, 2010).

        ``The Ethics of Wal-Mart,'' to UNC Humanities Program (June 15, 
        2006).

        ``A Critical Look at The Corporation,'' by Joel Bakan, to Parr 
        Center for Ethics (April 26, 2006).

        ``Negotiation Issues and Gender,'' to Carolina Women In 
        Business (CWIB) (February 22, 2006).

        ``Ethical Issues of States Offering Tax and Other Incentives to 
        Attract Business,'' to North Carolina Institute for 
        Constitutional Law (December 8, 2005).

        ``Negotiation in the U.S. and Internationally,'' to Humphrey 
        Fellows (November 16, 2006) ``Enron and Ethics,'' to Kenan-
        Flagler faculty, staff and students (February 20, 2002).

        ``Business Ethics for Lawyers, at Annual Legal Learning 
        Festival sponsored by UNC Law School, Friday Center (February 
        9, 2002).

        ``Pedagogical Skills in Business Ethics,'' to ITESM Faculty, 
        Monterrey, Mexico (October 27, 2000)

        ``Negotiation Skills,'' to North Carolina Association of Black 
        Lawyers, Wilmington, N.C. (June 23, 2000)

        ``Ethics and Leadership,'' to UNC-CH Graduate Student 
        Leadership Course (March 28, 2000).

        ``Ethics and Leadership,'' to North Carolina Leadership Forum 
        (February 3, 2000). ``Business Ethics for Lawyers,'' at Annual 
        Learning Festival sponsored by UNC Law School, Friday Center 
        (February 12, 1999).

        ``One Million ATV Injuries Later . . . Will the End of the 
        Consent Decree Bring More Consumer Litigation? The Government 
        Perspective'' Nationwide Teleconference by Telephone, December 
        2 and December 4, 1998.

        ``A Strategic Plan for ICPHSO,'' at conference of International 
        Consumer Product Health and Safety Officials, Orlando, Florida 
        (February 26-27, 1998).

        ``The Future of Product Safety and Product Liability'', at 
        conference of International Consumer Product Health and Safety 
        Officials, Key West, Florida (February 28, 1997).

        ``Product Safety Versus Product Liability'' at conference of 
        International Consumer of Consumer Product Health and Safety 
        Officials (February 29, 1996).

        ``Business Ethics,'' at Festifall Conference by UNC Law School 
        (February 2, 1996).

        ``Medical Devices and Preemption: The Courts Run Amok,'' at 
        Academy of Legal Studies in Business, Dallas Texas (August 12, 
        1994) (co-authored with Richard Mann).

        ``Good Faith: Let's Be Objective About It,'' presented at 
        Academy of Legal Studies in Business, Boulder, CO. (August 23, 
        1993) (jointly presented with Richard Mann).

        ``Forum on the `Litigation Explosion,' '' presented at joint 
        session of Wake Forest Law School and Business School, Winston-
        Salem, N.C. (September 16, 1992).

        ``The Legal, Ethical and Social Implications of 'The Reasonable 
        Woman' Standard in Sexual Harassment Cases,'' presented at 
        Academy of Legal Studies in Business, Charleston, S.C. (August 
        21, 1992) (jointly presented with Ellen Peirce).

        ``Remarks on CPSC Long-Range Plan,'' testimony before Chairman 
        and Commissioners of the U.S. Consumer Product Safety 
        Commission, Washington, D.C. (June 18, 1992).

        ``Regulation, Deregulation, and Reregulation,'' presented at 
        American Business Law Association Conference (August 17, 1990), 
        Toronto, Canada (jointly presented with Richard A. Mann).

        ``The Role of Federal Safety Standards in Product Liability 
        Litigation,'' presented at Conference on ``Avoiding Product 
        Liability Suits,'' Union College (July 12, 1990).

        ``Stalking the Rogue Physician: An Analysis of the Health Care 
        Quality Improvement Act of 1986 and its Implementation,'' 
        presented at American Business Law Association Conference 
        (Summer, 1989).

        ``Challenges in Teaching Business Ethics to First Year MBA 
        candidates,'' presented at American Business Law Association 
        Conference (Summer, 1989)

        ``Needed: A College for Regulators,'' presented at Southeastern 
        Regional Business Law Association Conference (Fall, 1988)

        ``Federal Deregulation and State Reregulation,'' presented to 
        the American Bar Association Committees on Consumer Product 
        Regulation and State Administrative Law of the Administrative 
        Law Section and the Section of Urban, State and Local 
        Government Law (August 11, 1987).

        ``Medical Malpractice: Current Developments,'' presented to the 
        Graduate School of Business Administration, Boston University 
        (November, 1987)

        ``Congressional Perspectives on Pending Medical Device 
        Legislation,'' presented to the National Electrical 
        Manufacturers Association (September 19, 1987).

Editor or Reviewer

Elected to Editorial Board, Food and Drug Law Journal, 1999

Staff Editor, A merican Business Law Journal, 1990-1993

Reviewer, American Business Law Journal, 1989-90

Teaching

Undergraduate: Introduction to Business Law, BA 140; Commercial Paper 
and Sales, BA 141

MBA: Negotiation, BA 253; Ethical Aspects of Management, BA 293; 
Business-Government Relations, BA 299; Strategy Course, BA 295

Management Education: Taught numerous Executive Education courses with 
evaluations that generally range above 4.70 out of 5.0; Co-developed 
and ran Leadership Program for Water Industry

Course Development

Developed Negotiation Course, 1995

Coordinator, MBA Business Ethics Course, 1991-2000

Helped design and develop Business Ethics course for MBA and Executive 
MBA Programs, 1988-90

Designed and taught Business-Government Relations MBA course, 1990-2004

Developed regulatory materials for Strategy Course, 1994

Professional Activities

Member of North Carolina Bar, 1989-present

Member of Washington, D.C. Bar, 1976-present (inactive)

Member of Pennsylvania Bar, 1969-present (inactive)

Academy of Legal Studies in Business, 1987-2009

Member, Business Ethics Section of ALSB, 1989-2009

University and Business School Service

President, Academy of Distinguished Teaching Scholars, 2003-2009

Chair, Committee on Student Conduct, 2006-2009

Chair, Faculty Advisory Committee, 2007-2009

Member, Board of Advisors, Parr Ethics Center, 2006-2009

Member, Chancellor's Committee on Reaccreditation for SACS, 2004-2006

Chair, KFBS Faculty Advisory Committee (FAC), 2006

Member, Faculty Advisory Committee, 2004

Member, Promotion and Tenure Committee, 2004-2009

Member, MAC Advisory Committee, 2002-2005

Chair, Committee to Review Gene Nichols for Reappointment as Dean, UNC 
Law School, 2003

Chair, Committee on Student Conduct, 2000-2001

Member, Committee to Review Risa Palm for reappointment as Dean, 
College of Arts and Science, 2001

Member, Facilities Use Review Group, 2000

Member, Executive Committee of faculty Council, 1999

Member, UNC Task force on Student Evaluation of Teaching, 1999

Associate Dean, Undergraduate Program, 1994-1998

Chair, Kenan-Flagler Committee on Diversity, 1993, 1994, 1995 and 1997

Chair, UNC Committee on Student Conduct, 1993-94

Member, Dean Search Committee, 1997

Member, Tanner Teaching Awards, Committee, 1997

Member, Chancellor's Task Force on Intellectual Climate at UNC, 1996-
1997

Member, Kenan-Flagler Distance Learning Committee, 1996

Member, Kenan-Flagler Reorganization Task Force, 1994

Member and Chair of numerous UNC University Hearings Boards, 1987-
present

Member, Board of Directors of Student Legal Services, 1990-2008

Coordinator, Diversity Sessions, Orientation Week for Incoming MBA 
Students, 1989-1993
National and Community Service

Member, Board of Directors, Consumers Union, 1989-2009.

Member, NC Chief Justice's Commission on Professionalism, 2007-2008

Board of Directors, International Consumer Product Health and Safety 
Organization, 1997

Evaluator, BBA Program, University of Iowa, 1995

Member, Committee of the Institute of Medicine, National Academy of 
Science to Study FDA Advisory Committees, 1991-93

Member, Committee of the Institute of Medicine, National Academy of 
Science to Study the Operations of the Nuclear Regulatory Commission, 
1994-1995

Chair, Committee to Review the Operations of the North Carolina 
Wildlife Federation, I 992-93

Personal

Born September 27, 1944
Married, one child

    The Chairman. Thank you, Mr. Adler, very much.
    A very, very good group.
    Senator Blumenthal, do you want to make a little comment?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. A very little comment, just to thank 
each of you for your willingness to serve, your public service 
in the past, and I look forward to working with you.
    These positions are critically important to the actual nuts 
and bolts of what your agencies do. We often see the heads of 
agencies, but the health and safety of our people is dependent 
on the work that you and your staffs do every day. So thank you 
for your service, and I look forward to working with you on the 
very timely issues that I am sure will be presented.
    Thank you, Mr. Chairman. Thank you for holding this hearing 
and to our excellent staff for once again preparing us so well.
    Thank you.
    The Chairman. Yes. That is right. It was terrific that you 
talked about your staff, Mr. Adler, and I don't do that enough. 
We don't do that. I can't see them. They are behind me.
    [Laughter.]
    The Chairman. Anyway, let us get to Mr. Mendez and Mr. 
Rogoff. You know this is a very high-stakes game we are 
entering into now. This question, are we going to patch it over 
for a year on the Highway Trust Fund, or are we going to patch 
it over for a longer period of time?
    I have a couple of questions on that, but the first thing I 
would like to get from each of you is what actually happens 
that is concerning as we approach a closedown reality?
    Mr. Mendez. Let me begin with what I see, and as I 
mentioned in my opening remarks, I actually used to run a State 
DOT. So we can have a Federal perspective and maybe a State 
perspective as well.
    I think our bigger concern, of course, is that as we are 
approaching in the next couple of months, the Highway Trust 
Fund is going to become insolvent. We have heard many times 
Secretary Foxx mention that we will be bouncing checks.
    What is, in fact, occurring--what occurs that the way we 
make our payments to the states and the recipients, we would 
then have to go into a different cash management approach that 
we are working on internally. Not ready yet to share that with 
people so we can kind of work our way through the details. But 
we, in essence, would slow down our payments to the recipients 
of Federal funds.
    That, of course, will have ripple effect on various 
businesses. As you mentioned in your opening comments, impacts 
contractors, impacts to the recipients, of course, and State 
DOTs as well.
    Mr. Rogoff. I think what I would add to that, Mr. Chairman, 
and this is a source of great concern to us, is when you get 
into this period of uncertainty, especially if you get into a 
period of recurring uncertainty, local planners, local elected 
officials lose their vision, their willingness to tackle the 
big projects because they don't know that the cash is going to 
be there at the end.
    So you actually potentially see a change in the mix of 
projects. They take on smaller repaving projects, and the 
bridge replacement that has been deferred time and time again 
gets deferred again, to the detriment of the system.
    The Chairman. But the--for example, if the Panama Canal is 
now widened by 100 percent, and the effect to inland and 
coastal ports, therefore, is absolutely phenomenally important. 
So what you are talking about is whether people have--they are 
faced with a short-term fix, pothole mentality, or a large 
picture mentality. And that is where you run into the problem, 
which is very difficult in this Congress, because people want 
to see progress on infrastructure.
    Of course, when I think about infrastructure, I just don't 
think about cement and steel. I think about the National 
Institutes of Health and the National Science Foundation and 
all the rest of it. But for this, we are concentrating on one 
part.
    That, on the one hand, people who are contractors, that is 
the work that they do. So that you could say, well, the people 
at the State level may have narrower visions.
    But if you have, as Senator Klobuchar experienced, an 
enormous bridge collapse, and if you have as we have in West 
Virginia, where 96 percent of the land is not flat, and we are 
having this oil--I mean, this natural gas boom, and 200,000-
pound trucks are just absolutely streaming all day long, every 
day, across bridges that have maximum weight limits of 75,000 
pounds. And natural gas doesn't necessarily locate in highly 
populated, well-serviced areas. A lot of it is very rural.
    And so, this is the conflict. I mean, are we going to--are 
we going to do a patch, which is, after all, something, right? 
It is something. Fixing a pothole is something.
    I remember when that was my biggest worry about when I was 
Governor, whether you were a pothole Governor or you weren't 
made the difference about whether you could get reelected or 
not, rather than building eight bridges across the Ohio River, 
which I did. Unfortunately, I had to pay 80 percent of it, and 
Ohio only had to pay 20 percent of that. You--Mr. Andrews, that 
may be something you want to fix, even out just a bit.
    But that tension about not wanting to raise the revenues, 
and yet if you don't raise the revenues, you condemn yourself 
to a minimal future. Please, both of you talk about that.
    Mr. Mendez. Yes. Mr. Chairman, I think you are absolutely 
right.
    By not being able to plan and look toward the future, you, 
in fact, limit your options, your ability to actually improve 
the economy and create jobs. But in addition to that, I think 
what we need to be thinking about is that people on the ground, 
you know, the planners and those of us who have to actually run 
programs, our ability gets very limited to look beyond, you 
know, the limited amount of time that potentially you are 
looking for. So, as my colleague was mentioning, our long-term 
planning capability gets limited by that.
    And so, you are stuck in an area where the industry itself, 
I know from my experience, where contractors cannot invest in 
equipment. They will slow down their hiring. They have to be 
making payroll and making long-term investment decisions in 
their businesses, and they are limited by that.
    The Chairman. Thank you.
    Mr. Rogoff?
    Mr. Rogoff. I would just add Victor was correct to point 
out that this isn't just about the immediate contractors. This 
has a trickle-down effect on suppliers throughout the country, 
down to every sand and gravel pit that we have in the United 
States.
    Importantly, I was concerned, frankly, sir, by your opening 
statement in which you said we hope we will have some kind of 
fix by the August recess. We must have a fix by the August 
recess, at least a short-term one, because the cash management 
procedures will have to go into effect in August, based on our 
current projections, and these projections are volatile.
    Importantly, I think on the revenue side, it is hard not to 
notice the remarkable overlap between some of the senior 
members on this committee and on the Finance Committee. So the 
fact that we are discussing it here we hope will trickle over 
to your finance discussions.
    I think the time has largely passed where we can patch this 
thing together through a variety of small and disparate tax 
measures. In order to just maintain current funding on a multi-
year basis, we are going to have to raise real revenue.
    The President has a proposal to find $150 billion in 
additional revenue to add to the revenues that the Trust Fund 
will get on a 4-year basis. There are other proposals out 
there. But clearly, new revenue from some source is in order to 
get a multi-year bill. A multi-year bill is what we need for 
the certainty that the system needs.
    And here again, if we are going to go the effort to raise 
real revenue, we feel strongly within the administration that 
we should get a growth pattern built into that, so we can 
really actually improve the condition of the infrastructure and 
not tread water for the long term.
    The Chairman. My time is up.
    It is the juxtaposition of we are certainly going to have a 
short-term patch to get us through the August crisis. But then 
the question is, are we going to go for a bigger, post 
election, lame duck solution? And we can do that. We can do 
that. The election will be over.
    Elections are all-consuming right now. So I hope we could 
do that.
    Senator Thune?
    Senator Thune. Well, thank you, Mr. Chairman.
    I would like to, Mr. Andrews, just ask you about the NTIA's 
proposed transition of the IANA functions to the multi-
stakeholder community. And I think that is something that your 
department has testified about before the House of 
Representatives, and I am wondering if you could discuss 
specifically what some of the valid concerns are that have been 
raised regarding the proposed transition, and if confirmed, 
what role you would have in overseeing that transition?
    Mr. Andrews. Sure. So, Senator, you raise an issue that we 
see as very important, and I think starting from the premise of 
what are we trying to do here. I think we all agree on the 
importance of protecting a secure--keeping the Internet open 
and secure as an engine for growth and innovation. I think we 
also share the same concern about Internet governance in the 
multi-stakeholder process being very important.
    The third concern I think we all share is keeping the 
Internet--there are a number of authoritarian governments that 
would like to change the Internet governance model. And so, one 
of the reasons we have sought--the privatization tool of the 
IANA function was first proposed actually in 1998, and it has 
been the policy of the United States Government over the course 
of time to have a multi-stakeholder run process.
    So, if confirmed, I will definitely be involved in this and 
definitely want to make sure that certain protections are met 
in order that if we do go through with this transition and as 
we move it forward, that we keep the open and secure nature of 
the Internet, that we protect the domain name system. We make 
sure the stakeholders are protected.
    And I think one of the things that is important to note in 
this, when NTIA made this proposal, groups as diverse as the 
Chamber of Commerce and the Internet users, the companies like 
Google, Microsoft, Facebook, all came out in support of this 
because I think they recognize this is important to be able to 
protect the multi-stakeholder model, and particularly from the 
countries that would like to gain greater control or move 
control of Internet governance to intergovernmental agencies 
like the U.N. or the ITU.
    And so, it is important for we as a country to make sure 
that the misimpression that is out there that the U.S. controls 
the Internet is not the case. So we take the concerns of 
Congress very seriously, and we will continue to keep those in 
mind as we move this discussion forward.
    Senator Thune. And I think that the main concern is that 
there is some structure that would lead to an outcome that 
would not entail the U.N. or the ITU or some government that 
would want to coopt this thing. And so, it is kind of a--it is 
very--I guess I would say sort of murky out there in terms of 
how this might end, and I think that is the concern that has 
been raised.
    And so, I hope you will stay in close contact with us as 
that process moves forward, and I think there have even been 
some attempts on the House side to prevent that from moving 
forward. So you can understand and realize there are some very 
valid concerns out there.
    Let me follow up on with Mr. Mendez and Mr. Rogoff 
something that the Chairman talked about, and that is the 
highway bill reauthorization. There is some, I think, 
resistance on both sides to the mechanism that has been 
proposed by the administration for funding. There are other 
ideas that are out there. What we end up doing in the near term 
probably, regrettably, will be a piecemeal, cobbled together 
some things that will help pay for a short-term extension, but 
it doesn't solve the long-term problem.
    I have asked this question of your boss in the past, about 
what other types of things that you might support in terms of 
financing mechanisms to reauthorize the Highway Trust Fund, and 
so I would pose that question to you as well. You have told us 
we need to fix it. How willing is the Administration to engage 
in getting out behind the types of solutions that it would take 
to get that done?
    Mr. Rogoff. I will start off, sir.
    Secretary Foxx, in a number of his public statements, has 
made very clear that while the Administration stands firmly 
behind our proposal--and we have identified three potential 
offsets as part of pro-growth business tax reform to make it 
happen--that we are open to discussing and hearing and 
conversing on alternatives that Congress may want to put 
forward. I believe it was just yesterday that he made clear 
that nothing is off the table, and that is our position going 
forward. We stand behind our proposal, but our ears are open.
    Senator Thune. OK. Well, that is exactly what I was hoping 
to hear. It would be nice to have the Administration weigh in, 
too. I mean, I understand the idea of working with the 
Congress. We certainly welcome that.
    My experience around here is that in order for big things 
to happen, you have got to have not only the legislative 
branch, where you have got 435 House members and 100 Senators 
who all have different ideas about how to resolve these things, 
or on the Finance Committee, 21 or 22 of us, that Presidential 
leadership is really essential to do big things. And so, I know 
you have got the one proposal out there. We appreciate you are 
at least leading forward with that.
    But like I said, my impression is from some of the 
discussions that we have had, that there are--there is that 
there is resistance to that, objections that are not just 
confined to the Republican side of the aisle. And so, to the 
degree that the Administration would like to engage further and 
weigh in behind specific proposals, I think we would certainly 
welcome and appreciate that kind of leadership.
    I have got a question, Mr. Chairman, I can submit for the 
record, for Mr. Adler.
    The Chairman. Go ahead.
    Senator Thune. Well, I don't want to get other people who 
want to ask questions, but let me just quickly, if I might? Mr. 
Adler, we all want to make our products on the market safe, 
want to ensure that we do that in a way that doesn't impose an 
undue regulatory burden on businesses that are trying to 
recover in this economy.
    When Congress passed Public Law 112-28, we were especially 
concerned about the significant costs of third-party testing, 
and Congress, therefore, directed the agency to look for and to 
implement ways to reduce those costs and to report back to 
Congress if it needed additional authorities. And I am 
concerned the agency's efforts to date have been minimal in 
that regard and treated as a lower priority, I think, as was 
evidenced by the vote last month not to devote additional staff 
resources to that effort, even when those resources were 
apparently available.
    So I guess my question is understanding that the agency's 
staff and outside stakeholders have identified opportunities to 
reduce those testing burdens, but none of those have been 
implemented, how do you see this playing out? Do you hold the 
view that the agency shouldn't act to reduce some of those 
burdens?
    Mr. Adler. Senator, thank you so much for the question, and 
also thank you for signaling that you were going to ask me the 
question. It allowed me to think through the answer, and I also 
want to thank you for the opportunity to sit down with your 
staff.
    And you are quite correct in describing what happened in 
112-28. 112-28 didn't just direct us to do burden reduction. 
That would have been a much simpler mandate. It said burden 
reduction with respect to third-party testing, consistent with 
ensuring compliance with existing CPSC rules and regulations. 
And that is a very challenging task ahead for the Commission.
    I honestly believe we have dedicated the necessary 
resources. It is not an easy matter to come up with ways to 
reduce third-party testing, which have lots and lots of fixed 
costs.
    We have had a lot of dialogue with our stakeholders, our 
industry stakeholders, especially small business, and they have 
expressed consistently the desire that we expand on one 
particular approach to addressing the burdens, and that is 
through a process that we call determinations. And the delight 
of the determination is if you can make a determination that a 
product or a product component will never flunk any of the CPSC 
rules and regulations, you can exempt them completely from 
third-party testing.
    We did that back in August 2009, and we had a forum this 
past April, April 3, in which we had a lot of industry 
stakeholders present arguments and data in support of our 
expanding our determinations, and I would love to say that it 
was an easy scientific judgment.
    In point of fact, one of the most exciting suggestions that 
was made was to address phthalates in consumer products, 
children's products, by looking to see which were the most 
rigid products because phthalates are plasticizers. So we took 
that suggestion, our staff tested it, and unfortunately, the 
suggestion that was made to us turned out not to exclude 
phthalates.
    So it is a very, very challenging scientific inquiry, but I 
just want to assure you that I view it as extremely important, 
that we are working on it as hard as we can. In fact, I put in 
an amendment during the discussion that you referenced to add 
as a project addressing whether untreated wood has heavy metals 
that are banned in ASTM F963.
    So let me just assure you that it is a project that I think 
is very, very important.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    Senator Klobuchar?
    Senator Klobuchar. Well, thank you very much, Mr. Chairman.
    I was thinking as you talked about potholes that my dad is 
retired, but he--done a bunch of books, and one of his books 
was entitled, a collection of his columns, ``Eight Miles 
Without A Pothole Is the Closest Thing to Heaven I've Ever 
Seen.'' So there you go.
    I wanted to start out with some road questions. Actually, I 
was just last week on Highway 14 in southern Minnesota. There 
has been some Federal money that has gone into that, but we 
literally have seen 125 people die in the last 20 years on this 
road, and I just wanted to call it to your attention as we seek 
further funding to expand that to four lanes. We are nearly--I 
think nearly half done with it, but there is a lot of work to 
be done there.
    Highway 169 in northern Minnesota, the state is working 
with FHWA to prepare a draft EIS statement with different 
alternatives, and Mr. Mendez, I am hoping that you are aware of 
that and that we can get that moving and get through the red 
tape on that project.
    Mr. Mendez. Yes, Senator.
    We have an update on that. We are working on an 
environmental assessment, and we do plan--I believe the target 
is January, February of next year. So----
    Senator Klobuchar. OK.
    Mr. Mendez.--it is moving as fast as we can.
    Senator Klobuchar. All right. Thank you very much.
    And you and I discussed, Mr. Rogoff, Highway 10 in Anoka, 
Minnesota, sort of near where Lake Wobegon is, or may be. And 
unlike Lake Wobegon, this corridor of this highway has major 
safety congestion and commuter mobility issues.
    If I could still do earmarks, I would put money in a number 
of these projects I have just mentioned. I can't. So I am 
asking for your help in trying to focus some resources on these 
very difficult projects.
    I wanted to move on to the Norwegian Airlines issue. In 
March--either of you can answer this--38 Senators, including 
myself, signed a letter, it was bipartisan, to the Department 
of Transportation regarding Norwegian Air International's 
pending application for an exemption and foreign air carrier 
permit. There have been a number of very serious concerns 
raised about this, with where this airline--what this airline 
really is, about labor practices, and about really 
competitiveness for our U.S.-based carriers.
    Are you aware of the letter and the concerns raised in it, 
and to your knowledge, has DOT done a U.S. jobs impact analysis 
on NAI's business model?
    Mr. Mendez. Senator, certainly we are aware of all the 
issues related to the Norwegian Airline application. Right now, 
it is currently under review within the U.S. DOT.
    It is going through this administrative process, and so we 
are limited in what we can say publicly. But we certainly are 
very aware of--it is a very complex issue, as you might 
imagine, and a lot of interest, but we are on top of that.
    Senator Klobuchar. OK. It is just that it looked really bad 
to me.
    Last, Mr. Mendez--this is kind of a rapid round--I worked 
hard with several of my colleagues, again bipartisan, to ensure 
the Recreational Trails Program was preserved in MAP-21. And 
this time I believe it is in the original bill so we won't have 
to do it as an amendment, and I hope you understand the 
importance of this trail program.
    Mr. Mendez. Yes, we do, and it is still as a set-aside, 
with the option for states to opt out.
    Senator Klobuchar. Exactly. I understand that.
    OK. Mr. Andrews, I, first of all, want to make sure you 
understand the priority of the Patent Office--of PTO, that it 
has the resources. And given all the great work that the 
Chairman mentioned that Secretary Pritzker is doing with 
business, which I have just always believed this office could 
not only do the tasks that it has, but also that it could 
become an advocate for business, and I hope you will join us in 
advocating for resources.
    But I also wanted to focus on one issue that I have talked 
to the Secretary about, and that is export control reform. I 
just wanted an update on the progress. I know that you are 
working hard to streamline the process with other agencies, 
with only a few more lists left to review.
    I applaud your diligence. We have been trying to get this 
done for a while, and do you have any updated timelines on the 
reforms for the export control list? So those of us that work 
in this area, and as a member of the President's Export 
Council, we know that with some cutbacks in spending in defense 
that this is really important to companies involved in this 
area to be able to export goods that are not truly a security 
risk.
    Mr. Andrews. Yes, and this is a high priority for the 
Secretary and the Department, and our goal is to have by the 
end of the year, working with the State Department, have 
reviewed all of the categories and be through all of the lists.
    Senator Klobuchar. Very good.
    Mr. Jadotte? Say your name for me again.
    Mr. Jadotte. Jadotte.
    Senator Klobuchar. Jadotte. OK, I got it. Jadotte. I have a 
harder name, so there you go.
    I know you are collecting a lot of information, and I just 
wanted to make you aware I do a lot in the tourism area, that 
making sure that we keep the resources of the Survey of 
International Aviation Travelers, as we are looking to bring 
more and more foreign tourism business in. We have seen a big 
increase, and it is just huge for our economy. Every foreign 
tourist spends an average of $5,000, and we are really excited.
    Senator Blunt and I have done a lot of work in this area. I 
just wanted to make sure you keep up those resources and 
studies.
    Mr. Jadotte. Absolutely, Senator.
    Senator Klobuchar. OK, very good.
    And last, Mr. Adler, thank you for bringing up the lead in 
toys and that work. I think it has been really important, and 
we have made some headway.
    Just two quick questions. One, you talked about industries 
and the work, that there always has to be some distance, but 
the really positive work going on with industry standards. And 
I hope you will consider that with the recreational off highway 
vehicle group that has been working cooperatively with the 
agency on some of their standards.
    Mr. Adler. I will, indeed. And we have been working 
cooperatively with them, and we very much look forward to 
continuing that.
    Senator Klobuchar. Yes, as you know, we have two of the 
only American manufacturers in Minnesota, with Polaris and 
Arctic Cat.
    Mr. Adler. I am well aware.
    Senator Klobuchar. OK, good.
    The last thing, carbon monoxide. This is a bill that I have 
introduced and has been kicking around for a while that 
protects against carbon monoxide poisoning by helping states 
and local governments implement programs to raise awareness of 
proper CO alarm installation. And I have been slightly 
frustrated about getting it through the Senate, and I was just 
wondering if you are committed to work with me on this issue.
    Mr. Adler. We are, indeed----
    Senator Klobuchar. We have seen several deaths over the 
winter, as you know. Many deaths across the country.
    Mr. Adler. Yes, and we are aware that CO remains a very 
serious problem to the American public. Something on the order 
of 160 CO deaths every year just from the products under our 
jurisdiction, mainly portable gas generators and heating 
systems.
    Senator Klobuchar. Thank you very much, Mr. Adler, and 
thank you to all of you.
    And one last thank you to Mr. Rogoff. When that bridge 
collapsed that you brought up, Mr. Chairman, the next day, Mr. 
Rogoff was on a plane with me and Senator Coleman and others, 
flying out there, and that bridge got built within a year.
    A huge eight-lane highway fell down in the middle of a 
summer day, and we said that day that just shouldn't happen in 
the middle of America, and it did. And it got replaced, thanks 
to your work and many others.
    So, thank you.
    Mr. Chairman. They are probably just scared of you.
    [Laughter.]
    Senator Klobuchar. I have like 20 more rapid round 
questions I could do, Mr. Chairman, if you like. I won't do 
that, though. All right.
    Mr. Chairman. Mr. Andrews, one of the things, obviously, I 
feel best about coming out of the Commerce Committee is 
FirstNet, and it is an amazing process because there probably 
aren't more than 0.25 percent of Americans who have any idea 
what it is, what it will do, why it is necessary. But we 
understand it very thoroughly.
    And I remember at its inception, when it was first 
introduced, there was kind of a waggle of groups here and 
there, and then all of a sudden, everybody joined together. And 
then we had the huge thing, and the Vice President presided 
over. I have never seen so many firefighters and police and 
EMTs and so many colorful uniforms packed in one room.
    And then things began, you know, as the excitement got 
over, then you wondered, well, is NTIA cooperating fully in 
this? Who wants to be in charge? We are an independent group, 
FirstNet. The NTIA isn't. And so, is there a potential for any 
conflict on the course?
    I stipulate that only because it is probably a $15 billion 
to $20 billion project, maybe more than $20 billion to do the 
entire country. We were able to plan for $7 billion, and I 
think we are going to be able to get that $7 billion through 
wireless and others.
    But that is all built on the perception that as we do it 
for certain parts of the country, that other parts that are not 
seeing it happen in their part will get very mad, and their 
first responders will get very mad, and so it will continue to 
go up. That is not a certain prospect, but it is the one that 
we choose, and I think it is one that will work.
    If confirmed, which you will be, I just want you to work to 
give FirstNet the total flexibility that it needs, run by a 
very efficient man, Sam Ginn, to carry out this mission and 
design and deploy a nationwide network. It is an easy 
statement. It is a big task.
    Mr. Andrews. Absolutely, Senator.
    I will commit to you we will work very closely with 
FirstNet to help make them successful.
    The Chairman. I now apologize to Senator Blumenthal, who 
has the floor.
    Senator Blumenthal. Thank you, Mr. Chairman.
    The Chairman. And you can use all of my next three 
questions' time.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I have a few questions of Mr. Rogoff and Mr. Mendez. The 
Chairman and others here have very aptly and powerfully 
described the aging infrastructure, the decaying roads, 
bridges, railroad tracks, and other features of our rail 
transportation system that we face. The electrical systems 
alone are outdated and have caused very significant service 
disruptions on the railroads in the Northeast Corridor, which 
is the busiest in the Nation, and have stranded commuters and 
snarled traffic most recently last Friday on Metro-North and 
Amtrak.
    The bridge that caused, on two occasions within the last 2 
weeks, that traffic to be snarled and commuters to be stranded 
is the Norwalk Walk River Bridge, which literally was built in 
the second term of President Grover Cleveland's administration. 
It is 118 years old, and its age is not atypical of bridges and 
other structures in that Northeast Corridor.
    I have asked, along with our entire delegation, for 
disaster relief funds appropriated under Sandy, as a result of 
Sandy, to be allocated to that bridge, to the State of 
Connecticut, our Connecticut Department of Transportation. I 
know, Mr. Rogoff, you are very familiar with it because you 
served as Administrator of the Federal Transit Administration 
before becoming the designated Under Secretary of Policy.
    The Connecticut Department of Transportation recently 
submitted a $603 million request for Sandy funds, including 
$349 million in Federal funds, to cover 75 percent of the cost. 
Will you commit that you will expedite that application so that 
the state can replace that bridge as soon as possible?
    Which is to the benefit not only of Connecticut and the 
Northeast, but the entire national economy because it is the 
busiest railroad. It carries freight, as well as passengers, 
and this funding is vital to replace that bridge.
    Mr. Rogoff. Senator Blumenthal, as you have pointed out, it 
has been a horrendous year for Metro-North passengers, and we 
are working diligently with Metro-North, not only to improve 
its safety, but taking a hard look at these infrastructure 
issues.
    You are very right that the Walk Bridge, which is so 
critical to literally hundreds of thousands of passengers on a 
daily basis, it is just actually one of eight such bridges up 
and down the Northeast Corridor of similar age. The youngest 
one is 95 years old.
    So, yes, you have our commitment to give the application 
every consideration. FTA is currently evaluating all of the 
Sandy relief grants as we speak. We are in touch with ConnDOT 
as well as Metro-North about their priorities.
    I think importantly, forgive me for making a pitch for our 
legislation, but one of the biggest areas of growth in the GROW 
AMERICA Act is, in fact, in this area of passenger rail 
investment. Not just for new higher-speed passenger rail across 
the country, but for the necessary reinvestment in the 
Northeast Corridor, which is an extremely highly successful and 
absolutely elemental corridor that we have in the Northeast.
    Senator Blumenthal. And I support the $9.5 billion request 
made for the passenger rail service program. You have rightly 
pointed out that the President would rebrand or rename the 
Highway Trust Fund as the Transportation Trust Fund. I strongly 
endorse that idea.
    I am going to take your response as a yes, that you will 
expedite consideration.
    Mr. Rogoff. I don't want to--I don't want to put out vague 
answers here, sir.
    We are moving aggressively on all of the applications. I 
don't know that we can move the Walk Bridge ahead of all the 
others for consideration, but I am happy to converse with you 
on maybe we can do tranches at one time. There are competitive 
issues because this is an open, competitive discretionary grant 
program.
    Senator Blumenthal. Well, I am still going to take that as 
a yes.
    [Laughter.]
    Mr. Rogoff. Take't as thou list, sir.
    Senator Blumenthal. Let me ask again, Mr. Mendez--and Mr. 
Rogoff, you are free to respond as well.
    Mr. Rogoff very correctly stated that it has been a 
horrendous year for Metro-North travelers. The problems that 
are reflected in the service disruptions, as well as the 
tragedies that have resulted from lack of safety and 
reliability, have built over a period of many years. In those 
years, there were violations of safety regulations and rules 
bound by the FRA, and yet the penalties were miniscule, in 
fact, barely a slap on the wrist.
    I have proposed increasing the penalties or in some way 
restructuring them, but also stronger oversight and scrutiny 
generally by the FRA, Federal Railway Administration, to assure 
that the rules are more vigorously enforced and that penalties 
are a significant deterrent to railroads--not just Metro-North, 
but all of them--in complying with those safety and reliability 
regulations.
    Can we have your commitment that you will support that 
effort?
    Mr. Mendez. Absolutely. I think what you mentioned on 
Metro-North, I believe in the last year and a half, we have had 
about four very serious incidents, and that is why FRA, under 
Administrator Szabo, they implemented their deep dive to look 
and see what is really happening. And that is really the kind 
of thing that we need to be doing as regulators, going in and 
taking a look and understanding what is happening, either 
within one certain operator, if you will, or maybe it is on a 
national basis if there are national issues.
    But certainly, you have our support to continue improving 
on safety. Safety is our highest priority.
    Mr. Blumenthal. My time has expired, but I thank all of you 
for your willingness to serve, again. And thank you for your 
answers.
    Mr. Mendez. Thank you.
    Mr. Blumenthal. Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Blumenthal.
    We have a vote starting at 4 p.m. I just want to do one 
final question to you, Mr. Mendez.
    It is mandated by MAP-21, but DOT is currently conducting a 
comprehensive truck size survey, and trucks are very heavy--
trucks are very much in my mind in rural places like West 
Virginia, especially hilly ones where they are dangerous.
    Now that study that you are doing is due out later this 
year, but the National Academy of Sciences has already raised 
questions as to the methodology. I can't get into that because 
I can't analyze either one. But what I want to be sure is that 
you are not working just to get it done by a certain date, but 
that you are trying to put out a product which listens to 
everything and learns everything. You are not date mesmerized?
    Mr. Mendez. Well, sir, I totally agree with you.
    Our focus is on getting this right. I know there are 
deadlines. We will deal with that. What we want to bring to 
you, and it is a congressional mandate, is to bring to you the 
most objective, data-driven approach that we can define.
    And we are addressing some of the TRB, Transportation 
Research Board suggestions, but we are going to get it right, 
and we will deal with time issues as we need to. So that is my 
commitment to you.
    On this one, it is very important to the industry, to a lot 
of stakeholders out there, and like I said earlier, we are very 
focused on safety. So we are going to get it right for you, and 
that is my commitment.
    The Chairman. Yes. So the answer is that you are not star 
struck by a date. You are star struck by getting it done as 
fastly and accurately as possible.
    Mr. Mendez. Absolutely. Yes, sir.
    The Chairman. Great.
    Senator Ayotte has come in, and you are now the Chairman of 
the Commerce Committee. So you can do many things by unanimous 
consent for New Hampshire, or anybody that you wish.
    Senator Ayotte. At last.
    [Laughter.]
    Senator Ayotte. Just kidding. No, this is great.
    The Chairman. And you also have to close the hearing.
    Senator Ayotte. I can do that, Mr. Chairman. Thank you.
    The Chairman. And thank you all very, very, very much. 
Please.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte [presiding]. Well, I want to thank all of 
you for being here, and we know this will be short questioning 
because we have a vote in progress.
    So I wanted to ask Mr. Andrews about the Permanent Internet 
Tax Freedom Act which I know Senator Thune touched upon 
earlier. I have introduced legislation, which he mentioned in 
the opening statement, that would permanently extend the 
current ban on Internet access taxes. This Act would prevent 
State and local governments from imposing new taxes on Internet 
access and prohibit any multiple or discriminatory taxes on E-
commerce. As you know, Senator Thune and Senator Wyden have a 
similar bill.
    And the Internet Tax Freedom Act, or ITFA, which was 
originally enacted in 1998, was designed to prevent state 
taxes, a sort of patchwork of taxes, and to ensure that 
multiple jurisdictions could not tax the same electronic 
commerce transaction, ensuring that the commerce over the 
Internet would not be singled out for discriminatory tax 
increases.
    It expires in November, and unless addressed soon, I think 
many of us share the concerns that customers are going to 
receive notices of the looming tax that they could receive. 
This will probably impact millions and millions of people 
across this country. If they get a tax increase notice, I am 
sure that will have them prompting to talk to us pretty 
quickly. And E-commerce is incredibly important.
    Wwhat I hear a lot about in New Hampshire is that both 
consumers and businesses would like certainty on this issue.
    So if we are thinking again of rather than a permanent 
moratorium, which is what I would support, or the fact that 
some have talked about a really short-term fix, I am worried 
about what message that will send, and we will be sort of back 
at Groundhog Day again.
    I want to ask you very straightforwardly, our half of the 
Senate is cosponsoring one or the other pieces of legislation. 
What is your position on the permanent moratorium, and what do 
you think about it in terms of the position that you are being 
considered for?
    Mr. Andrews. Sure. Well, as a frequent Internet shopping 
family, I understand the concern that you raise. To my 
knowledge, we have not taken a position yet, but what I would 
like to do is go back and get a little better educated on the 
issue and come back to you with a better answer on that.
    Senator Ayotte. Could you submit that answer for the 
record----
    Mr. Andrews. Absolutely.
    Senator Ayotte.--for this hearing? I think it would be 
really helpful. Like I said, this is a strong bipartisan 
issue----
    Mr. Andrews. Sure.
    Senator Ayotte.--and one that we are facing very shortly 
here, and so I think it will be important in the position that 
you are going to serve in. So I appreciate that very much.
    And I also wanted to follow up on another issue that is 
very important to me, which is our small fishermen in New 
Hampshire who have been devastated by the cod quotas and by the 
catch share regulations coming out of NOAA and Commerce. I am 
really concerned that our small fishermen are going to cease to 
exist if we don't come to some more reasonable accommodation of 
what is also their goal, which is to sustain the fishery 
because that is how they make their living.
    So I wanted to ask you about this issue, and I have asked 
many, many people in NOAA about this issue. What is your view 
is in terms of how we can really look at these regulations 
again, in light of sustaining our small fishermen and women who 
just want to make a living off the waters? For many of them, of 
course, it is a family tradition, and we are very proud of 
them.
    Mr. Andrews. Right. And I understand the importance of the 
industry not only economically but, as you point out, 
historically and the tradition of these families. NOAA is well 
aware, we are well aware of the impact that the current 
situation is having and the disaster it has had on New England 
ground fishermen, and we are very focused.
    I know John Bullard, who is our regional administrator, has 
been tasked by the Secretary personally to work with the 
communities, work with the States, and work with the fishermen 
to try to work through this issue and provide relief as much as 
we can.
    Senator Ayotte. Well, I am appreciative that NOAA has 
worked with the fishermen in the Northeast to distribute the 
disaster funds promptly, so I thank you for that.
    My overall concern has been from the beginning is just how 
do we help the fishermen in a disaster sense? How do we put 
them in a position where they can continue their livelihood of 
making a living on the waters? This is, as you rightly 
described, a noble tradition in New England.
    I want to just say that upfront that I am appreciative that 
your agency has acted quickly. I just think there is more work 
to do.
    The other issue I wanted to ask you about because this is 
what I hear from New Hampshire fishermen, is their concern 
regarding the funds actually being more focused on a buyout or 
buyback program. All our fishermen want is to get back out on 
the water and fish, and not relinquish their boats and 
livelihoods because of these regulations. One of the big 
concerns I have about viewing it only in terms of a buyout or 
buyback program, is that we are going to increase consolidation 
in the fleet, resulting in some of these small fishermen to get 
bought up, and then we will just have the large fleets.
    Nothing against the large fleets, but I think part of these 
small business owners who are working hard at something they 
love to do, it is important to them, and I think that we should 
stand up for them as well.
    So, if you are confirmed, will you work with me, as well as 
other members of our delegation to ensure that New Hampshire's 
small boat fleet is not harmed by any buyback or buyout program 
that might be pursued by NOAA? And that one of the issues you 
really focus on is that we don't want to eliminate all the 
small fishermen in the policies that may be promoted by NOAA?
    Mr. Andrews. And Senator, we are working very hard to 
tailor the solutions to the local communities and the needs of 
the communities. And if I am confirmed, I would absolutely look 
forward to working with you.
    I need to learn more about the specifics of the buyback 
program. I can't make a commitment, not--I don't have the depth 
of understanding. But I would love to work with you, if 
confirmed, and work with NOAA on this.
    Senator Ayotte. Well, great, and what would be helpful, 
too, is I hope that you would talk to some of our fishermen in 
New Hampshire and hear directly from them so that you can 
understand their perspective. I think that is really helpful as 
you are making these decisions. I hope that you would do that.
    Thank you. I take that to be yes.
    Mr. Andrews. I would be happy to talk to you further about 
hearing more about it. Absolutely.
    Senator Ayotte. I am not a fisherman, but I really want you 
to talk to my fishermen. Will you do that?
    Mr. Andrews. I would be happy to talk to your fishermen.
    Senator Ayotte. Thank you. I appreciate it.
    The rest of you are off the hook today, but I thank you. I 
thank you all for being here, and I appreciate your willingness 
to serve in important positions.
    And I would recommend, Mr. Andrews, you talk to our 
fishermen in the beautiful summer, too, in places like 
Portsmouth that are quite pretty. So I hope you will come to 
New Hampshire.
    Mr. Andrews. I appreciate the invitation.
    Senator Ayotte. Thanks. Nice to see all of you.
    And the hearing is adjourned.
    [Whereupon, at 4:11 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                       United States Senate
         Committee on Commerce, Science, and Transportation
                                      Washington, DC, June 25, 2014
Hon. Robert Adler,
Acting Chairman,
U.S. Consumer Product Safety Commission,
Bethesda, MD.

Dear Acting Chairman Adler:

    Thank you for your responses to my questions for the record (QFR) 
following the hearing held to consider your reappointment to the 
Consumer Product Safety Commission (CPSC, or the Commission) on June 
11, 2014. I also would like to take this opportunity to thank you for 
your willingness to serve as Acting Chairman of the CPSC since the 
expiration of the term of Chairman Inez Tenenbaum on November 30, 2013. 
You have served with dedication as Acting Chairman for the past six 
months, and circumstances may well necessitate that you continue to 
serve in that role for some time.
    Given your years of experience on the Commission and the fact that 
you may need to remain as Acting Chairman for an indefinite time, as 
well as your ongoing working relationship with Elliot Kaye, the current 
Executive Director of the CPSC and the President's nominee to be the 
next Chairman, I believe it is important to solidify the ground work 
for specific actions the CPSC can take in the near future to ensure the 
Commission aggressively implements burden reduction opportunities for 
American businesses.
    As you know, Public Law 112-28 (enacted in August 2011) directed 
the CPSC to solicit public comments on opportunities to reduce the cost 
of third-party testing within 60 days of enactment. The law further 
required the CPSC, within one year of enactment, to review such 
opportunities and report back to Congress on any gaps in its authority 
to implement them consistent with the CPSC's safety mission. After 
nearly three years, and notwithstanding the CPSC staffs identification 
of potential opportunities to reduce third-party testing in 2012, the 
CPSC has neither reduced the burden of third-party testing nor 
submitted a report to Congress on barriers to doing so.
    That is why I was disappointed that you voted on May 6, 2014 
against an amendment during consideration of the CPSC's 2014 Mid-Year 
Review and Proposed Operating Plan Adjustments that would have required 
senior CPSC staff to develop a plan regarding burden reduction 
opportunities for third-party testing requirements, which failed 2-1. I 
was also disappointed that you declined to provide such a plan to this 
Committee when I formally requested that you do so through the written 
QFR process.
    Particularly, in your response to my request that you ``provide a 
plan to this Committee within 60 days outlining specific actions you 
plan to take to ensure that the CPSC aggressively implements burden 
reduction opportunities and a timetable for when those actions will 
occur,'' you unfortunately appear to have misunderstood my request. I 
did not ask that you provide a plan regarding what steps you would take 
upon re confirmation as a Commissioner. Given your lengthy service on, 
and current leadership of, the CPSC, I simply asked that you provide a 
plan ``within 60 days'' of my formal QFR request, dated June 18, 201 4. 
I believe that, as a re-nominated Commissioner, you have the 
institutional experience to inform such a plan, even if a new chairman 
is confirmed. This request is still pending.
    You also indicated in your response that you will work with 
Chairman-nominee Elliot Kaye, who agreed to provide a burden reduction 
plan to me within 60 days of his confirmation during his nomination 
hearing on April 8, 2014. I welcome your pledge; however, my request 
for your plan is independent from my request to Mr. Kaye for his plan--
notwithstanding the fact that there may be some need to reconcile your 
plans in the future, as the CPSC takes concrete action to reduce these 
burdens as intended by Congress. Therefore, in your capacity as Acting 
Chairman, I renew my request to you to provide a plan to the Committee 
within 60 days from June 18, 2014, outlining specific actions you plan 
to take to ensure that the CPSC aggressively implements burden 
reduction opportunities and a timetable for when those actions will 
occur.
    Please be advised that I intend to cooperate with the Chairman to 
report your nomination out of Committee, but that I expect you to 
respond fully to my request before your reappointment is considered by 
the full Senate.
            Respectfully,
                                                John Thune,
                                                    Ranking Member.
cc: Chairman John D. Rockefeller IV
                                 ______
                                 
                    U.S. Consumer Product Safety Commission
                                        Bethesda, MD, July 17, 2014
Hon. John Thune,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Ranking Member Thune:

    Thank you for your letter of June 25, 2014, requesting that I 
provide a plan to the Senate Committee on Commerce, Science, and 
Transportation outlining specific actions that I plan to take to ensure 
that the U.S. Consumer Product Safety Commission (CPSC) implements 
burden reduction opportunities and a timetable for when those actions 
will occur.
    As an intial matter, please accept my apology for any 
misunderstanding concerning your original request. Through this 
response I hope to provide a bit more background on the Commission's 
many substantive efforts to date regarding burden reduction activities, 
as well as my personal plan going forward. I hope that this letter 
addresses your concerns.
PL 112-28 Mandate on Burden Reduction
    In your letter, you correctly point out that Public Law 112-28 
(enacted August 2011) directed the CPSC to solicit public comments on 
opportunities to reduce the cost of third-party testing. I would note, 
however, the full statutory mandate was not just to seek comments on 
reducing third-party testing costs, but also to do so ``consistent with 
assuring compliance with any applicable consumer product safety rule, 
ban, standard or regulation.'' In other words, PL 112-28 maintained the 
safety protections of third-party testing for children's products 
mandated in 2008 in the Consumer Product Safety Improvement Act 
(CPSIA). I mention this additional language in PL 112-28 because 
assuring compliance with the Commission's safety rules while retaining 
CPSIA's third-party testing requirements remains an essential mandate 
for the agency--and presents a significantly greater challenge than 
addressing burden reduction alone.
Burden Reduction Actions to Date
    Although PL 112-28 directed the Commission to seek comments on 
burden reduction approaches, the Commission had already taken some 
significant steps to address third-party testing concerns before 
passage of this law. For example:

  <bullet> Determinations Regarding Lead in Children's Products: The 
        Commission, in 2009, determined that ten product categories, 
        including precious gemstones, semiprecious gemstones, natural 
        or cultured pearls, wood, paper, CMYK process printing inks, 
        textiles, natural fibers, manufactured fibers, surgical steel, 
        and various precious metals would never violate our lead rules, 
        thereby obviating the need for third-party testing. (16 CFR 
        Sec. 1500.91).

  <bullet> Component Part Testing: The Commission published a rule 
        permitting finished parts product certifiers to rely on 
        component part testing or voluntary certification by another 
        party to meet the requirements of third-party testing and 
        certification. (16 CFR Sec. 1109).

  <bullet> Retesting Not Required for Minor Changes in ASTM Standards: 
        The Commission determined that manufacturers of children's 
        products otherwise obligated to re-test their products whenever 
        the voluntary standard on which they are promulgated changes 
        would not have to re-test their products if they have current 
        test results showing compliance with the previous version of 
        the standard, and the relevant tests in the two versions of the 
        standard are unchanged or functionally equivalent.

  <bullet> Use of ASTM F963 Screening Test to Assess Lead Content: CPSC 
        staff allowed the ASTM screening test for heavy metals as an 
        option for lead testing rather than requiring a specific lead 
        test.

  <bullet> Expanded Use of XRF Technology: CPSC staff significantly 
        increased the number of materials for which XRF technology, a 
        simpler and quicker test than the wet chemistry test, could be 
        used for determining lead content. For example, glass 
        materials, unglazed ceramics and some metals can now be tested 
        with XRF technology. In addition, the agency approved one 
        specific XRF technology for use in determining lead content in 
        paints and surface coatings.

  <bullet> Expanded Education Outreach Regarding Third Party Testing: 
        CPSC staff, in particular the Small Business Ombudsman, 
        conducted a series of seminars and webinars on the 
        implementation of third-party testing requirements, providing 
        significant advice on reduced cost approaches.

    In addition, CPSC staff moved quickly to implement specific 
provisions in PL 112-28, some of which had been sought by CPSC to 
provide third-party testing relief. For example:

  <bullet> Random Sample Test Requirement Changed to Representative 
        Sample: Prior to passage of PL 112-28, the CPSlA directed the 
        CPSC to require samples selected for periodic testing to be 
        chosen using random sampling techniques. A number of companies 
        found using random sampling techniques to be excessively 
        burdensome. In response, Congress amended section 
        114(i)(2)(B)(ii) of the Act to permit the testing of 
        representative samples. The Commission, accordingly, modified 
        its rule on third-party testing. (16 CFR Sec. 1107(f)).

  <bullet> Small Batch Manufacturers Not Required to Conduct Some Third 
        Party Tests: PL 112-28 gives the Commission the flexibility to 
        exempt small batch manufacturers from third-party tests for 
        some covered products. Accordingly, the Commission established 
        the Small Batch Manufacturers Registry, which is an online 
        mechanism by which Small Batch Manufacturers can identify 
        themselves to obtain third-party testing relief.\1\
---------------------------------------------------------------------------
    \1\ See http://www.cpsc.gov/en/Business--Manufacturing/Srnall-
Business-Resources/Small-Batch-Manufacturers-and-Third-Party-/.

  <bullet> Third Party Testing for Lead in ATVs. Bicycles. and Books 
        Limited: PL 112-28 exempted ATVs from meeting the lead 
        requirements imposed by CPSlA. It also exempted the metal 
        component parts of bicycles and ordinary books from the 
---------------------------------------------------------------------------
        requirement for third-party testing for lead content.

  <bullet> Only Accessible Component Parts Required to be Tested for 
        Phthalates: PL 112-28 limited third-party testing for 
        phthalates to plastic parts accessible to a child through 
        normal or reasonably foreseeable use and abuse. Accordingly, 
        the Commission modified its rule to make this change. (16 
        CPRSec. 1199).

  <bullet> Functional Purpose Exemption Established: PL 112-28 
        established a protocol by which petitioners may request a 
        functional purpose exception for a product, class of product, 
        material, or component part because it is not practicable or 
        not technologically feasible to meet the 100 ppm lead content 
        limit. Accordingly, the Commission modified its rule to make 
        this change. (16 CPRSec. 1500.90).

    I mention the above steps to point out that both the CPSC and the 
Congress have been active over the years in addressing the burdens of 
third-party testing, especially on small manufacturers. I also note 
that most of the above listed actions occurred with minimal scientific 
investigation. Unfortunately, most further burden reduction actions, to 
be useful, seem to require significant research at substantial cost. 
Given the technical challenges regarding the development of additional 
options, it is not surprising that further burden reduction actions 
have not yet occurred. But I assure you that the Commission is working 
diligently on all possible burden reduction solutions that are 
consistent with the statute.
CPSC's Investigation of Potential Further Burden Reduction Actions: 
        Technical and Resource Challenges
    On November 8, 2011, pursuant to PL 112-28, the Commission 
published a Request for Comments (RFC) in the Federal Register (76 Fed. 
Reg. 69596) soliciting input from the public regarding opportunities to 
reduce the cost of third-party testing requirements consistent with 
assuring compliance with any applicable consumer product safety rule, 
ban, standard, or regulation. In addition, CPSC staff reviewed the 
Commission's rules on third-party testing to see whether any 
modifications of the rules might provide regulatory relief, met 
separately with each Commissioner's office, and solicited input from 
all CPSC staff to make sure that helpful ideas from any source would be 
considered. The result of this intensive months-long inquiry was a 117-
page report titled ``Staff Briefing Package on Consideration of 
Opportunities to Reduce Third Party Testing Costs Consistent with 
Assuring the Compliance of Children's Products,'' submitted for 
Commission review on August 29, 2012.\2\ Having explored numerous 
possible approaches, the staff noted the substantial technical and 
resource challenges surrounding most of the proposals they considered 
worthy of further consideration:
---------------------------------------------------------------------------
    \2\ https://www.cpsc.gov/PageFiles/129398/reduce3pt.pdf

        The recommendations require additional consideration and the 
        devotion of Commission resources to implement. Some 
        recommendations, if implemented, likely would affect only a few 
        children's product certifiers, while others potentially would 
        have a broader effect. Some recommendations may, upon further 
        study, be ineffective in reducing manufacturers' third-party 
        costs. Other recommendations may be impracticable. Staff's 
        approach in its review of the ideas was to provide enough 
        information to assist the Commission in the determination of 
        whether to approve the resource allocation necessary to pursue 
        these recommendations further.\3\
---------------------------------------------------------------------------
    \3\ Id., at 3.
---------------------------------------------------------------------------
    In other words, staff's comprehensive review of possible third-
party burden reduction measures produced almost no candidates for 
immediate implementation. Moreover, most, if not all, of the proposals 
require further investigation and resource expenditures, some 
potentially quite expensive--with no guarantee that they would bring 
significant (or any) burden reduction benefit. I mention resources 
because CPSC is one of the most resource-constrained of the Federal 
health and safety agencies. And, I note that however important burden 
reduction projects are to the CPSC--and they are quite important--their 
placement in the agency's regulatory priorities must be balanced 
against our safety mission and available resources. They must compete 
for staff time and resources with projects carrying congressionally 
mandated deadlines such as the development of standards for durable 
infant products under the ``Danny Keysar Child Product Safety 
Notification Act'' \4\ and the amendment of the Commission's All-
Terrain Vehicle Standard.\5\ They must also compete with critical 
ongoing safety projects, such as recreational off-highway vehicles 
(ROVs), upholstered furniture flammability, television/furniture tip-
overs, portable generator asphyxiations, and drowning prevention--a 
number of which involve gruesome fatalities (often to young children) 
and horrific, life-altering injuries.
---------------------------------------------------------------------------
    \4\ Section 104 of the Consumer Product Safety Improvement Act. 
Under this Act, the CPSC must adopt two mandatory rules on durable 
infant goods every six months.
    \5\ Section 42 of Consumer Product Safety Act. See 15 U.S.C. 
Sec. 2089.
---------------------------------------------------------------------------
CPSC's Ongoing Burden Reduction Activities
    Given the technical challenges and the resource constraints 
associated with burden reduction, I believe the Commission has made 
good progress on the issue. As a starting point, I note that the 
Commission, on October 12, 2012, having carefully reviewed the various 
proposals proffered by staff, voted to approve work by staff, resources 
permitting, on the following nine projects:

  <bullet> International Standards Equivalency to Children's Product 
        Safety Rules: Draft a Request for Information (RFI) for 
        publication in the Federal Register to determine which, if any, 
        tests in international standards were equivalent to tests in 
        comparable CPSC-administered Children's Product Safety Rules.

  <bullet> Determinations Regarding Heavy Metals: Draft a Request for 
        Information (RFI) for publication in the Federal Register 
        regarding whether there are materials that qualify for a 
        determination, under the Commission's existing determinations 
        process, that do not, and will not, contain higher-than-allowed 
        concentrations of any of the eight heavy metals specified in 
        Section 4.3.5 of ASTM F963-11 (The elements are antimony, 
        arsenic, barium, cadmium, chromium, lead, mercury, and 
        selenium).

  <bullet> Determinations Regarding Phthalates: Draft a Request for 
        Information (RFI) for publication in the Federal Register 
        regarding whether there are materials that qualify for a 
        determination, under the Commission's existing determinations 
        process, that do not, and will not, contain prohibited 
        phthalates, and thus are not subject to third-party testing.

  <bullet> Fourier Transform Infrared Spectroscopy (FTIR): Investigate 
        whether Fourier Transform Infrared Spectroscopy (FTIR) can be 
        effective as a screening technology for determining that a 
        plastic component part contains no phthalates.

  <bullet> Determinations Regarding Adhesives in Manufactured Woods: 
        Draft a Request for Information (RFI) for publication in the 
        Federal Register regarding whether there are any adhesives used 
        in manufactured woods that can be determined not to contain 
        lead in amounts above 100 ppm, and thus are not subject to 
        third-party testing.

  <bullet> Determinations Regarding Synthetic Food Additives: Draft a 
        Request for Information (RFI) for publication in the Federal 
        Register regarding whether the process by which materials are 
        determined not to contain lead in amounts above 100 ppm can be 
        expanded to include synthetic food additives.

  <bullet> Guidance Regarding Periodic Testing and Periodic Testing 
        Plans: Draft guidance in the form of a Frequently Asked 
        Question or similar format to clarify that manufacturers who do 
        not engage in ongoing or continued production of a previously 
        third-party certified product--such as an importer or a 
        manufacturer with short production runs--are not required to 
        conduct periodic testing as defined in 16 CFR Sec. 1107. The 
        Commission further directed staff to clarify that those 
        manufacturers who do not engage in periodic testing for the 
        reasons previously stated are not required to create a periodic 
        testing plan.

  <bullet> Accreditation of Certain Certification Bodies: Develop a 
        staff technical report for Commission consideration on the 
        feasibility of CPSC-acceptance of certification bodies to 
        perform third-party testing of children's products as a basis 
        for issuing Children's Product Certificates (CPC), and to 
        undertake activities to ensure that continuing production 
        maintains compliance with certification requirements as a basis 
        for increasing the maximum periodic testing interval from one 
        to two years.

  <bullet> Staff Findings Regarding Production Volume and Periodic 
        Testing: Report to the Commission whether, and if so, on what 
        basis, staff would be able to make findings whether including a 
        ``low-volume'' exemption would be consistent with assuring 
        compliance with all children's product safety rules, 
        regulations, standards or bans.

    In addition to these nine burden reduction projects, the 
Commission, on May 9, 2014, as part of its mid-year budget review, 
approved an amendment that I authored that added a further 
Determinations project:

  <bullet> Determinations Regarding Unfinished Wood and Other Natural 
        Materials: Investigate whether unfinished wood or other natural 
        materials do not, and will not, contain any of the specified 
        heavy metals in levels that exceed allowable limits in ASTM 
        F963.

    I note that five of the approved actions involve investigating 
whether the Commission can make determinations regarding certain 
products or product components. There is good reason for this. Along 
with CPSC staff, I have endeavored to meet with and listen to a great 
number of manufacturers, especially those who run small, even tiny, 
businesses. Overwhelmingly, they have told us that most proposals that 
retain third-party testing will not provide significant regulatory 
relief. Instead, they point to the August 2009 action taken by the 
Commission in which we determined that certain products did not require 
third-party testing for lead because they would never contain violative 
amounts of this heavy metal. This, they claim, is the most desirable 
path to take. They ask that the Commission expand the determinations 
list of products exempt from lead testing and that we expand our 
determinations list to include products found never to violate our 
phthalates rule or our heavy metal requirements in ASTM F963.
The Commission's Plan
    Set forth below is the Commission's plan--which I support--for 
implementing our burden reduction projects. Not all of the projects 
have due dates because there first must be a reasoned decision based on 
adequate evidence that they hold sufficient technical promise to be 
placed in the Commission's Operating Plan. For the most part, the 
projects that will lead to Commission determinations have received the 
greatest attention, but progress even on these has often encountered 
unexpected technical challenges. For example, during the Commission's 
all-day forum on burden reduction on April3, 2014, several industry 
stakeholders advocated that the Commission exempt rigid plastics with a 
Shore Hardness of 90 or greater from third-party testing requirements 
for phthalates. Unfortunately, Commission staff has discovered that a 
number of products with this hardness factor contain statutorily 
prohibited phthalates at concentrations above the allowed limit.
    Given existing technical challenges and limited Commission 
resources, I am comfortable with the Commission's work plan. I note 
that the vote on May 6, 2014 to which you refer in your letter did not 
reject the idea of a plan. As set forth below, we have a plan. What I 
opposed in that vote was a proposal for a plan that I felt would 
elevate burden reduction projects above a number of higher priority 
safety projects that either have already been included in our Operating 
Plan or that await placement depending on available resources. Having 
said that, let me be clear: where burden reduction projects have shown 
technical promise, they have been approved with reasonable dispatch. 
Under either my leadership as Acting Chairman or as a Commissioner, I 
expect this to continue.

------------------------------------------------------------------------
        Project                Description                Status
------------------------------------------------------------------------
International Standards  Draft policy on          Draft policy due 4th
 Equivalency to           determination of         Quarter, FY 2014.
 Children's Product       which, if any, tests
 Safety Rules             in international
                          standards are
                          equivalent to CPSC
                          children's product
                          rules to permit rules
                          harmonization.
------------------------------------------------------------------------
Determinations           Investigate whether      Comments from public
 Regarding Heavy Metals   heavy metals specified   on CPSC Workshop due
                          in ASTM F963             by July 16, 2014.
                          (antimony, arsenic,      Staff review of
                          barium, cadmium,         comments to follow.
                          chromium, lead           Depending on comments
                          mercury, and selenium)   received, and
                          in certain products or   resources allocated,
                          product components can   staff could develop a
                          be determined never to   Briefing Package in
                          violate applicable       FY 2015.
                          CPSC standards.
------------------------------------------------------------------------
Determinations           Investigate whether      Comments from public
 Regarding Phthalates     certain products or      due by July 16, 2014.
                          product components can   Staff review of
                          be determined never to   comments to follow.
                          contain violative        Depending on comments
                          levels of prohibited     received, staff could
                          phthalates.              develop a Briefing
                                                   Package in FY 2015.
------------------------------------------------------------------------
Fourier Transform        Investigate whether      Staff continues to
 Infrared Spectroscopy    FTIR can be effective    monitor technology
 (FTIR)                   as a screening           developments and will
                          technology for           provide status
                          determining that a       reports on activities
                          plastic component part   as significant new
                          contains no              developments occur.
                          phthalates.
------------------------------------------------------------------------
Determinations           Staff directed to        Staff review pending,
 Regarding Adhesives in   investigate whether      as resources permit.
 Manufactured Woods       any adhesives in         The CPSC Workshop on
                          manufactured woods can   Burden Reduction
                          be determined not to     included lead content
                          contain lead in          as an item.
                          amounts above 100 ppm.
------------------------------------------------------------------------
Determinations           Investigate whether the  Staff review pending,
 Regarding Synthetic      process by which         as resources permit.
 Food Additives           materials are            The CPSC Workshop on
                          determined not to        Burden Reduction
                          contain lead in          included lead content
                          amounts above 100 ppm    as an item.
                          can be expanded to
                          include synthetic food
                          additives.
------------------------------------------------------------------------
Guidance Regarding       Staff directed to draft  Draft guidance policy
 Periodic Testing and     guidance to clarify      developed and
 Periodic Testing Plans   that manufacturers who   submitted for 6(b)(6)
                          do not engage in         clearance. Due to
                          ongoing or continued     Commission by 4th
                          production of a          Quarter, FY 2014.
                          previously certified
                          product are not
                          required to conduct
                          periodic testing as
                          defined in section
                          1107. Moreover,
                          manufacturers who do
                          not have to do
                          periodic testing need
                          not create a periodic
                          testing plan.
------------------------------------------------------------------------
Accreditation of         Develop a staff          Staff review pending,
 Certain Certification    technical report for     as resources permit.
 Bodies                   Commission
                          consideration of
                          feasibility of CPSC-
                          acceptance of
                          certification bodies
                          to perform third-party
                          testing as a basis for
                          issuing Children's
                          Product Certificates,
                          and to undertake
                          activities to ensure
                          that continuing
                          production maintains
                          compliance with
                          certification
                          requirements as a
                          basis for increasing
                          the maximum periodic
                          testing interval from
                          1 to 2 years.
------------------------------------------------------------------------
Staff Findings           Investigate whether to   Staff review pending,
 Regarding Production     include a ``low-         as resources permit.
 Volume and Periodic      volume'' exemption
 Testing                  from periodic testing
                          requirements for a
                          maximum of three years
                          consistent with
                          assuring compliance
                          with all applicable
                          children's product
                          safety rules,
                          regulations,
                          standards, or bans.
------------------------------------------------------------------------
Determinations           Staff directed to        A contract task order
 Regarding Unfinished     investigate whether      has been issued to
 Wood and Other Natural   unfinished wood or       contractor for cost
 Materials                other natural            proposal. Staff
                          materials do not and     report anticipated in
                          will not contain any     FY 2015, depending on
                          of the specified heavy   the completion of the
                          metals in levels that    contract task and
                          exceed allowable         resource allocation.
                          limits in ASTM F963.
------------------------------------------------------------------------

Possible Legislation
    You point out in your letter that Congress, in Section 2(a)(3)(C) 
of PL 112-28, stated that if the Commission determined that it lacked 
the authority to implement an opportunity for reducing the costs of 
third-party testing consistent with assuring compliance with the 
applicable consumer product safety rules, bans standards, and 
regulations, it should transmit a report to Congress reviewing those 
opportunities, along with any recommendations for any legislation to 
permit such implementation. To date, I have seen no legislative 
opportunities for burden reduction that would continue third-party 
testing consistent with assuring compliance with the applicable 
consumer product safety rules, bans standards, and regulations. 
Recently, however, I learned of one possible approach regarding 
determinations for phthalates that might require legislative action.
    The concept is simple: when the Commission made its determinations 
regarding lead in 2009, the agency listed those products and product 
components that its technical staff had concluded would not ever 
contain prohibited amounts of lead. This was a list of exceptions from 
a general standard because lead, as a naturally occurring element, had 
to be ruled out as a component of products on an ongoing basis. 
Phthalates, by contrast, are a man-made material not occurring 
naturally in the environment and intentionally used in products. So, a 
possibly preferable approach would be to list those products that might 
contain phthalates or are most likely to be contaminated by phthalates 
in the production process and exempt all others. This would provide 
much broader relief than exhaustively listing the thousands of products 
that will never contain phthalates.
    Let me mention a few caveats. As with other burden reduction ideas, 
significantly more research and resources would be required for the 
agency to undertake such an action if the idea were to prove useful. In 
addition, statutory flexibility would be needed to allow CPSC to place 
a product on the list if it was later determined to contain prohibited 
phthalates even if it was not on the initial list. Also, as the 
Commission has not received the final Chronic Hazards Advisory Panel 
report on phthalates, I do not know how that might affect this concept. 
All of this said, I do find the proposal worthy of additional thought.
    Should I decide, in consultation with the agency's career 
scientific staff that this suggestion is a good one and that we require 
Congressional assistance, I shall seek my colleagues' support for 
making an official request to Congress.
    Thank you again for your letter on this important issue. Please 
forward my appreciation to your staff for their courtesy to me. Should 
you or your staff have any questions, please do not hesitate to contact 
me or Jenilee Keefe Singer, Acting Director of Legislative Affairs, by 
telephone at (301) 504-7488 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e18b8a92888f868493a182919282cf868e97cf">[email&#160;protected]</a>
            Sincerely,
                                           Robert S. Adler,
                                                   Acting Chairman.
cc: Chairman John D. Rockefeller IV
                                 ______
                                 
      Prepared Statement of Rep. Henry A. Waxman, Ranking Member, 
                    Committee on Energy and Commerce
    Thank you for the opportunity to address the Committee as it 
considers the nomination of Robert S. Adler for a second term as 
Commissioner of the Consumer Product Safety Commission (CPSC). Bob has 
been an advocate for consumers throughout his career. His expertise, 
experience, and dedication will continue to benefit the agency and 
consumers in a second term.
    Bob's history with CPSC goes back to 1973, when the agency opened 
its doors. He spent nine years as an attorney-advisor to two 
Commissioners, including for Commissioner David Pittle, one of the 
original five Commissioners.
    I've known Bob since 1985, when he joined my staff on the Health 
and Environment Subcommittee. He worked on important consumer 
protection issues like a no-fault compensation program for the rare 
instances of children injured by a vaccine, and he led congressional 
oversight into the Consumer Product Safety Commission. I remember him 
especially for the bipartisan approach he helped forge on consumer 
issues, including with former House member and Senator Jim Broyhill of 
North Carolina.
    He left the Committee for academia at the University of North 
Carolina, where he had an important appointment at the business school. 
His academic career was a distinguished one in the areas of product 
safety, product and medical liability, government regulation, 
commercial law, and negotiation.
    During his time at UNC, Bob stayed involved in many consumer 
protection and education activities. He was elected six times--for a 
term spanning 22 years--to the board of directors of Consumers Union, 
publisher of Consumer Reports magazine.
    Bob returned to public service in 2009, when he served on President 
Obama's Transition Team for the Consumer Product Safety Commission. He 
was appointed a Commissioner in August 2009. Bob has been serving as 
the Acting Chairman of the CPSC since December.
    Bob has been an exceptional Commissioner at CPSC. He is a strong 
advocate for consumer protection. He is highly regarded for his fact-
based and consensus-oriented approach. All sides have come to know him 
as someone who listens well, who gives everyone a fair hearing, and who 
does what is right for our Nation.
    Consumers and our country have been well served by Bob. I hope you 
will give his renomination the favorable and speedy consideration it 
deserves.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                            Bruce H. Andrews
    Question 1. Trade Laws--Many in Arkansas rely on the international 
trade laws to preserve their jobs from unfairly traded imports. 
Mississippi County, for example, is home to a number of steel 
producers--in fact, it is the second largest steel producing county in 
the United States. These workers are facing a massive surge of dumped 
and subsidized steel imports from a number of countries and across 
various product lines. They are using the trade laws to fight back, and 
they are counting on the Department of Commerce to fully enforce the 
rules of free and fair trade. These are efficient, low-cost, and 
environmentally responsible producers who can out-compete anyone in the 
world if there is a level playing field. They are only asking that our 
government enforce the rules on the books and ensure a level playing 
field. Can you assure this Committee that the Commerce Department will 
vigorously apply and enforce the U.S. trade remedy laws?
    Answer. Vigorous enforcement of our countervailing duty and anti-
dumping trade remedy laws is a top priority for the Commerce 
Department. It is a priority I have worked on regularly as Chief of 
Staff for the Commerce Department and I will continue to make 
enforcement of our trade laws a priority if I am confirmed as Deputy 
Secretary of the Department.
    Like you, I believe wholeheartedly that U.S. firms and workers can 
compete successfully in the global marketplace if they are able to 
compete on a level playing field. Also, I understand the importance of 
the steel industry to Arkansas and the Nation. The domestic steel 
industry supports hundreds of thousands of jobs in the U.S. and it is 
an essential sector of our domestic manufacturing base. The Department 
has acted in numerous trade remedy cases in the past to provide a 
remedy to domestic producers harmed by unfair imports. Steel related 
products account for 118 of the antidumping and countervailing duty 
orders currently in place, which is approximately 41 percent of all 
current orders. With regard to pending investigations, I can assure you 
the Department is aware of the concerns of domestic steel producers in 
these cases and will carefully conduct on-going investigations to make 
a determination in each case based on a complete record and the law.

    Question 2. How can we assure my constituents of the importance you 
place on the antidumping and countervailing duty laws and their 
enforcement?
    Answer. Vigorous enforcement of our countervailing duty and 
antidumping trade remedy laws is a key element of the Department's 
``Open for Business'' Strategic Plan that Secretary Pritzker unveiled 
last fall. As Chief of Staff, I was very involved in the development of 
the Department's Strategic Plan under Secretary Pritzker's leadership, 
including the importance the plan places on the effective enforcement 
of our Nation's trade laws to enable domestic firms to compete fairly 
in the global marketplace. If I am confirmed as Deputy Secretary, one 
of my primary objectives will be to oversee the successful 
implementation of the Department's Strategic Plan to ensure we are 
holding our trading partners accountable and protecting domestic firms 
from unfairly traded imports.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            Bruce H. Andrews
    Question 1. Denali Commission--Thanks to Commerce for helping get 
Denali Commission back on its feet after term of Federal co-chair, Joel 
Neimeyer, expired earlier this year. Joel has been reappointed and is 
bringing new energy and focus to the commission. However, the 
Commission need to legal assistance. In the past, the Commission has 
benefitted from shared legal advice from the Anchorage-based FAA 
attorney, especially on ethics matters. However that attorney will soon 
no longer be available so the commission is required to have legal 
counsel.
    We believe the Department of Commerce is best positioned to provide 
that through the Secretary's office. The commission only has seven 
commissioners, all appointed by the Secretary, and is in the process of 
getting reauthorized, so the burden for ethics advice should be 
relatively minor. Will the department commit to providing Alaska's 
Denali Commission these ethics legal services?
    Answer. The Department greatly values our collaborative working 
relationship with the Denali Commission, which has played a significant 
role in addressing the economic development and infrastructure needs of 
Alaska's rural and distressed communities. The legal team of the 
Economic Development Administration (EDA) has served as an invaluable 
sounding board for the Commission's Federal Co-Chair and Counsel on key 
issues, especially during this past year when the Commission was 
confronted with a number of management and operational challenges with 
legal implications.
    It is important to note that although the Department has certain 
discrete, statutory responsibilities with respect to the Commission, it 
does not provide the Commission with formal legal advice and guidance 
out of respect for the Commission's status as an independent entity. 
However, in the spirit of cooperation with a Federal partner, we have 
in the past through an MOU provided the Commission with legal services 
on a reimbursable basis when a specific, compelling need arises. No 
such agreement between the Department and the Commission currently 
exists. Nevertheless, we will certainly consider any request from the 
Commission for the Department to provide ethics legal services and 
evaluate whether such an arrangement would be feasible and cost-
effective. As with all matters regarding the Commission, we will keep 
you fully apprised of the progress and outcome of any discussions with 
the Commission.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Bruce H. Andrews
NTIA IANA Functions
    Question 1. Mr. Andrews, a number of this Committee's members have 
called for the Committee to hold a hearing on NTIA's proposed 
transition of the IANA functions to the multi-stakeholder community. I 
think this topic is important, and would support such a hearing. Would 
the Department be willing to testify as it did in the House to discuss 
specifically some of the valid concerns that exist regarding the 
proposed transition? If confirmed, what role--if any--do you expect to 
play in overseeing the proposed transition?
    Answer. The Department is committed to a transparent and open 
process for a successful transition, including active engagement with 
Congress. We work closely with the Committee and the Department would 
be responsive to an invitation from the Committee to provide a witness 
at a hearing who can best respond to questions the Committee may have.
    Assistant Secretary Strickling has to date testified on this topic 
twice, conducted two briefings for the Committee, and provided detailed 
answers to written questions. In all of those instances, NTIA has laid 
out a clear framework to ensure a successful transition, including that 
it will not accept a proposal that replaces the NTIA role with a 
government-led alternative, as well as agreeing to provide regular 
updates to Members on this important topic. If confirmed, I will be 
working closely with NTIA to ensure that the open Internet remains an 
engine for economic and social opportunity at home and abroad.
FirstNet--Independent Authority
    Question 2. Mr. Andrews, the Spectrum Act establishes FirstNet as 
an ``independent authority within NTIA.'' What is the Department of 
Commerce's interpretation of what it means for FirstNet to be an 
``independent authority'' within NTIA?
    Answer. The Middle Class Tax Relief and Job Creation Act of 2012 
(Act) establishes FirstNet as an independent authority within NTIA, and 
thus FirstNet is both part of NTIA and independent of it with respect 
to program-related decisions not expressly assigned to NTIA under the 
Act. Both the Department of Commerce and NTIA have their own express 
substantive roles under the Act, and the Act's placement of FirstNet 
within NTIA will continue to result in a close, but independent, 
working relationship with NTIA, as well as the Department, to jointly 
achieve the critical goals of FirstNet's mission.
First Net--Management
    Question 3. Building a network is incredibly complicated, and will 
require empowering FirstNet's experts to do what they do best. What 
assurances can you give those concerned about the potential for 
bureaucratic micromanagement by the Department that FirstNet is being 
given sufficient latitude to operate effectively?
    Answer. FirstNet is one of the most unique and high-profile 
initiatives in the Department's portfolio. The Department is fully 
committed to leveraging its resources to ensure FirstNet can achieve 
its vital mission for public safety. The Department has provided 
assistance to FirstNet to help it navigate the complexities of Federal 
procurement and hiring requirements and taken steps to streamline these 
processes for FirstNet whenever possible to enable it to acquire the 
services and staff it needs to successfully fulfill its challenging 
task to build a nationwide broadband network for public safety. If 
confirmed, I will work closely within the Department to ensure that we 
provide FirstNet the tools it needs to successfully do its job.
NOAA Satellites
    Question 4. Mr. Andrews, you note in your response to the Committee 
Questionnaire that the Department has a number of very important, but 
also operationally challenging programs, and you listed NOAA satellites 
as one of these programs. If confirmed, what will you do to ensure that 
the NOAA satellite programs are meeting established milestones and 
making efficient use of taxpayer dollars?
    Answer. If confirmed, I will work with the NOAA Administrator to 
provide oversight of the NOAA satellite programs to help ensure they 
continue to meet their milestones and make efficient use of taxpayer 
dollars. The NOAA satellite programs are on schedule and within budget, 
and we remain committed to strengthening and increasing robustness of 
these programs.
    NOAA is the program lead for these programs and works very closely 
with NASA to implement the necessary requirements for weather 
forecasting. The NASA--NOAA partnership is strong and provides 
government oversight to the contractors. DOC provides programmatic and 
budgetary, as well as management, oversight. Frequent reviews of the 
satellite programs are conducted by government entities, such as the 
Government Accountability Office and the Department of Commerce 
Inspector General, and independent groups comprised of aerospace 
experts, which provide guidance and help ensure that these programs 
remain on track and within budget. We will continue to work with, and 
welcome, reviews by these groups.
Use of Commercial Satellite Data
    Question 5. Given the impending gap in weather satellite coverage 
by U.S. polar orbiting satellites, POES and JPSS, as well as the coming 
gap in COSMIC constellation for Radio Occultation (RO) data, do you see 
any legal barriers or other impediments for the Department of Commerce 
and NOAA to acquiring commercial satellite data that can be provided in 
time to fill these gaps and meet all technical standards and specs of 
NOAA and possibly save taxpayer dollars?
    Answer. No, we do not see any legal barriers to the Department of 
Commerce and NOAA acquiring commercial satellite data to help fill data 
needs, as long as funding is provided and the data meet the key 
requirements for cost, data policy, and reliability, and are compliant 
with the Federal Acquisition Regulations.
    NOAA already engages in commercial data buys, such as for Synthetic 
Aperture Radar (SAR) imagery from commercial sources in Canada and 
Europe to support ice detection and monitoring for the National Ice 
Center. Ocean color data was purchased from a hosted U.S. Government 
sensor called SeaWiFS (Sea-Viewing Wide Field-of-view Sensor) aboard 
the Orbview II satellite, which was operated by GeoEye Inc. This data 
was used operationally to monitor harmful algal blooms in U.S. coastal 
waters. In addition, NOAA purchases the U.S. National Lightning Data 
Network from Vaisala. National Weather Service offices use this data to 
support severe weather warnings. Furthermore, NOAA partners with 
private industry to design, build, and operate its space and ground 
systems.
Commercial Satellite Data--FY 2015
    Question 6. Are you aware of the FY 2015 CJS bill report language 
that requires Commerce and NOAA within 120 days of enactment to provide 
a plan to procure commercial satellite data to the Appropriations 
Committee? Do you see any significant barriers to achieving that 
deadline?
    Answer. Yes, I am aware of the FY 2015 CJS bill report language 
that requires the Department of Commerce and NOAA within 120 days of 
enactment to provide a plan to procure commercial satellite data to the 
Appropriations Committee. We are actively working on such a plan and 
will engage the Office of Management and Budget to achieve this 
deadline.
Commercial Space Environmental Data Service Companies
    Question 7. Are you aware of the efforts of a number of commercial 
space environmental data service companies to develop, launch and 
operate commercial weather satellites for providing weather data as a 
service--similar to your monthly cell-phone service--to both government 
and commercial entities worldwide? What would be your plan to take 
advantage of these commercial services--that will also create U.S. jobs 
and economic development--in accordance with the requirements of the 
National Space Policy?
    Answer. Yes, I am aware of the efforts of commercial space 
environmental data service companies to develop, launch, and operate 
commercial weather satellites. We will seriously analyze these upcoming 
commercial services to see if they could possibly help fill any data 
needs.
    As the primary customer for these data purchases, the National 
Weather Service has 16 long-standing criteria for data quality. The 
National Weather Service purchases instrumentation and data from 
vendors that can demonstrate that they can meet those criteria. 
However, there are currently no viable, proven commercial entities 
which can provide the mission-critical data that is required to ensure 
that lives and property of the American public are not put at risk from 
severe weather.
    The downstream economic benefits garnered off the foundational data 
of the United States commercial weather enterprise are very real and 
quite considerable. There are over 300 private weather companies today 
that use those data as feedstock. There is no other weather enterprise 
that takes that model of a private innovation platform in the data as a 
public good and produces the private sector value-added economic 
activity downstream. We need to carefully evaluate the intended and 
unintended consequences that might come from monetizing the data 
stream.
Sources of Satellite Data
    Question 8. If you knew that there are technically viable, 
economically attractive and timely solutions available to close and 
mitigate vital weather satellite data gaps--that would readily meet the 
rigorous technical standards and specifications of the U.S. Government 
through NOAA--would you seek out those solutions whether they came from 
commercial, academic or public/private partnership sources?
    Answer. As stated above, yes, we would seriously analyze any 
technically viable solutions to help mitigate weather satellite data 
gaps, provided they would meet the requirements set by the National 
Weather Service.
Office of Inspector General Recommendations
    Question 9. The U.S. Department of Commerce Office of Inspector 
General (OIG) is tasked with seeking to improve the efficiency and 
effectiveness of the Department's programs and operations. In your 
current role, how do you implement recommendations or address any 
issues identified by the OIG?
    Answer. Every day the Department's bureaus work with American 
businesses, communities, and private citizens to spur innovation, 
promote trade and investment, foster use of data, and ensure production 
of critical environmental products and services--and we are committed 
to do so in the most effective and efficient way possible.
    The Department's senior leaders work closely with the Office of 
Inspector (OIG) to understand the challenges they have identified, and 
how to address the issues they have raised. For example, the Chief 
Financial Officer and Assistant Secretary for Administration (CFO/ASA) 
are working on improving our oversight process and internal controls at 
both the bureau and Department levels.
    The Deputy Secretary plays a key role as the Chief Operating 
Officer of the Department in overseeing the operations of the 
Department. If confirmed, making sure the Department has the proper 
controls in place to support effective and efficient operations will be 
a top priority for me.
Office of the Inspector General--Contracts and Funds
    Question 10. Recently, the OIG issued a report (OIG-14-001-A) 
following a review of 43 time-and-materials and labor-hour contracts, 
which found that contracting and program officials did not properly 
award and administer contracts and task orders for work permitted. The 
OIG also found that potential monetary benefits to the Department, in 
the form of potential savings from eliminating unsupported costs and 
from funds put to better use, totaled $170 million. We are in 
challenging financial times and we need to ensure taxpayer funds are 
being used efficiently and judiciously.  In your current position 
within the Office of the Secretary (where the review was located), how 
do you work to ensure contracts are properly awarded and administered?
    Answer. The Department has built acquisition metrics that are used 
for data centric decision making and oversight. The metrics are 
calculated daily and reviewed on a monthly basis at our acquisition 
council chaired by the CFO/ASA, Senior Procurement Executive and 
attended by the Bureau Procurement Officials (BPsO). The CFO/ASA is 
working on improving our oversight process and internal controls at 
both the bureau and Department levels through an acquisition review 
board for acquisitions over $75 million. If confirmed, I will work with 
the CFO/ASA and others when appropriate to ensure the Department's 
senior management is appropriately responding to management issues 
raised by the Department's Office of Inspector General.

    Question 10a. If confirmed, how would you work address generally 
unsupported costs and funds put to better use identified by the OIG or 
by the Department?
    Answer. As Chief Operating Officer, I would work with the 
Department's senior managers to consider OIG reports and findings 
throughout the year as we build budgets and execute programs. If the 
OIG identifies unsupported costs and funds put to better use, we will 
consider those findings at each opportunity.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                            Bruce H. Andrews
Internet Tax Moratorium
    Question. Do you support legislation that would make the Internet 
tax moratorium permanent?
    Answer. I appreciate Congressional efforts to support broadband 
access and adoption in order to improve social and economic development 
for Americans. This is a goal we share at the Department of Commerce, 
and one we are working to advance by regularly tracking broadband 
adoption, making additional spectrum available for wireless broadband, 
overseeing Recovery Act broadband investments, and promoting policies 
that maintain the open Internet as an engine for economic growth.
    The Administration is studying the legislation in question, and has 
not taken a formal position at this time.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                to Victor M. Mendez and Peter M. Rogoff
Transportation Funding
    Question 1. We're in the midst of a terrible problem--the Highway 
Trust Fund is about to run out of money. States, communities, workers 
and businesses who are relying on that funding will be out of luck, if 
we don't act quickly. Having served as DOT Administrators, you know 
firsthand the impact of the trust fund on communities and states. Can 
you please explain what it will mean if we let the trust fund run dry?
    Answer. The impending Highway Trust Fund cash shortfall will have 
an impact on construction projects in the U.S. potentially putting 
hundreds of projects and thousands of jobs at risk. Some states have 
indicated they plan to slow down or put construction projects on hold 
due to uncertainty about Federal highway funding. Several other states 
have publicly announced that they are evaluating the situation and 
considering various options, but have not yet announced that they are 
delaying/suspending projects.
    States that have already taken action:

  <bullet> Georgia--has announced they will be suspending monthly 
        lettings of highway construction projects beginning in July.

  <bullet> Ohio--has decided to delay their Statewide Transportation 
        Improvement Plan (STIP) by one year.

  <bullet> Rhode Island--has halted advertising of all new, non-
        emergency highway projects.

  <bullet> Tennessee--has announced the delay of certain construction 
        projects pending a fix to the HTF shortfall.

  <bullet> Vermont--has announced that they will delay awarding 
        projects this summer until the HTF shortfall is resolved.
Safety of Crude Oil Trains
    Question 2. With major derailments and fiery explosions of trains 
carrying crude oil in Canada, North Dakota, and most recently in 
Virginia--many states and cities have raised concerns about what's 
moving on the rails in their communities. DOT has asked the oil 
industry to provide additional data on crude. Have you received the 
data or do you still need additional data?
    Answer. In response to Secretary Foxx's Call to Action, the oil 
industry has provided to DOT limited data regarding the hazardous 
characteristics of petroleum crude oil originating from the Bakken 
region of North Dakota. In addition, the Pipeline and Hazardous 
Materials Safety Administration (PHMSA) also has gathered and continues 
to gather its own data to independently assess the hazardous 
characteristics of Bakken crude. The quality and reliability of the 
data gathered to date vary. However, both the data provided by the oil 
industry and the data gathered by PHMSA confirm that Bakken crude oil 
is highly flammable. More data and analyses are needed to better 
understand the specific hazardous characteristics of Bakken crude oil 
(including, for example, geographic and seasonal variation in hazardous 
characteristics) and evaluate additional measures for ensuring that 
Bakken crude oil can be transported safely by rail.

    Question 3. The oil industry has released reports over the last few 
weeks suggesting that Bakken crude is safe. Do you agree with those 
assessments? Do you have any concerns about the data that was included 
in those reports?
    Answer. The quality and reliability of the data gathered by PHMSA 
to date varies. Nonetheless, PHMSA's evaluation of the data available 
to date confirms that that crude oil from the Bakken region is highly 
flammable and must be properly classified, packaged, marked and labeled 
to ensure the safe shipment by rail or any other mode of 
transportation.

    Question 4. DOT has been working with the railroads on voluntary 
commitments to increase safety standards for the transport of crude 
oil. Are voluntary agreements sufficient to address the issues raised 
by crude train derailments?
    Answer. DOT is taking a comprehensive approach to enhancing the 
safe transportation of crude oil by rail. Transportation safety is a 
shared responsibility. For that reason, DOT's comprehensive approach 
includes the issuance of emergency orders and safety advisories, 
rulemaking, voluntary commitments from industry, data gathering and 
analysis and education and outreach. In DOT's experience, voluntary 
measures can be an effective and efficient tool to enhancing rail. With 
respect to raising the safety bar for the shipment of crude oil by 
train, DOT believes that the rail industry's voluntary commitments are 
already delivering safety benefits in terms of preventing, mitigating 
and responding to incidents involving trains shipping crude oil. 
However, DOT will not rely solely on these voluntary agreements to 
improve the safe transportation of crude oil by train. Among other 
efforts, the Department will issue a comprehensive notice of proposed 
rulemaking this summer to solicit public comment on additional safety 
measures that should be adopted.
Increased Funding for Freight and Rail
    Question 5. It's important to pay our bills, but we need to do a 
lot more than that to modernize our transportation system. The 
Administration recently proposed a bill that proposes large funding 
increases for passenger rail and freight programs. Why has the 
Administration focused increased resources on rail and freight programs 
specifically?
    Answer. The importance of transportation infrastructure to global 
economic competitiveness is indisputable. In order for the Unites 
States to maintain and improve its economic competitiveness into the 
future, it must address a number of challenges that directly influence 
the mobility of people and goods across the country, including:

  <bullet> Predicted population growth of 100 million additional people 
        over the next 35 years;

  <bullet> Highway and aviation congestion that continues to rise, 
        where the ability to expand capacity is severely constrained in 
        many areas with the worst congestion;

  <bullet> Rising energy costs and greenhouse gas emissions; and

  <bullet> Changing demographics and travel habits that demonstrate 
        that younger generations of American are choosing to drive both 
        less often and for fewer miles than previous generations, while 
        at the same time a large number of Americans are entering their 
        retirement years and also choosing to drive less often 
        (particularly over longer distances).

    Rail is uniquely well-suited to meeting these challenges and has 
demonstrated strong public benefits both in the United States and 
internationally. To accommodate population growth, rail provides very 
high capacity within a relatively limited geographic footprint. Rail is 
among the most energy-efficient ways to travel and ship freight, and 
also exhibits lower pollution emission rates than other modes. As 
highway and airport congestion increases, rail can provide a more 
reliable and efficient travel options for many markets.
    In terms of freight rail, intermodal freight shipments exceeded 
record volumes in 2013, with 12.8 million containers and trailers 
shipped (AAR, Weekly Rail Traffic Summary). This growth demonstrates 
the demand for intermodal rail transportation as more shippers decide 
to take advantage of the mode's inherent economic advantages. 
Additionally, freight rail systems consist primarily of privately-owned 
infrastructure and are maintained out of railroad revenues; whereas 
heavy intercity trucks pay only 80 percent of the costs they impose on 
Federal highways through wear-and-tear (FHWA, Addendum to the 1997 
Federal Highway Cost Allocation Study).
    Demand for passenger rail is surging across the United States, as 
ridership levels have set new records in ten of the past eleven years. 
In FY 2013, Amtrak carried a record 31.6 million passengers, including 
15.4 million passengers on its State-supported routes (another record). 
Additionally, nearly every region in the United States has demonstrated 
demand for investments in passenger rail services to relieve 
congestion, to provide alternative transportation options, and to 
complement our world class highway and aviation systems.

    Question 6. Why is it important that these programs have dedicated 
trust fund money rather than annual appropriations?
    Answer. Congress has for decades funded highway infrastructure and 
safety, transit, and aviation programs through multi-year 
authorizations that provide guaranteed funding; this enables States, 
local governments, private industry, and other stakeholders to plan and 
make large-scale infrastructure investments on a year-to-year basis. 
This type of predicable, dedicated funding is critical to providing 
rail stakeholders with the certainty they have long required to 
effectively plan and execute projects that will improve transportation 
infrastructure, allow regions and States to achieve their long-term 
visions for rail transportation, and to support economic growth across 
the country.
    In the last five years, DOT and its State and private partners have 
invested over $70 million in planning studies to establish a pipeline 
of future rail projects. These studies and independent planning efforts 
led by the States have resulted in a pipeline of more than $20 billion 
worth of projects that are already underway or ready for construction. 
Predictable and dedicated funding for rail will allow DOT and its 
stakeholder to make the market-based investments necessary to turn 
these studies into improved and new services.
Truck Safety Issues (Hours of Service)
    Question 7. The Federal Motor Carrier Safety Administration (FMCSA) 
uses Hours of Service regulations to help prevent fatigue-related 
accidents in the trucking industry. After years of working on hours of 
service regulations, some in Congress want to stop enforcement of 
important provisions. I'm concerned this could have unintended 
consequences on safety. What are the real world impacts of rolling back 
these provisions?
    Answer. Rolling back the once-a-week limit on use of the 34-hour 
restart that FMCSA adopted in its December 2011 final rule would allow 
employers to require their commercial truck drivers to work an average 
of more than 80 hours per week and remain behind the wheel on our 
Nation's highways. This would significantly increase the risk of a 
fatigue-related crash. No other mode of transportation allows employers 
to demand that safety-sensitive employees work such grueling schedules.
    The current 34-hour provision that has been in effect since July 1, 
2013, limits truck drivers to an average of 70 hours on duty per week. 
FMCSA estimates that limitation on the use of the 34-hour restart will 
save 19 lives per year, prevent hundreds of injuries, and improve 
driver health. Were the proposed legislation suspending enforcement of 
the rule enacted, these safety benefits would be lost.
Truck Safety Issues (Truck Size and Weight)
    Question 8. As mandated by MAP-21, DOT is currently conducting a 
comprehensive truck size and weight study to evaluate large trucks and 
their impacts on safety and infrastructure. That study is due out later 
this year, but the National Academy of Sciences is conducting a peer 
review and has already found significant issues with DOT's work. How do 
you plan to specifically address the criticisms of the study--such as 
weaknesses in data and methodology--identified by the National Academy 
of Sciences?
    Answer. The NAS Committee's recommendations to DOT focused on ways 
to accurately demonstrate trend lines given the inherit limitations and 
uncertainties of the available data. The NAS Peer Review Panel also 
recommended a consistent organization of the elements within each of 
five desk scans, a clear linkage between material in each desk scan and 
its corresponding project plan, and a synthesis of methods and results 
from prior studies to the results of this Study. We agree with these 
recommendations and are incorporating these changes in the final desk 
scans and related documents. The Department will also provide a full 
accounting of the assumptions and limitations for each study area. Many 
of the limitations in existing data sets and models will impact the 
ability of the Study to support national-level conclusions. The 
Department will identify areas for improving the measuring and 
collecting of data and for future analysis in areas of critical 
importance and relevance to the Study topics.

    Question 9. Others have raised concerns that DOT is working to meet 
a deadline rather than make sure the study is accurate. Would 
additional time help DOT address these concerns and improve the 
accuracy of the study?
    Answer. We are focused on producing a Study that is objective, 
data-driven, uses appropriate methods and is responsive to the 
requirements set forth in MAP-21. The Department takes congressional 
deadlines seriously, but if it takes longer than the Congressional 
deadline to produce a satisfactory Study, then we will take that 
additional time. Currently, technical staff is reviewing the initial 
draft results of the analysis to determine what, if any, additional 
work needs to be completed to clarify the results before presenting the 
analysis to the public.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Victor M. Mendez
    Question 1. As you know, freight projects are always fighting for 
attention in our existing grant programs, like TIGER. They are up 
against very worthy transit, highway, and bike/ped projects. Do you 
believe a new freight-specific discretionary grant program would help 
meet the nationwide need for investing in job-creating freight mobility 
projects?
    Answer. Yes. The U.S. transportation system moves more than 52 
million tons of goods worth nearly $46 billion each day, or almost 40 
tons of freight per person per year. By 2040, freight tonnage is 
expected to increase by 62 percent, requiring additional capacity to 
our highways, railroads, ports, and pipelines and improvements to 
multi-modal connections that move freight efficiently and safely, and 
keep our economy growing.
    While TIGER has been able to fund a number of a number of 
meritorious freight projects, we are not able to award every worthwhile 
project because of insufficient funds. In the GROW AMERICA Act, the 
Department proposes to create a Multimodal Freight Investment Program 
that would include an incentive grant program and a discretionary grant 
program. The discretionary program would award up to $5 billion in 
grants over four years to the projects that would have the greatest 
impact on the safety, efficiency, and state of good repair of the 
freight transportation system. The incentive grant program would make 
$5 billion available over four years by formula to states that have 
engaged multimodal stakeholders in a comprehensive freight planning 
process. The multimodal freight investments that these programs would 
fund are critical to improving the economics competitiveness of 
American industry.

    Question 2. As you know, we are reaching a decision point on the 
Highway Trust Fund and needing to fill the coming shortfall. As we do 
that, there will be an opportunity to discuss how transportation 
programs are funded more broadly. Do you believe that we need a 
dedicated source of funding for multimodal projects, like those at 
ports? And if so, how would you envision this dedicated source being 
capitalized?
    Answer. Funding sources that are not tied narrowly to any one mode 
of transportation allow for funding of multimodal projects without 
being concerned that funds are being diverted from one mode to another. 
We have seen the benefits of this approach with the TIGER Discretionary 
Grant Program, which has been funded with general funds, initially via 
the Recovery Act and later through the annual appropriations process. 
TIGER has presented the Department with an opportunity to fund a number 
of innovative, multimodal freight projects across the Nation. Many of 
these projects leveraged significant private and other public co-
investment. Similarly, looking forward and more broadly, the Department 
has proposed the multimodal GROW AMERICA Act, which would be paid for 
in part through a pro-growth business tax reform without adding to the 
deficit. This $150 billion in revenue through the general fund would 
allow investments in a wide range of modes, including ports, rail, 
highways, and intermodal freight facilities.

    Question 3. What sort of funding level do you think would be 
appropriate to dedicate to multimodal freight funding every year? 
Obviously GROW AMERICA contains $10 billion over four years--do you 
really think that is enough to meet the need? There are probably $10 
billion in important freight projects just in Washington state that are 
needed to efficiently move agricultural products and containers to and 
from our ports.
    Answer. There are many meritorious and significant freight projects 
across the country that would benefit from funding assistance. The GROW 
AMERICA Act includes $10 billion for multimodal freight funding over 4 
years, and would give the Department a chance to make targeted 
investments in freight projects that would have the biggest impact on 
the safety, efficiency, and state of good repair of the freight 
transportation system. While we recognize that $10 billion is not 
nearly enough to meet the entire nation's freight investment needs, it 
is a significant down payment and we hope will serve as a catalyst for 
additional freight funding in the future. Initial funding of such a 
freight program would help us to assess the level of need for projects 
like this and inform the Department and the Congress about what levels 
of funding would be appropriate in the future.

    Question 4. How did the National Freight Advisory Committee (NFAC) 
draft recommendations play into the GROW AMERICA proposal?
    Answer. The National Freight Advisory Committee's (NFAC) recent 
work has been focused on helping the Department develop the National 
Freight Strategic Plan. On June 12, 2014, the NFAC submitted 90 
recommendations to the Secretary for this effort.
    While these recommendations focused specifically on the National 
Freight Strategic Plan, many of them spoke to underlying themes and 
issues that the Department attempted to address in the GROW AMERICA 
Act. For example, nine recommendations focus on the need for 
consistent, increased, or smarter funding of freight projects. Some of 
these recommendations correlate with the multimodal freight incentive 
grant program and national freight infrastructure program in the GROW 
AMERICA Act. Similarly, many recommendations focus on streamlined and 
more efficient environmental permitting, which is also a major area of 
focus for the Administration and is reflected in the GROW AMERICA Act.

    Question 5. Do you know how soon you expect those recommendations 
to be finalized?
    Answer. The NFAC finalized and submitted these 90 recommendations 
to the Department on June 12, 2014. These recommendations may be viewed 
on the NFAC's website, http://www.dot.gov/nfac.

    Question 6. You have obviously worked on freight issues for a long 
time in your career. Are there things that the NFAC recommended that 
you think got left out of the GROW AMERICA proposal?
    Answer. The NFAC proposed developing additional recommendations for 
the DOT regarding streamlining efforts for state, local, MPO, and 
private planning, developing goals related to freight safety, and 
workforce development in the freight sector. The Department is 
currently establishing NFAC workgroups on each of these topics and 
expects additional recommendations by the end of the year.
    Additionally, the NFAC is scheduled to meeting on July 15 and 16 to 
evaluate and discuss elements of a freight program in the next 
reauthorization bill. We expect to receive additional input from the 
NFAC on what should be incorporated into a freight program and we would 
be happy to share those comments when they are completed.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Victor M. Mendez
    Question 1. Mr. Mendez, the Administration's proposed GROW America 
bill includes a proposal to give the National Highway Traffic Safety 
Administration (NHTSA) the authority to regulate navigation apps on 
smartphones and other electronic devices and products that can be 
brought into vehicles. How would NHTSA enforce such restrictions in 
practice?
    Answer. It is my understanding that NHTSA does not have any plans 
to propose regulations to restrict navigation apps on smartphones or 
other electronic devices and products that can be brought into 
vehicles.

    Question 1a. Does NHTSA have the structure to oversee an 
innovative, dynamic and rapidly changing industry as navigation apps 
proliferate and grow in sophistication?
    Answer. NHTSA has sufficient structure today to perform its 
longstanding mission of identifying and analyzing safety risks that 
potentially could be introduced by new items of automotive equipment, 
including navigation apps, that may be introduced into the American 
market. As it always has, NHTSA will respond appropriately if it 
identifies any unreasonable risks to safety introduced by such 
automotive equipment.

    Question 1b. How do you respond to the concern that restrictions 
and excessive regulation will stunt innovation in a space where 
innovation has flourished?
    Answer. NHTSA has no plans to propose regulations over navigation 
apps and our overall efforts will continue to support innovation in the 
auto industry. Safety will always be our top priority in determining 
whether or not to establish new regulations and regulations we propose 
in other areas are designed to maintain and even encourage innovation 
while making progress on safety.

    Question 2. Mr. Mendez, according to news reports, even if NHTSA 
obtains the authority from Congress, the agency has no immediate plans 
to issue rules to regulate navigation apps on smartphones and other 
devices, which begs the question of why such authority is needed in the 
first place. How do you respond to the concern that this effort to 
establish authority over navigations apps is just another regulatory 
power grab by another Federal agency?
    Answer. NHTSA is not seeking authority to regulate navigation apps 
or any other apps on handheld devices. NHTSA's existing authority 
covers these apps, but, as you indicated in your question, NHTSA 
doesn't have any plans to issue regulations for apps. The proposed 
provision in the GROW AMERICA Act addresses a different issue 
altogether--NHTSA's ability to rely upon industry-consensus process 
standards, such as ISO standards, when it regulates on-board 
electronics and software in vehicles.

    Question 3. Mr. Mendez, one of the recurring themes we seem to 
discuss on the Committee for every mode of transportation is fatigue--
from hour of service requirements to the impact of sleep apnea. While 
every mode of transportation is unique, it does seem that some basic 
issues overlap, including the correlation between tired operators and 
increased safety risks. Do you know if the DOT has considered tackling 
the issue of fatigue in a more global manner, especially with respect 
to research? If so, how? If not, is that something you would commit to 
considering?
    Answer. Fatigue safety risks are a life-threatening concern for the 
Department. Every year, an estimated one million roadway crashes and 
near-misses are likely fatigue-related, with thousands of people losing 
their lives and being injured. Fatigue-related tragedies are played out 
across every hour of the day throughout our Nation's transportation 
system. We have worked to tackle fatigue across the Department. The 
Federal Aviation Administration (FAA) for example, issued new hours of 
service rules for pilots and the Federal Motor Carrier Safety 
Administration (FMCSA) issued new rules for commercial truck drivers. 
While representing the most significant changes in over 70 years, and 
incorporating many science-based elements, the aviation rules do not 
yet cover all pilots, and the truck rules are facing challenges. These 
are important developments that represent real progress, and need to be 
embraced and applauded. But so much more needs to be done. Reducing 
fatigue risks in transportation is everyone's ongoing responsibility: 
companies, the government, individual operators, and travel consumers. 
And when you are behind the wheel, every moment requires you to be 
wide-awake and alert.

    Question 4. Mr. Mendez, one concern that we often hear about is how 
each mode can sometimes be stove-piped within DOT, and how 
communication between the modes can be difficult. Is this something 
that you have experienced as modal administrators? If so, what steps 
would you take to prevent this in the future should you be confirmed?
    Answer. An appropriate management structure can help avoid 
stovepiping, although no one model is appropriate in every case. One 
approach, having a single manager, can assure that one person has 
overall responsibility for the entire project and can help ensure that 
the interests and goals of the project are kept in mind at all times. 
Subproject or functional-unit managers exercise control over the 
various phases, but the overall manager can see that the phases are 
coordinated and that the project stays on track and on budget. With the 
Transportation Investment Generating Economic Recovery (TIGER) 
discretionary grant program, we established TIGER teams. The advantage 
of teams for avoiding stovepiping is that they can cut across 
functional boundaries in any organization, helping to manage the phases 
of the project delivery cycle in a seamless way and encouraging 
positive handoffs during the transition to different phases. In other 
words, project management teams can help shepherd a project through the 
organizational structures that are already in place while assuring that 
the project-level commitments made at each stage are kept. The TIGER 
team approach has been so successful we have mirrored the formula for a 
number of other Department-wide multimodal efforts.

    Question 5. I am concerned about reports regarding the National 
Roadside Survey of Alcohol and Drugged Driving that revealed motorists 
complaints of being forced off the road and asked to provide breath, 
blood and saliva samples. While combating impaired driving is a 
priority, and while survey data provide important insights to 
policymakers regarding the scope of this problem, it is important that 
the methods employed by NHTSA and its contractors respect the civil 
liberties of our Nation's motorists. Survey participation should be 
voluntary and not feel coerced as some have claimed. Can you explain 
how the survey was conducted and what procedures, if any, NHTSA employs 
to ensure that its testing activities--both those conducted by the 
agency itself and those conducted through third-party contractors--are 
constitutional and as unobtrusive as possible?
    Answer. In conducting the National Roadside Survey of Alcohol and 
Drugged Driving, NHTSA took great care to protect the rights of 
motorists and coordinated closely with State highway safety officials 
well in advance of setting up a survey site. An experienced non-profit 
research organization under contract to NHTSA conducted the survey. 
Trained researchers collected the data from volunteer participants, but 
only after specifically informing each participant that the survey was 
voluntary and anonymous, and that the participant was free to 
discontinue participation at any time. The survey followed a strict 
protocol that was reviewed and approved by an Institutional Review 
Board (IRB) for the Protection of Human Subjects. IRB review is 
designed to ensure that subjects of federally-funded research are 
treated with dignity, respect, and courtesy, that their participation 
is voluntary, that there is no coercion, and that volunteers give 
informed consent to participate.
    Even before entering the survey site, motorists were faced with 
large signs in the roadway alerting them to the ``Paid Voluntary 
Survey'' ahead. The survey protocol makes sure that participants were 
informed in multiple ways of the voluntary and anonymous nature of the 
survey. The survey has been conducted by NHTSA on a periodic basis for 
several decades. It is a vital source of data on the presence and 
prevalence of alcohol and drug use by drivers on the road, and critical 
to the Department's efforts to reduce impaired driving.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Peter M. Rogoff
    Question 1. As you know, freight projects are always fighting for 
attention in our existing grant programs, like TIGER. They are up 
against very worthy transit, highway, and bike/ped projects. Do you 
believe a new freight-specific discretionary grant program would help 
meet the nationwide need for investing in job-creating freight mobility 
projects?
    Answer. Yes, I certainly do. Over the next few decades, freight 
traffic is expected to grow dramatically. In fact, by 2040, freight 
tonnage is expected to increase by 62 percent, requiring additional 
capacity to our highways, railroads, ports, and pipelines and 
improvements to multi-modal connections that move freight efficiently 
and keep our economy growing.
    Despite its importance to the economy, freight investments can be 
disadvantaged in the current transportation planning process. These 
projects face competition from non-freight projects for public funds 
and community support, a lack of coordination among various government 
entities and private sector stakeholders, and limited availability of 
public funds to address the key freight chokepoints. In my view, Port 
connections in particular--be they rail or road connections--have not 
gotten appropriate attention. This has not only undermined our 
competitiveness as an importer and exporter but has in many communities 
undermined the air quality of neighboring residential areas.
    In the GROW AMERICA Act, the Department proposes to create a 
Multimodal Freight Investment Program that would include an incentive 
grant program and a discretionary grant program. Importantly, this 
program would give freight stakeholders such as shippers, railroads, 
and trucking firms a meaningful seat at the table in making project 
selections. The discretionary program would award not less than $5 
billion in grants over four years to the projects that would have the 
greatest impact on the safety, efficiency, and state of good repair of 
the freight transportation system. The incentive grant program would 
make up to $5 billion available over four years by formula to states 
that have engaged multimodal stakeholders in a comprehensive freight 
planning process. Any funds not required to fulfill formula 
apportionments would be available for additional discretionary grants. 
I was pleased to work carefully with Secretary Foxx in developing these 
proposed programmatic details.

    Question 2. As you know, we are reaching a decision point on the 
Highway Trust Fund and needing to fill the coming shortfall. As we do 
that, there will be an opportunity to discuss how transportation 
programs are funded more broadly. Do you believe that we need a 
dedicated source of funding for multimodal projects, like those at 
ports? And if so, how would you envision this dedicated source being 
capitalized?
    Answer. I believe that having a robustly funded program truly 
dedicated to multimodal freight investments is more important than 
having a dedicated funding source for those investments. The entire 
national economy is highly dependent on the efficiency and productivity 
of our freight networks and we mustn't shrink from funding them simply 
because there is not a dedicated funding source. The TIGER 
Discretionary Grant Program has presented the Department with an 
opportunity to fund a number of innovative, multimodal freight projects 
across the Nation using annual general fund appropriations. Many of 
these projects leveraged significant private co-investment. The 
Department has now proposed the multimodal GROW AMERICA Act, which 
would be paid for in part through a pro-growth business tax reform 
without adding to the deficit. This $150 billion in revenue through the 
general fund would allow investments in a wide range of modes, 
including ports, rail, highways, and intermodal freight facilities.

    Question 3. What sort of funding level do you think would be 
appropriate to dedicate to multimodal freight funding every year? 
Obviously GROW AMERICA contains $10 billion over four years--do you 
really think that is enough to meet the need? There are probably $10 
billion in important freight projects just in Washington state that are 
needed to efficiently move agricultural products and containers to and 
from our ports.
    Answer. The GROW AMERICA Act includes $10 billion for multimodal 
freight funding over 4 years, and would give the Department a chance to 
make targeted investments in freight projects that would have the 
biggest impact on the safety, efficiency, and state of good repair of 
the freight transportation system. While I recognize that $10 billion 
is not nearly enough to meet the entire nation's freight investment 
needs, I am hopeful that the cooperative processes that would be 
strengthened through our new GROW AMERICA program--including the full 
engagement of freight stakeholders in project selection decisions--will 
result in states and communities boosting their own investment in 
critical freight projects utilizing the increased formula resources 
that the GROW AMERICA Act would provide. The GROW AMERICA Act seeks to 
build on the excellent freight measures that you included in MAP-21 and 
will, we hope, initiate an unprecedented level of cooperation and 
dialogue in the planning, development, and funding of critical freight 
projects from many different funding sources.

    Question 4. How did the National Freight Advisory Committee (NFAC) 
draft recommendations play into the GROW AMERICA proposal?
    Answer. The National Freight Advisory Committee's (NFAC) recent 
work has been focused on helping the Department develop the National 
Freight Strategic Plan. On June 12, 2014, the NFAC submitted 90 
recommendations to the Secretary for this effort.
    While these recommendations focused specifically on the National 
Freight Strategic Plan, many of them spoke to underlying themes and 
issues that the Department attempted to address in the GROW AMERICA 
Act. For example, nine recommendations focus on the need for 
consistent, increased, or smarter funding of freight projects. Some of 
these recommendations correlate with the multimodal freight incentive 
grant program and national freight infrastructure program in the GROW 
AMERICA Act. Similarly, many recommendations focus on streamlined and 
more efficient environmental permitting, which is also a major area of 
focus in the GROW AMERICA Act.

    Question 5. Do you know how soon you expect those recommendations 
to be finalized?
    Answer. The NFAC finalized and submitted these 90 recommendations 
to the Department on June 12, 2014. These recommendations may be viewed 
on the NFAC's website, http://www.dot.gov/nfac.

    Question 6. You have obviously worked on freight issues for a long 
time in your career. Are there things that the NFAC recommended that 
you think got left out of the GROW AMERICA proposal?
    Answer. The NFAC proposed developing additional recommendations for 
the DOT regarding streamlining efforts for state, local, MPO, and 
private planning, developing goals related to freight safety, and 
workforce development in the freight sector. The Department is 
currently establishing NFAC workgroups on each of these topics and 
expects additional recommendations by the end of the year.
    Additionally, the NFAC is scheduled to meet on July 15 and 16 to 
evaluate and discuss elements of a freight program in the next 
reauthorization bill. We expect to receive additional input from the 
NFAC on what should be incorporated into a freight program and we would 
be happy to share those comments when they are completed.
    Importantly, given your own role as a leader on freight mobility 
issues in the Senate, we would welcome the opportunity to sit down and 
hear your views on any critical elements that should be augmented to 
our proposal as part of the legislative process.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Peter M. Rogoff
    Question 1. Mr. Rogoff, the Administration's proposed GROW America 
bill includes a proposal to give the National Highway Traffic Safety 
Administration (NHTSA) the authority to regulate navigation apps on 
smartphones and other electronic devices and products that can be 
brought into vehicles. How would NHTSA enforce such restrictions in 
practice?
    Answer. The GROW AMERICA Act has many important provisions intended 
to enhance safety across our national transportation network. However, 
it does not include a provision to restrict electronic devices and 
products that can be brought into vehicles. As I understand it, the Act 
seeks to address a different issue, namely NHTSA's authority to rely 
upon industry consensus process standards in regulating vehicle 
electronics.

    Question 1a. Does NHTSA have the structure to oversee an 
innovative, dynamic and rapidly changing industry as navigation apps 
proliferate and grow in sophistication?
    Answer. While these technologies are expanding widely and quickly, 
NHTSA must continue its longstanding efforts to identify and analyze 
the safety risks associated with these and other new types of 
automotive equipment that could be brought to the market. Where 
unreasonable risks are identified, NHTSA will engage the manufacturers 
and consumers as it always has to ensure safety.

    Question 1b. How do you respond to the concern that restrictions 
and excessive regulation will stunt innovation in a space where 
innovation has flourished?
    Answer. NHTSA and the rest of DOT have no interest in engaging in 
excessive regulation or stunting innovation. This area of innovation 
has been met with strong consumer approval and has provided consumers 
with many new opportunities. NHTSA will always be focused on 
maintaining safety, first and foremost, and any regulations in this 
area will seek to capture the appropriate balance to provide consumers 
with the products they desire while maintain safety on our highways.

    Question 2. Mr. Rogoff, according to news reports, even if NHTSA 
obtains the authority from Congress, the agency has no immediate plans 
to issue rules to regulate navigation apps on smartphones and other 
devices, which begs the question of why such authority is needed in the 
first place. How do you respond to the concern that this effort to 
establish authority over navigations apps is just another regulatory 
power grab by another Federal agency?
    Answer. NHTSA and the rest of DOT have no interest in seeking 
unnecessary authority. As I understand it, NHTSA's existing authority 
covers these devices. And, in fact, there are no agency plans to issue 
regulations for apps. The proposed provision in the GROW AMERICA Act 
seeks to address a different issue--NHTSA's ability to rely upon 
industry-consensus process standards when it regulates on-board 
electronics and software in vehicles. I'm sure NHTSA would welcome the 
opportunity to brief the Committee in greater detail on this issue if 
that would be helpful.

    Question 3. Mr. Rogoff, one of the recurring themes we seem to 
discuss on the Committee for every mode of transportation is fatigue--
from hour of service requirements to the impact of sleep apnea. While 
every mode of transportation is unique, it does seem that some basic 
issues overlap, including the correlation between tired operators and 
increased safety risks. Do you know if the DOT has considered tackling 
the issue of fatigue in a more global manner, especially with respect 
to research? If so, how? If not, is that something you would commit to 
considering?
    Answer. You are quite correct that the fatigue issue cut across all 
parts of the DOT. And the Department should be using the best science 
available on fatigue when issuing any regulations or safety advisories 
across the Department. The Department must continue to stay up to date 
in this area because the stakes are so high. Every year, an estimated 
one million roadway crashes and near-misses are likely fatigue-related, 
with thousands of people losing their lives and being injured. These 
tragedies impact families all across the Nation every day. As such, the 
DOT has worked to tackle fatigue across the Department. New rules have 
been issued both by the Federal Aviation Administration (FAA) and the 
Federal Motor Carrier Safety Administration (FMCSA). These are 
important areas of progress. DOT will continue to monitor the impact of 
these rules both on the impacted industries and on safety to ensure 
that we are capturing the right balance. And we will continue to bring 
the best science to bear upon these efforts.

    Question 4. Mr. Rogoff, one concern that we often hear about is how 
each mode can sometimes be stove-piped within DOT, and how 
communication between the modes can be difficult. Is this something 
that you have experienced as modal administrators? If so, what steps 
would you take to prevent this in the future should you be confirmed?
    Answer. Yes. I certainly experienced the issue of stovepiping 
within the Department when I served as a modal administrator. I believe 
one of the critical roles of the Under Secretary position is to 
eliminate or minimize that tendency wherever and whenever it appears. 
Regular communication between modes at all levels of the organization 
can and has helped address this issue. It can also help avoid 
duplication and help achieve efficiencies to benefit the taxpayer. Your 
questions regarding fatigue above cites an important example where 
individual modes should be able to benefit from the work done in other 
modes when confronting the safety challenge within their own mode. If 
confirmed to the Under Secretary position, I will work diligently to 
push each of the modes to share their experience and expertise in the 
many cross-cutting areas that impact the Department so that the 
Department can speak with one voice and avoid unnecessary expense.

    Question 5. I am concerned about reports regarding the National 
Roadside Survey of Alcohol and Drugged Driving that revealed motorists 
complaints of being forced off the road and asked to provide breath, 
blood and saliva samples. While combating impaired driving is a 
priority, and while survey data provide important insights to 
policymakers regarding the scope of this problem, it is important that 
the methods employed by NHTSA and its contractors respect the civil 
liberties of our Nation's motorists. Survey participation should be 
voluntary and not feel coerced as some have claimed.
    Can you explain how the survey was conducted and what procedures, 
if any, NHTSA employs to ensure that its testing activities--both those 
conducted by the agency itself and those conducted through third-party 
contractors--are constitutional and as unobtrusive as possible?
    Answer. Whenever the DOT engages the public for information 
gathering purposes, it is essential that the public be treated with 
dignity and that privacy rights are fully respected and protected. My 
understanding it that NHTSA worked closely with State highway safety 
officials when developing the methodology the National Roadside Survey 
of Alcohol and Drugged Driving in order to ensure that the survey be 
conducted in such a way. The survey was conducted by an experienced 
non-profit research organization under contract to NHTSA. Trained 
researchers collected the data from volunteer participants, but only 
after specifically informing each participant that the survey was 
voluntary and anonymous, and that the participant was free to 
discontinue participation at any time. The survey followed a strict 
protocol that was reviewed and approved by an Institutional Review 
Board (IRB) for the Protection of Human Subjects. IRB review is 
designed to ensure that subjects of federally-funded research are 
treated with dignity, respect, and courtesy, that their participation 
is voluntary, that there is no coercion, and that volunteers give 
informed consent to participate.
    Even before entering the survey site, motorists were faced with 
large signs in the roadway alerting them to the ``Paid Voluntary 
Survey'' ahead. The survey protocol makes sure that participants were 
informed in multiple ways of the voluntary and anonymous nature of the 
survey. The survey has been conducted by NHTSA on a periodic basis for 
several decades. It is a vital source of data on the presence and 
prevalence of alcohol and drug use by drivers on the road, and critical 
to the Department's efforts to reduce impaired driving.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                           Marcus D. Jadotte
    Question. Mr. Jadotte, I note that your biography includes several 
instances of political consulting via your consulting company, Potomac 
Wave LLC, representing the Florida Democratic Party in 2012, the DCCC 
in 2008, the Friends United PAC in 2012, and Terry McAuliffe for 
Governor in 2009. You also served as a senior advisor to Obama for 
America (OFA) in 2012. In the position to which you have been nominated 
at the Department of Commerce, there could be opportunities to favor 
certain businesses--or at least certain sectors--over others.
    In light of your past political activity, will you commit to 
approach efforts to help U.S. business in a scrupulously nonpartisan 
way?
    Answer. I am committed to helping American businesses succeed. If 
confirmed, I will approach all of my work at the United States 
Department of Commerce in a nonpartisan fashion.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Robert S. Adler
    Question 1. In January and July 2011, President Obama issued 
Executive Orders 13563 and 13579 calling on regulatory agencies to 
``afford the public a meaningful opportunity to comment'' during the 
rule-making process, ``use the best, most innovative, and least 
burdensome tools for achieving regulatory ends'' and to ``take into 
account benefits and costs [of regulation], both quantitative and 
qualitative.'' The President also asked independent regulatory agencies 
to formulate plans for the retrospective review of existing regulations 
in order to ``determine whether any such regulations should be 
modified, streamlined, expanded, or repealed so as to make the agency's 
regulatory program more effective or less burdensome in achieving 
regulatory objectives.''
    Please provide a detailed explanation of what steps the CPSC has 
taken to comply with these Executive Orders.
    Answer. Although as an independent agency, the Consumer Product 
Safety Commission is not legally obligated to comply with Executive 
Orders, we always strive within the framework of our governing statutes 
to follow the spirit of Presidential Executive Orders. With respect to 
Executive Orders 13563 and 13579, in order for me to respond 
adequately, I need to briefly review the history of the CPSC's 
rulemaking. I do so to make the point that we have undertaken both the 
promulgation of regulations and their retrospective review in the full 
spirit of the policies incorporated in the Executive Orders. So, I 
begin with several observations:

  1.  Since 1981, the CPSC has been required under amendments to the 
        Consumer Product Safety Act (and the other acts it enforces) to 
        conduct an extensive cost-benefit analysis when we promulgate 
        safety rules. Under these amendments, our cost-benefit approach 
        is as comprehensive, if not more so, as that set forth in any 
        Executive Order issued by the Office of the President.

  2.  Over the years, the CPSC has promulgated extremely few mandatory 
        safety rules requiring cost-benefit analyses, a grand total of 
        nine in thirty three years--or about one every 3.5 years--
        opting instead to work with the voluntary standards sector and 
        to negotiate individual Corrective Action Plans for the recall 
        of specific hazardous products.

  3.  Under the Regulatory Flexibility Act of 1980, the CPSC chose to 
        undertake a retrospective review of every safety rule under its 
        jurisdiction from its beginning, not just those identified as 
        having a ``substantial impact on a number of small entities'' 
        (and, therefore, requiring a mandatory review).

  4.  In addition to the retrospective review of agency regulations 
        mandated by the Regulatory Flexibility Act, the CPSC has 
        voluntarily undertaken a comprehensive review of its 
        regulations in recent years in a spirit consistent with 
        Executive Order 13563 and anticipates continuing to do so in 
        the future.

    Least Burdensome Tools: With respect to our utilization of the 
least burdensome tools for achieving our regulatory ends, in 1981, 
Congress added a broad and comprehensive set of cost-benefit 
requirements to the Consumer Product Safety Act (and the other acts 
enforced by the CPSC) for consumer product safety rules promulgated by 
the CPSC. These provisions, contained in section 9 of the CPSA, easily 
match, if not surpass, in their stringency and scope the cost-benefit 
provisions of the various Executive Orders on cost-benefit analysis 
recommended by the Office of Management and Budget. Among other things, 
they require the CPSC, prior to promulgating almost every safety rule, 
to:

  <bullet> Make findings with respect to the degree and nature of the 
        risk of injury the rule is designed to eliminate or reduce; the 
        approximate number of consumer products, or types or classes 
        thereof, subject to such rule; the need of the public for the 
        consumer products subject to such rule, and the probable effect 
        of such rule on the utility, cost, or availability of such 
        products to meet such need; and any means of achieving the 
        objective of the order while minimizing adverse effects on 
        competition or disruption or dislocation of manufacturing and 
        other commercial practices consistent with the public health 
        and safety.

  <bullet> Prepare a final regulatory analysis of the rule containing 
        the following information: a description of the potential 
        benefits and potential costs of the rule, including costs and 
        benefits that cannot be quantified in monetary terms, and the 
        identification of those likely to receive the benefits and bear 
        the costs; a description of any alternatives to the final rule 
        which were considered by the Commission, together with a 
        summary description of their potential benefits and costs and a 
        brief explanation of the reasons why these alternatives were 
        not chosen; a summary of any significant issues raised by the 
        comments submitted during the public comment period in response 
        to the preliminary regulatory analysis, and a summary of the 
        assessment by the Commission of such issues.

  <bullet> Find that the rule (including its effective date) is 
        reasonably necessary to eliminate or reduce an unreasonable 
        risk of injury associated with the product; that the 
        promulgation of the rule is in the public interest; in the case 
        of a rule declaring the product a banned hazardous product, 
        that no feasible consumer product safety standard under the 
        CPSA would adequately protect the public from the unreasonable 
        risk of injury associated with the product; in the case of a 
        rule which relates to a risk of injury with respect to which 
        persons who would be subject to such rule have adopted and 
        implemented a voluntary consumer product safety standard that 
        compliance with such voluntary consumer product safety standard 
        is not likely to result in the elimination or adequate 
        reduction of such risk of injury; or it is unlikely that there 
        will be substantial compliance with such voluntary consumer 
        product safety standard.

  <bullet> Find that the benefits expected from the rule bear a 
        reasonable relation to its costs and that rule imposes the 
        least burdensome requirement, which prevents or adequately 
        reduces the risk of injury for which the rule is being 
        promulgated.

  <bullet> Give interested persons an opportunity for the oral 
        presentation of data, views, or arguments, in addition to an 
        opportunity to make written submissions.

    Speaking from personal experience, I note that the analysis and 
findings contained in section 9 of the CPSA (and similar provisions in 
other acts the agency enforces) have resulted in rulemaking proceedings 
that span years of effort and cost the agency millions of dollars. I do 
not believe that one could reasonably expect any more analysis by a 
regulatory agency, especially one with such limited resources that is 
directed to save the lives of young children.
    Making The Agency's Regulatory Program More Effective or Less 
Burdensome in Achieving Regulatory Objectives: Both in response to the 
extremely detailed, time-consuming requirements in section 9 of the 
CPSA and because of its success in working with the voluntary standards 
sector, the CPSC has opted, wherever possible, to look to the 
promulgation and strengthening of voluntary standards as an alternative 
to developing mandatory standards. The Commission, of course, has 
always retained the option to undertake mandatory rulemaking where 
voluntary standards have proven to be inadequate. As I noted, the 
burdens of mandatory rulemaking have resulted in the Commission's 
promulgation of only nine standards in the 33 years since the 1981 
amendments. In sharp contrast, the Commission has actively participated 
in the development or enhancement of hundreds of voluntary standards in 
that same time period. As I shall mention, the Commission's infrequent 
promulgation of mandatory rules and reliance on voluntary standards has 
not gone without criticism in Congress, especially when it comes to 
protecting the lives and safety of young children.
    There are limits on the use of voluntary standards in protecting 
American consumers, but they have, of necessity, become important tools 
in CPSC's approach to product safety.
    CPSC and the Regulatory Flexibility Act (RFA): Section 610 of the 
RFA requires agencies to periodically review rules that have a 
significant impact on a substantial number of small entities. Each 
agency is required to publish a plan demonstrating its approach to its 
review. Accordingly, as far back as September 1981, the CPSC published 
its plan for reviewing existing rules under the RFA, as well as 
subsequent rules within 10 years of their publication.
    The CPSC has gone far beyond the requirements of the RFA in its 
plan. In fact, the agency not only has solicited and reviewed comments 
for rules that we have determined would have a significant economic 
impact on a substantial number of small entities, we have actually 
conducted a review of every safety rule under our jurisdiction. In 
addition to soliciting comments from the general public in the Federal 
Register, we have directly contacted affected parties and their trade 
associations through appropriate trade publications. Moreover, the 
Commission has made an effort personally to contact those persons who 
submitted comments during the earlier rulemaking proceedings. Based on 
the information received in the comments, as well as other information 
available to the Commission, CPSC staff has then conducted an 
assessment of the degree of economic impact on small entities and 
sought to identify appropriate actions required to minimize the impact 
on those entities consistent with the objective of the statute under 
which the regulations were issued.
    Under section 610(b) of the RFA, the Commission has sought comments 
on, and reviewed its rules according to, the following factors: (1) the 
continued need for the rule; (2) the nature of complaints or comments 
received concerning the rule from the public; (3) the complexity of the 
rule; (4) the extent to which the rule overlapped, duplicated, or 
conflicted with other Federal rules (and the Commission also 
considered, to the extent feasible, the extent to which the rule 
overlapped, duplicated, or conflicted with state and local government 
rules); and (5) the length of time since the rule had been evaluated or 
the degree to which technology, economic conditions, or other factors 
had changed in the area affected by the rule.
    Since 1981 and the passage of the RFA, our agency has carefully 
reviewed its regulations. This effort has continued over the last 30-
plus years. On the whole, I believe these reviews have been good both 
for consumers and the regulated community. Under the RFA (and other 
provisions of the CPSA requiring rule reviews), the Commission has 
issued reports involving 17 rules under the CPSA, as well as nine rules 
promulgated under the Federal Hazardous Substances Act (FHSA), eight 
rules under the Flammable Fabrics Act (FFA), and four rules under the 
Poison Prevention Packaging Act (PPPA).
    Voluntary Regulatory Review Efforts: In addition to the rule 
reviews required by the RFA, the Commission also has recently 
voluntarily undertaken efforts to review its regulations in a manner 
consistent with the spirit of Executive Order 13563 and similar 
Executive Orders. Specifically, almost ten years ago, the Commission 
published a notice in the Federal Register announcing a pilot rule 
review program. In the notice, the agency committed itself to using 
OMB's Program Assessment Rating Tool (PART) to help provide a 
consistent approach to rating programs across the Federal Government.
    In the notice, the Commission listed four rules for review, and 
asked for public comment on each regulation. Specifically, the notice 
asked: (1) whether the regulation is consistent with CPSC program 
goals, (2) whether the regulation is consistent with other CPSC 
regulations, (3) whether the regulation is current with respect to 
technology, economic or market conditions, and other mandatory or 
voluntary standards, and (4) whether the regulation could be 
streamlined to minimize regulatory burdens, particularly those 
affecting small businesses.
    Out of this pilot program, the Commission then conducted annual 
reviews that looked at four to six rules per year in 2005, 2006, and 
2007. From this review, the CPSC clarified its rules regarding 
standards for carpets, rugs and bicycles. In addition, the Commission 
also recently established projects to examine amendments to the 
electrical toy and cigarette and multi-purpose lighter rules.
    We continue the review process today. In the coming years, staff 
will be looking at ways to maximize openness and public participation, 
as well as ways to most effectively target rules that may require 
revision, repeal, or strengthening to protect the public against the 
risk of unreasonable danger from consumer products. If re-confirmed, I 
assure you that I will follow this process closely.
    In addition, specifically please:

    Question 2. Identify existing CPSC regulations that you believe to 
be outmoded, ineffective, or excessively burdensome.
    Answer. As I have noted above, CPSC staff is currently engaged in a 
comprehensive review of all existing agency rules pursuant to the 
mandate in the Regulatory Flexibility Act. I am comfortable with the 
staff approach, which is a methodical and thorough review of agency 
rules.

    Question 2a. List all of what you believe to be outdated or 
obsolete reporting requirements for the CPSC.
    Answer. Like all other Federal agencies and departments, the CPSC 
faces a multitude of requirements for filing reports with the Congress 
and OMB. I believe that most of these reporting requirements provide 
those who oversee us with the necessary information to maintain 
accountability over the agency. To the extent that our reports are 
carefully scrutinized, I believe that they serve a useful purpose.
    I support periodic review of required reports to identify outdated, 
obsolete, or duplicative reporting requirements. I know the Government 
Performance and Results Modernization Act directed the Office of 
Management and Budget to provide to Congress a list of Congressionally-
mandated reports that agencies believe require Congressional 
modification. In compiling a list of reports, OMB sought the advice of 
agencies and departments including the CPSC. CPSC staff identified two 
reports. Specifically, the CPSC Inspector General recommended the 
consolidation of two duplicative annual reports regarding Inspector 
General reviews of improvements and employee complaints concerning the 
CPSC. This recommendation was also included in S. 2109, the Government 
Reports Elimination Act of 2014, introduced on March 11, 2014 by 
Senator Mark Warner, and cosponsored by Senators Claire McCaskill and 
Kelly Ayotte.

    Question 2b. Provide a plan to this Committee within 60 days 
outlining specific actions you plan to take to ensure that the CPSC 
aggressively implements burden reduction opportunities and a timetable 
for when those actions will occur.
    Answer. During my time as Acting Chairman I have taken specific 
actions to attempt to reduce the cost of third-party testing 
requirements consistent with assuring compliance with any applicable 
consumer product safety rule, ban, standard, or regulation. These 
actions have included holding an all-day forum, on April 3, 2014, on 
burden reduction open to all stakeholders. At this forum, we heard 
numerous thoughtful nominations of ideas from our stakeholders for 
product determinations. Unfortunately, because of the highly technical 
nature of many of these suggestions, CPSC scientific staff must 
carefully test the claims made by the participants. As I mentioned at 
my re-nomination hearing, one of the most promising suggestions for 
exempting phthalate testing based on the hardness of plastics has been 
shown not to be accurate. Following the forum, several stakeholders 
asked the Commission to reopen the record so they could submit more 
information to our staff for consideration in making the scientific 
case for determinations. The record will remain open until July 16, 
2014, and I look forward to reviewing the comments and ideas we 
receive.
    In addition, last month, I introduced an amendment to the 
Commission's 2014 Mid-Year Review and Proposed Operating Plan 
Adjustments to examine potential ways to reduce third-party testing 
costs through determinations consistent with assuring compliance with 
underlying requirements. The amendment was adopted. It provides funds 
for a study to assist the Commission in determining whether untreated 
wood or other natural materials are materials that do not, and will 
not, contain any of the eight specific heavy metals in levels that 
exceed allowable limits listed in the mandatory Toy Standard, ASTM F-
963. Because wood was on the list of determinations for lead first 
published in August 2009 in the Federal Register, and currently found 
at 16 CFR Sec. 1500.91, that identify those products or product 
components that will never contain violative amounts of lead, I am 
hopeful that this study will find similar results for the eight heavy 
metals listed in ASTM F-963.
    In terms of steps I would take upon re-confirmation as a 
Commissioner, I look forward to working with my colleagues, 
particularly Chairman-nominee, Elliot Kaye, to continue to seek ways to 
reduce third-party testing requirements consistent with assuring 
compliance with any applicable consumer product safety rule, ban, 
standard, or regulation. During his nomination hearing, he agreed to 
provide such a plan 60 days from his confirmation as Chairman on this 
topic, and I assure the Committee I will work closely with Mr. Kaye on 
this plan.

    Question 2c. Provide detailed recommendations on how you would 
propose to increase public participation in CPSC's rulemaking process, 
and how you would propose to reduce uncertainty in the CPSC's 
rulemaking process.
    Answer. I believe that the CPSC's approach to public participation 
is among the most comprehensive in the Federal Government. Since the 
agency was first established, we have stressed the importance of 
promoting public participation. Here are some examples of the ways that 
the agency has addressed this important issue:

  <bullet> Open Meetings Policy: Unlike most other agencies, whenever 
        CPSC employees meet with outside parties on matters of 
        substantial interest, we require that the meetings be announced 
        in advance in our public calendar and provide that any member 
        of the public, including the press, who wishes to can attend 
        the meeting. See 16 CFR Sec. 1012, et seq.

  <bullet> Freedom of Information Act: CPSC has one of the most liberal 
        FOIA policies in the Federal Government. As part of that 
        policy, the agency states that even records that may be 
        exempted from disclosure will be made available as a matter of 
        discretion when disclosure is not prohibited by law or is not 
        against the public interest. See 16 CFR Sec. 1015, et seq.

  <bullet> Oral Presentations in Regulatory Proceedings: Unlike most 
        other regulatory agencies, rulemaking under Section 9 of the 
        Consumer Product Safety Act (15 U.S.C. 2058(d)(2)) and Section 
        4 of the Flammable Fabrics Act (15 U.S.C. 1193(d)) require the 
        agency to provide interested persons an opportunity for the 
        oral presentation of data, views, or arguments in addition to 
        the opportunity to make written submissions. See 16 CFR 
        Sec. 1052.

  <bullet> Publicly Available Database: Pursuant to section 6A of the 
        Consumer Product Safety Improvement Act of 2008, the 
        Commission, in March 2011, established a user-friendly product 
        safety database in which members of the public can report and 
        read about risks of harm associated with consumer products. See 
        16 CFR Sec. 1102, et seq.

  <bullet> Annual Priorities Public Hearing: Section 4(j) of the 
        Consumer Product Safety Act (CPSA) (15 U.S.C. 2053(j)) requires 
        the Commission to establish an agenda for action under the laws 
        it administers and, to the extent feasible, to select 
        priorities for action at least 30 days before the beginning of 
        each Fiscal Year. Section 4(j) of the CPSA provides further 
        that before establishing its agenda and priorities, the 
        Commission must conduct a public hearing and provide an 
        opportunity for the submission of comments.

  <bullet> Contributions to Costs of Participants in Development of 
        Consumer Product Safety Rules: In appropriate cases, the 
        Commission will contribute to the costs of those who 
        participate in its rulemaking proceedings, particularly where 
        consumer participants need to acquire technical expertise. See 
        16 CFR Sec. 1105.

    With respect to reducing uncertainty, I believe that the agency 
maintains an effective, open line of communication to the regulated 
community, both in communicating its intentions and in listening to 
feedback from this community. I do not see that our approach to the 
regulatory process promotes substantial uncertainty. One specific 
approach that I believe Congress could take to reduce uncertainty in 
our processes would be to provide greater flexibility for CPSC 
rulemaking. At the moment, whenever we follow the burdensome procedures 
in the various acts we enforce, years may pass before we enact a rule, 
and that, no doubt, leaves many stakeholders in a state of uncertainty.

    Question 2d. Provide detailed recommendations on how you would 
propose to improve coordination with other Federal agencies to 
eliminate redundant, inconsistent, and overlapping regulations.
    Answer. The CPSC on a regular basis enters into Memoranda of 
Understanding (MOUs) with fellow agencies such as the Environmental 
Protection Agency, the Food and Drug Administration, the Occupational 
Safety and Health Administration, and Customs and Border Protection, to 
coordinate our regulatory approaches to the extent permitted by our 
respective laws. On the whole, I think these agreements have been quite 
successful in eliminating redundant, inconsistent, and overlapping 
regulations.

    Question 3. Through passage of H.R. 2715 in August 2011, Congress 
mandated that the CPSC issue regulations to reduce third-party testing 
costs consistent with assuring compliance with rules, bans, standards 
and regulations. The deadline for issuing those Congressionally-
mandated regulations was August 2012. H.R. 2715 clearly directs the 
agency to reduce unnecessary testing burdens that are killing small 
businesses and have prevented small businesses from entering into the 
children's product market. This should be an agency priority.
    At a recent hearing on the CPSC midyear review of the budget, your 
colleague Commissioner Buerkle proposed an amendment to develop a plan 
to reduce third-party testing burdens. Each of these proposed rules 
would amend well-functioning regulations that have been in place for 
years and would advance safety. She stated that she was extremely 
disappointed in the agency's progress to fulfill H.R. 2715's mandate to 
provide meaningful relief to reduce third-party testing burdens. You 
have stated time and again that the Commission does not have the 
resources to reduce testing burdens, and yet the Commission has 
recently proposed three regulations that are not congressionally 
mandated.
    Why has the Commission failed to responsibly respond to a 
Congressional mandate that it reduce the third-party testing burden?
    Answer. To the best of my knowledge, I have never stated that the 
Commission does not have the resources to reduce testing burdens. I 
have also stated that burden reduction is and remains a high priority 
item for me. Further, I have said that we are a very small agency with 
limited resources for the many worthy projects, including burden 
reduction, before us.
    As I stated before the Committee during my June 11 re-nomination 
hearing, Congress, in section 2(a)(3) of P.L. 112-28, did not simply 
direct CPSC to address third-party testing burden reduction. Instead, 
the mandate in that law was, within a year, to seek public comment on 
opportunities ``to reduce the cost of third-party testing requirements 
consistent with assuring compliance with any applicable consumer 
product safety rule, ban, standard, or regulation.'' We have done that 
and have dedicated many staff months to assessing the various 
approaches suggested in the law and in the many comments we received in 
response to our Requests for Information (RFI) published in the Federal 
Register.
    A solid consensus has emerged from the many commenters who have 
responded to our requests for information. Most see little potential 
burden reduction in Commission initiatives that retain third-party 
testing costs. Instead, they seek to have the Commission expand on a 
list of determinations for lead first published in August 2009 in the 
Federal Register and currently found at 16 CFR Sec. 1500.91. This list 
identifies those products or product components that will never contain 
violative amounts of lead. Once a determination is made, such products 
or product components need not be subject to third-party testing. 
Ideally, based on technical and scientific data, we will be able to 
expand this list both to include more materials and to also find 
materials that are used in the manufacture of children's products that 
will never contain violative amounts of phthalates or the eight heavy 
metals found in ASTM F-963.
    The Commission, on April 3, 2014, held an all-day forum on burden 
reduction and heard numerous thoughtful nominations from our 
stakeholders for product determinations. Unfortunately, because of the 
highly technical nature of many of these suggestions, CPSC scientific 
staff must carefully test the claims made by the participants. As I 
mentioned at my re-nomination hearing, one of the most promising 
suggestions for exempting phthalate testing based on the hardness of 
plastics has been shown not to be accurate. Nevertheless, the 
Commission and its staff are proceeding with our work and we hope to 
provide testing relief as we confirm the scientific validity of the 
various suggestions.
    In addition, last month, I introduced an amendment to the 
Commission's 2014 Mid-Year Review and Proposed Operating Plan 
Adjustments to examine potential ways to reduce third-party testing 
costs through determinations consistent with assuring compliance with 
underlying requirements. The amendment was adopted. It provides funds 
for a study to assist the Commission in determining whether untreated 
wood or other natural materials are materials that do not, and will 
not, contain any of the eight specific heavy metals in levels that 
exceed allowable limits listed in the mandatory Toy Standard, ASTM F-
963. Because wood was on the list of determinations for lead first 
published in August 2009 in the Federal Register, and currently found 
at 16 CFR Sec. 1500.91, that identify those products or product 
components that will never contain violative amounts of lead, I am 
hopeful that this study will find similar results for the eight heavy 
metals listed in ASTM F-963.

    Question 4. In 2010 the agency issued an interpretation of 
unblockable drain (in the VGB Pool & Spa Safety Act) which was revoked 
17 months later because you decided to change your vote on that matter. 
The change in interpretation was counter to the advice of the agency 
technical and legal staff and was done without notifying the public or 
seeking input from those who had relied on and expended resources 
complying with the earlier interpretation. I am deeply troubled that 
this shows disregard for process and does not allow those impacted by a 
decision to have a chance to weigh in. Pool owners spent their limited, 
and in many cases public funds, complying with the Federal mandate only 
to have their efforts negated by the reversal and without explanation 
or process. Are there other examples that you can give me where one 
commissioner can effect so drastic a reversal in policy?
    Answer. On December 19, 2007, Congress enacted the Virginia Graeme 
Baker Pool and Spa Safety Act (VGBA'' or ``the Act''). The purpose of 
the Act was to prevent child drowning and entrapment in swimming pools 
and spas. Among other things, the Act imposed requirements for 
secondary anti-entrapment devices on most public pools and spas. On 
April 2, 2010, I cast a vote interpreting the term ``unblockable 
drain'' as permitting public pools and spas with an ``unblockable drain 
cover'' to comply with the Act without the necessity of installing a 
secondary anti-entrapment device. After long and painful 
consideration--and after many meetings with numerous stakeholders, 
including trade associations, pool manufacturers, pool installers, 
drain cover manufacturers, and Safety Vacuum Release System (SVRS) 
manufacturers--I decided to join my colleagues in withdrawing the 
previous interpretation and establishing a new interpretation of the 
term ``unblockable drain.'' Under this new interpretation, the 
Commission would not allow a removable unblockable drain cover to 
render a drain unblockable.
    Under the VGBA, an ``unblockable drain'' is defined as a ``drain of 
any size and shape that a human body cannot sufficiently block to 
create a suction entrapment hazard.'' However, in preparation for the 
vote on April 2, 2010, I could not find additional guidance in the VGBA 
or its legislative history indicating whether Congress intended that 
that drains with unblockable drain covers could be considered 
``unblockable drains.'' So, when I attempted to interpret the term, I 
found myself drawn to the definition that made the most sense to me at 
the time--a definition that allowed the use of an unblockable drain 
cover to render a drain unblockable.
    After the April 2010 vote, however, I received over 140 letters 
from citizens and members of Congress, including those who were 
intimately involved in drafting the statute, who disagreed with my 
interpretation of the statute. The members of Congress insisted that 
they did not intend that drains with unblockable drain covers be 
considered unblockable drains. In addition, I met twice with 
Representative Debbie Wassermann Schultz, unquestionably one of the 
members of Congress most involved in writing VGBA, who reiterated this 
position.
    I understand that consumers and industry alike need stability in 
the marketplace. They look to the decisions of regulators and rely on 
those decisions when purchasing, using, and manufacturing consumer 
products. Although I was hesitant at first to reexamine my previous 
vote, as a policy maker, I believe it is my duty to listen to all 
points of view, analyze all relevant data, and, if appropriate, 
reconsider my vote. So I took it upon myself to reexamine both the 
safety considerations associated with unblockable drain covers and the 
legislative history of the VGBA.
    I spent considerable amount of time comparing the safety of large 
unblockable drain covers to the safety of smaller, perhaps less sturdy, 
drain covers with a secondary anti-entrapment device. When I cast my 
vote in April 2010, I believed that large unblockable drain covers 
seemed to provide a greater measure of safety than smaller drain covers 
with secondary anti-entrapment systems. I reached that conclusion based 
on my understanding that a properly installed unblockable drain cover 
protects swimmers from a wide variety of entrapment hazards.
    In addition, I believed, if required to install a secondary system, 
the vast majority of public pools would opt for an anti-entrapment 
device called a Safety Vacuum Release System, or SVRS, and a small 
drain cover. The reason was simple: an SVRS, at the time, seemed the 
cheapest secondary anti-entrapment system on the market. I had safety 
concerns regarding the use of an SVRS. Unfortunately, an SVRS will not 
engage if a swimmer's hair becomes entangled in a drain nor will it 
trigger quickly enough in some instances to prevent a swimmer having 
his or her organs eviscerated from sitting on a drain. In other words, 
the usefulness of an SVRS is essentially limited to those instances in 
which a swimmer's body fully blocks a drain. By contrast, an 
unblockable drain cover carefully and properly installed would prevent 
any form of entrapment that a drain might cause.
    What made the policy call so difficult, however, was the fact that 
an unblockable drain cover can operate only if it is properly installed 
and stays on the drain. In other words, if a drain cover is removed and 
there is no secondary system like an SVRS then swimmers would be at 
risk of entrapment in the drain below. Unfortunately, we did not have 
any significant data regarding the likelihood of drain covers coming 
off or staying on. But, as critics of my previous vote stated, all 
drain covers come off from time to time for seasonal maintenance--a 
point I freely concede.
    Based on the communications I received and the discussions I had 
with many stakeholders, I became persuaded that my interpretation was 
not what many Members intended when they wrote the law. Given the close 
call between the safety implications and/or benefits of the two 
interpretations and my belief that my previous interpretation was 
contrary to Congressional intent, I cast my vote to reinterpret the 
term ``unblockable drain.''
    I am aware that some pool owners purchased and installed 
unblockable drain covers in reliance on the Commission's previous 
interpretation. It is my understanding, however, that the number who 
did so was quite limited because compliant unblockable drain covers 
turned out to be as expensive--or more expensive--as the SVRS systems. 
I should add, that in order to give these individuals sufficient time 
to come into compliance with our new interpretation, I recommended, and 
the Commission agreed, to stay enforcement of our new interpretation 
until the start of the pool season the following year.

    Question 4a. Are you concerned by the precedent you have set that 
allows for one commissioner moving from minority to majority to change 
the outcome of a statutory interpretation months or even years after 
the issue has been decided, and do it without public notice and 
comment?
    Answer. Although interpretive rules, under the Administrative 
Procedure Act, do not require notice-and-comment procedures, I believe 
that my many open meetings over the course of months leading up to the 
vote provided most stakeholders with ample notice that I was re-
considering my vote. The prospect of a Commissioner changing his or her 
mind during the course of service on the Commission is a real one. For 
example, at about the same time I changed my vote on unblockable drain 
covers, Chairman Tenenbaum changed her vote on whether vacation rental 
homes with pools could fall within VGBA's jurisdiction. Obviously, such 
changes should be approached with great care and thought. I regret any 
disruption my changed vote caused in the market and repeat my apology 
to anyone adversely affected.

    Question 5. Did you speak with one or more members of Congress on 
the issue of unblockable drains, as defined by the VGB Pool & Spa 
Safety Act, before you decided to reverse your decision? If so, please 
describe such conversations.
    Answer. As stated in my answer above, I received many letters from 
members of Congress urging me to re-consider my vote on unblockable 
drain covers. In addition, as described above, I met twice with 
Congresswoman Debbie Wasserman Schultz, one of the primary authors of 
the Virginia Graeme Baker Pool and Spa Safety Act. Congresswoman 
Wasserman Schultz provided me with an extensive narrative about events 
leading up to passage of the VGBA. As one of the original co-sponsors 
of the law and a member from Florida with deep concerns about drownings 
in her district, she had a clear understanding about the legislative 
intent behind the law.

    Question 6. There is a perception by many that CPSC has become too 
political in its approach to product issues. How will you ensure that 
the CPSC appropriately considers science-based information in the 
Commission's decision-making process?
    Answer. One of best features about the CPSC is its outstanding 
staff of technical experts, including engineers, epidemiologists, 
chemists, physicists, communications experts and attorneys. This 
enables the agency to maintain a scientific and data-based approach to 
addressing product safety issues. I do not believe product safety 
should ever be based on partisan politics. In fact, most of the 
decisions at the agency--roughly 85 percent--are unanimous votes in 
accordance with staff recommendations. Of course, reasonable minds can 
disagree regarding policy options for regulation. Different policy 
makers can look at the same injury and fatality data and reach opposite 
conclusions about whether those data demonstrate that an unreasonable 
risk of injury exists. That is a normal aspect of how collegial bodies 
with Commissioners having different policy perspectives operate.

    Question 7. Mr. Adler, as I noted at the hearing, we all want to 
ensure the safety of products in the marketplace. Still, the Consumer 
Product Safety Act is a carefully crafted statute that balances public 
safety and the rights of individuals engaged in lawful commerce. In the 
Buckyballs case, when the company did not agree to a voluntary recall, 
the agency sued to mandate a recall. Yet, rather than going to court to 
seek an injunction against the sale of the product during the 
litigation, as the law allows, the agency contacted retailers and asked 
them to remove the product from shelves, thereby nearly guaranteeing 
the bankruptcy of the company. If the CPSC was concerned about the 
dangers of the product during the litigation, why did the agency not 
follow the law and go to court to seek a court approved injunction?
    Answer. The law allows the Commission a variety of regulatory 
options that we weigh whenever we discover serious hazards in the 
marketplace. As alleged by CPSC staff, Buckyballs present an extremely 
serious hazard when someone, often a young child, ingests two or more 
magnets. The magnets attract each other through the walls of the 
intestines resulting in progressive tissue injury, beginning with local 
inflammation and ulceration, progressing to tissue death, then 
perforation or fistula formation. Such conditions can lead to 
infection, sepsis, and death. At the time of filing an administrative 
complaint, CPSC staff had learned of more than two dozen high-power 
magnet ingestion incidents, with at least one dozen involving 
Buckyballs. Surgery was required in many of the incidents and ingestion 
of high-power magnets is alleged to have resulted in at least one 
death.
    What made these incidents so compelling, aside from the 
destructiveness of the ingestions, is the fact that the magnets, by 
themselves, look benign and the harm from ingesting them does not occur 
immediately or obviously. In fact, as alleged in the Commission's 
complaint, doctors examining patients with ingested magnets could find 
it difficult to give an immediate or accurate diagnosis because the 
symptoms mimic other less serious digestive disorders, which could lead 
to the erroneous belief that no treatment was necessary or a delay in a 
surgical intervention that could exacerbate life-threatening internal 
injuries.
    All of these high-risk elements led staff to consider a variety of 
options, including going to various retailers to ask them voluntarily 
to remove these dangerous products. Section 15 (c) and (d) of the 
Consumer Product Safety Act [15 U.S.C. Sec. 2064(c) and (d)] authorize 
the Commission to seek remedial action not only from manufacturers, but 
also from distributors and retailers. Accordingly, in weighing options, 
CPSC Compliance staff concluded that one effective and expeditious step 
would be to work with the retailer community in addressing the hazard. 
I note that, in addition, to working with retailers, staff also took 
the rare step of filing an administrative complaint against the 
respondents, signaling their strong concerns about the hazard.

    Question 8. In the Buckyballs case, CPSC then sought to extend the 
``responsible corporate officer'' doctrine to establish personal 
liability for the costs of the recall on Craig Zucker, one of the 
principals of the bankrupt company that sold Buckyballs. Did the 
Commission vote to amend its complaint to seek personal liability in 
this case? If not, why not?
    Answer. On July 25, 2012, as authorized by the Commission, CPSC 
staff filed an Administrative Complaint against Maxfield and Oberton 
seeking a recall of the magnet products sold by the company. 
Subsequently, staff filed an amended complaint seeking to add Craig 
Zucker, individually and as an officer of Maxfield and Oberton, after 
he dissolved Maxfield and Oberton Holdings as an additional respondent. 
The Administrative Law Judge preliminarily granted CPSC staff's request 
to add Mr. Zucker individually as a respondent. Because the Commission 
negotiated a Consent Agreement with Mr. Zucker that supersedes the 
judge's ruling, the Commission did not rule on this issue. My own view 
is that, in an appropriate case, the Commission has the authority to 
include individuals as respondents, but I have made no determination 
whether this was such a case.

    Question 8a. With regard to the Buckyballs case, if the decision to 
name the former president of the company as an individual respondent in 
an administrative complaint was done without the approval of the 
commissioners, why did Commission staff claim in a pleading that the 
Commission approved the decision?
    Answer. The staff decision to name Mr. Zucker as an individual 
respondent was done with the broad authority granted to staff to file 
an administrative case pursuant to section 15 of the Consumer Product 
Safety Act. Because the Administrative Procedure Act (APA) requires 
that members of the Commission hear appeals from decisions by 
administrative law judges once we have authorized the filing of a case, 
we take great precautions to avoid involvement in administrative trial 
strategy because of our need to avoid even the appearance of bias that 
might affect our ability to serve as an appellate body. I believe that 
staff's decision to name Mr. Zucker as an individual respondent was 
well within the authority granted them to pursue the case. Whether the 
Commission, as a matter of policy, should be involved in such a 
decision is something that I am currently contemplating.

    Question 8b. Do you believe the CPSC's Rules of Practice for 
Adjudications require a vote of the Commission to amend a complaint 
previously authorized by the Commission to add a new party or to add a 
different legal theory of liability?
    Answer. In this case, no. In other cases, depending on what the new 
legal theory of liability or who the new party is, my answer might 
differ. The Rules of Practice are designed to empower the Presiding 
Officer with broad discretion in hearing cases. In this case, I note 
the Presiding Officer did issue a preliminary ruling permitting the 
addition of Mr. Zucker as a respondent.

    Question 8c. Were you involved in the decision to amend CPSC's 
complaint against Maxfield and Oberton to name Craig Zucker in his 
individual capacity?
    Answer. As I have noted, the decision to amend the complaint was 
made by CPSC staff pursuant to authority granted them by the Commission 
to file an administrative case in accordance with section 15 of the 
CPSA.

    Question 8d. Should commission staff, without the approval of the 
Commission, proceed with such a significant move as naming an 
individual as a respondent?
    Answer. The decision to name Mr. Zucker was made by CPSC staff 
pursuant to the broad authority granted by the Commission to file the 
administrative case. I believe that staff's decision to name Mr. Zucker 
as an individual respondent was well within the authority granted them 
to pursue the case. Whether the Commission, as a matter of policy, 
should be involved in such decisions is something that I am currently 
contemplating.

    Question 9. Do you believe that companies, and individuals managing 
those companies, have a legal right to challenge a CPSC determination 
that a product recall is warranted based on legitimate, but different, 
interpretations of applicable statutes as applied to specific facts?
    Answer. Yes.

    Question 10. There have been suggestions that the CPSC pursued Mr. 
Zucker personally in response to his aggressive response in fighting 
the CPSC. Did that happen?
    Answer. No. As someone who has worked in two branches of 
government, I know we are constantly subject to criticism, sometimes in 
very harsh terms. I believe that one of the greatest freedoms that 
American citizens have is the right to criticize their government. As 
far as I can tell, CPSC staff also believes that and does not take such 
criticism personally.

    Question 11. When, and under what circumstances do you believe it 
is appropriate to pierce the corporate veil and hold a principal of a 
company personally liable for a product recall? Wouldn't you agree that 
this step is ordinarily only used when there is criminal conduct 
alleged? Yet the commission took this extraordinary step in the 
Buckeyballs case by adding Mr. Zucker individually, why?
    Answer. This is not an area of law that I have researched 
thoroughly. According to various authorities, the law varies from state 
to state and from jurisdiction to jurisdiction. Because I continue to 
research the issue, I cannot provide a definitive answer regarding when 
such an action is warranted. I note that adding an individual like Mr. 
Zucker in an administrative case is rare.

    Question 12. Section 6(b) of the Consumer Product Safety Act 
requires the CPSC to ``take reasonable steps to assure'' that any 
disclosure of information relating to a consumer product safety 
incident is accurate and fair. You have not been shy about expressing 
your opinion about section 6(b). Congress, however, has had several 
opportunities--including passage of the Consumer Product Safety 
Improvement Act--to amend the statute, but chose to preserve the 
regulatory authority and protections of section 6b.
    Under your leadership, the Commission recently proposed an 
interpretative rule that would, among other things, significantly 
narrow the information subject to section 6(b) protections, exempt 
information that is ``publicly available,'' permits commission staff to 
not notify firms when it releases information ``substantially the same 
as'' information previously disclosed and especially troubling, 
eliminates protections from disclosure of information subject to 
attorney-client privilege.
    What is your definition of ``publicly available'' because, based on 
the proposed rule, information posted on a blog would be ``publicly 
available?'' How will the Commission substantiate its reliability and 
factual accuracy before inclusion in communications or investigations 
of the CPSC? If information about an investigation, whether or not it 
is accurate, somehow is posted on the Internet, will that information 
then be exempt from section 6(b)?
    Answer. As a starting point, I note that the proposed revisions to 
section 6(b) of the CPSA are still under review, so I am keeping an 
open mind regarding the comments filed in response to the Commission's 
Federal Register Notice of Proposed Rulemaking.
    It is no secret that I have a general dislike for some of the 
provisions of 6(b), especially when they impose substantial costs in 
time and money on the Commission's Freedom of Information Act staff. I 
see no useful purpose in compelling the Commission to follow these 
cumbersome procedures--which apply only to CPSC and no other health and 
safety agency--when we are acting as a repository of information in 
similar fashion to a public library. Further, in some instances, safety 
information delayed is consumer safety denied. However, it is my duty 
to uphold all of CPSC's statutes as written and, if re-confirmed, I 
pledge to continue do so.
    With respect to the language regarding ``publicly available'' 
information in the NPR, in my judgment, this is clarifying what has 
generally been the practice of the Commission over the years more than 
anything new. As noted in the Commission's Notice of Proposed 
Rulemaking, 79 Fed. Reg. 10712, 10714 (February 26, 2014), neither the 
statute nor the CPSA's legislative history suggest that information 
that is readily available to the public is, or should be, subject to 
section 6(b). I believe that the NPR gives a good description regarding 
what ``publicly available'' information is, namely, information that 
has been disseminated in a manner intended to reach the public in 
general, such as news reports; articles in academic and scientific 
journals; press releases distributed through news of wire services; or 
information that is available on the Internet.
    I cannot speak generally regarding information posted on the 
Internet about a company under investigation because the statute treats 
such information in different ways depending on its status. Information 
submitted to the Commission pursuant to section 15(b) reports that 
might trigger an investigation must be treated as confidential by the 
agency unless the Commission has reasonable cause to believe a product 
is in violation of a safety rule or other provision of the law, or the 
product is the subject of a legal proceeding or the manufacturer has 
consented to its release. Nothing in the proposed modification to the 
agency's 6(b) rule will change that.

    Question 13. What problem is the Commission looking to fix with the 
proposed rule on information disclosures under section 6(b)? What kind 
of data was used by the Commission in determining that a change was 
needed?
    Answer. The proposed rule is intended to update the Commission's 
6(b) rule, which has not been revised since its promulgation in 1983--a 
time when the Internet did not exist. The proposed rule is intended to 
modernize and streamline the Commission's processing of information 
disclosure under section 6(b). Among the pieces of information that the 
Commission relied on in proposing the changes were its assessments of 
the ongoing 6(b) costs and time delays in processing FOIA requests, 
which total in the hundreds of thousands of dollars and in days, 
sometimes months, in releasing information to the public.

    Question 14. Congress recognizes the importance of ensuring the 
accuracy and fairness of information disclosed by the Commission. What 
responsibility does the Commission have to prevent release of 
unreasonable and unsubstantiated information that could cause harm to 
businesses or brands as well as ill-serve the public we seek to 
protect?
    Answer. The Commission has the same responsibility that any Federal 
health and safety agency has to ensure accuracy and fairness of 
information that it discloses. It is a critical responsibility that the 
CPSC takes very serious. Why the extra restrictions in 6(b) that extend 
to no other health and safety agency need to apply to a resource-
limited agency like CPSC remains unclear to me. However, it is my duty 
to uphold all of CPSC's statutes as written and, if re-confirmed, I 
pledge to continue do so.

    Question 15. Mr. Adler, will you commit to me that, if reconfirmed, 
you will follow not only the letter of the law when it comes to 
disclosure laws applicable to the Commission, but also the spirit of 
these rules, which are designed to prevent inaccurate, misleading and 
incomplete information that could hurt both consumers and 
manufacturers?
    Answer. Yes.

    Question 16. The CPSC has, in recent years, been increasingly 
looking to retailers and manufacturers to undertake voluntary product 
safety recalls and other corrective actions, as well as holding them 
accountable for failure to report and other penalty investigations. 
However, there has been more than a 20 percent decline in voluntary 
recalls between 2010 and 2013, and it appears this decline will 
continue through the current year. What do you think of this recent 
trend, and do you think it is something that should be publicly 
explored by the Commission? If reconfirmed, will you in fact explore 
this issue?
    Answer. I read no particular message in the decline in voluntary 
recalls because it could be the result of any number of factors, 
including safer products in the marketplace, more targeted CPSC actions 
against repeat offenders, CPSC's increased work with Customs and Border 
Protection at our Nation's ports, or a more diffuse marketplace because 
of the Internet. If re-confirmed, I will look into the issue, and work 
on this issue with my fellow Commissioners, particularly the Chairman, 
who is the individual responsible for the administrative and management 
direction of the agency.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                          Hon. Robert S. Adler
Harmonization of Standards
    Question 1. The public identified the need to comply with different 
standards all addressing the same type of hazard as a problem and 
Congress asked the agency to address this as a potential burden 
reduction opportunity in PL 112-28. The agency has done little to 
investigate whether compliance with a standard in another jurisdiction 
would provide an equivalent level of safety or try to harmonize safety 
standards with those in other jurisdictions. Does the agency need new 
authorities to accomplish this effort? If not, why has more not been 
done to address this problem?
    Answer. Although no other international standard is identical to a 
CPSC-administered children's product safety rule, there are many tests 
within certain other international standards that are the same, or more 
stringent than, their equivalent test within the CPSC-administered 
children's product safety rule. For example, the toy abuse tests in the 
European standard EN71, part 1,1 and the International Standard ISO 
8124-12 are the same, or more stringent than, their corresponding tests 
in ASTM F963-11.3.
    Although CPSC could explore harmonization more, this would not 
change the statutory requirement for third-party testing of children's 
products. What we have been told by members of the regulated community 
is that they would prefer the agency focus its attention on ways to 
reduce burdens that would release them from testing entirely. As I 
stated before the Committee during my June 11 re-nomination hearing, 
Congress, in section 2(a)(3) of P.L. 112-28, did not simply direct CPSC 
to address third-party testing burden reduction. Instead, the mandate 
in that law was, within a year, to seek public comment on opportunities 
``to reduce the cost of third-party testing requirements consistent 
with assuring compliance with any applicable consumer product safety 
rule, ban, standard, or regulation.'' We have done that and have 
dedicated many staff months to assessing the various approaches 
suggested in the law and in the many comments we received in response 
to our Requests for Information (RFI) published in the Federal 
Register.
    A solid consensus has emerged from the many commenters that have 
responded to our requests for information. Most see little burden 
reduction potential in Commission initiatives that retain third-party 
testing costs. Instead, they seek to have the Commission expand on a 
list of determinations for lead first published in August 2009 in the 
Federal Register and currently found at 16 CFR Sec. 1500.91. This list 
identifies those products or product components that will never contain 
violative amounts of lead. Once such a determination is made, such 
products or product components need not be subject to third-party 
testing. Ideally, based on technical and scientific data, we will be 
able to expand this list both to include more materials and to find 
materials that are used in the manufacture of children's products that 
will never contain violative amounts of phthalates or the eight heavy 
metals found in ASTM F-963. Once such a determination is made, such 
products or product components need not be subject to third-party 
testing.
    The Commission, on April 3, 2014, held an all-day forum on burden 
reduction and heard numerous thoughtful nominations from our 
stakeholders for product determinations. Unfortunately, because of the 
highly technical nature of many of these suggestions, CPSC scientific 
staff must carefully test the claims made by the participants. As I 
mentioned at my re-nomination hearing one of the most promising 
suggestions for exempting phthalate testing based on the hardness of 
plastics has been shown not to be accurate. Nevertheless, the 
Commission and its staff are proceeding with our work and we hope to 
provide testing relief as we confirm the scientific validity of the 
various suggestions.
    In addition, last month, I introduced an amendment to the 
Commission's 2014 Mid-Year Review and Proposed Operating Plan 
Adjustments to examine potential ways to reduce third-party testing 
costs through determinations consistent with assuring compliance with 
underlying requirements. The amendment was adopted. It provides funds 
for a study to assist the Commission in determining whether untreated 
wood or other natural materials are materials that do not, and will 
not, contain any of the eight specific heavy metals in levels that 
exceed allowable limits listed in the Toy Standard, ASTM F-963. Because 
wood was on the list of determinations for lead first published in 
August 2009 in the Federal Register, and currently found at 16 CFR 
Sec. 1500.91, that identify those products or product components that 
will never contain violative amounts of lead, I am hopeful that this 
study will find similar results where the eight heavy metals listed in 
ASTM F-963 are concerned.
Partisanship at CPSC
    Question 2. I hope you will agree that the Commission should hold 
its safety mission above partisan politics. Many are concerned that 
partisanship at the Commission has increased, as demonstrated by the 
many party-line votes the Commission has taken since 2008, when the 
Consumer Product Safety Improvement Act was passed. While the 
Commissioners have been able to find consensus on routine business 
items before the Commission, on more substantive matters such as 
rulemakings and establishing budget and enforcement priorities, a 
partisan division is all too often evident. Why do you think the 
atmosphere at CPSC has become so partisan?
    Answer. I do not consider consumer product safety to be a partisan 
issue. I believe people serve as CPSC Commissioners with the same goal-
to fulfill the mission of the CPSC and reduce the risk of injury or 
death to consumers from hazardous consumer products. Sometimes we may 
disagree on the path we should take to achieve this goal, but that does 
make the Commission a partisan body.
    I have always worked to establish a good relationship--both 
personal and professional--with my fellow Commissioners, particularly 
with the current Commissioners. I greatly value these relationships. I 
believe we have worked tirelessly and respectfully to achieve common 
ground. If re-confirmed, I would continue these efforts.

    Question 2a. Mr. Adler, if you're reconfirmed to the CPSC, you will 
become the most senior Commissioner, and will continue to occupy a role 
with significant influence on the culture of the Commission. Will you 
commit to me today to work to bring about a culture change at the 
agency, for instance, by working with the minority Commissioners to 
achieve consensus--including working with Commissioner Buerkle and Mr. 
Mohorovic, if he is also confirmed?
    Answer. Yes. If re-confirmed, I assure you that I will continue to 
work with all of my fellow Commissioners to achieve consensus.
Independence of CPSC General Counsel
    Question 3. As you know, the position of General Counsel at the 
CPSC had been a non-political career position designed to ensure a 
mechanism of checks and balances. Though this has not always been the 
case, it seems to me that the General Counsel's office should provide 
independent and credible opinions to the Commissioners and be free from 
political influences. After all, each Commissioner is not short of 
staff to provide political counsel. What is your opinion? Do you think 
that the General Counsel's office should provide independent and 
objective views of matters considered by the Commission?
    Answer. I believe a General Counsel, regardless of his or her 
employment status, should provide independent, objective advice. 
Federal employees, career and non-career, are bound by a code of 
ethics, requiring them to be loyal to the law and ethical principles, 
and attorneys are further bound by their own code of ethics. Further, 
the position of General Counsel is one that is filled by a member of 
the Senior Executive Service. Based on my years of working at and 
monitoring the Commission, I have no reason to believe that a non-
career General Counsel would act any differently than a career General 
Counsel in terms of the advice he or she gives to the Commission.
Working with Stakeholders
    Question 4. The Commission issued several proposed rules that could 
fundamentally change the process for how the Commission works with 
regulated entities. For the most controversial proposals, many comments 
have urged the CPSC to work with stakeholders to help the agency in 
meeting its policy objectives. The first of the most controversial 
proposals was a potential change to the 1110 Rule on certificates of 
compliance, and the CPSC wisely took a step back and announced its 
intent to hold a meeting with stakeholders to rethink the proposal. Did 
the CPSC learn that it is more effective to engage with the broad range 
of stakeholders before issuing a proposed rule, perhaps in the form of 
holding a public meeting with stakeholders, an Advance Notice of 
Proposed Rulemaking (ANPR) or both?
    Answer. I believe that stakeholder input plays an integral role in 
the rulemaking process. With respect to the 1110 Rule on Certificates 
of Compliance, I carefully reviewed the issues raised by commenters 
during the comment period, as well as requests from stakeholders. Many 
commenters had very detailed, practical implementation concerns that 
deserved further exploration that I had not seen during the 
Commission's briefing and subsequent public meeting. This is why I 
voted to reopen the comment period and conduct a public workshop with 
stakeholders to gain a better understanding of how to more effectively 
enhance the 1110 Rule.

    Question 4a. Would you support greater use of stakeholder working 
groups and requests for information as the CPSC examines ways to 
improve the effectiveness of its programs?
    Answer. Yes. I always welcome the input of stakeholders. If re-
confirmed, I promise to carefully consider the views of all interested 
parties.
Public Outreach
    Question 5. The digital age provides new opportunities for more 
direct contact to consumers for distributing important information and 
education. How important are public/private partnerships in the 
strategies for outreach to consumers and please explain how the agency 
can engage and utilize the private sector in furthering its mission, 
one that is shared by manufacturers.
    Answer. Very important. The CPSC is a small agency with a very 
large safety mandate. In order to inform and educate the public, the 
CPSC often relies on our non-governmental partners in the private 
sector and the not-for-profit sector to help us amplify our outreach. 
Whether through the use of social media, media interviews, or in-store 
messaging, CPSC has a rich history of collaborating with associations 
and companies on campaigns such as safe sleep for babies, drowning 
prevention, poison prevention, and window blind safety, to name only a 
few. A number of companies and organizations have effectively used 
social media platforms to inform their customers and constituents of 
product hazards. Because of the significant positive results for 
consumers that often come from these relationships, it is my hope that 
CPSC will continue to explore opportunities to work with industry and 
other groups on information and education campaigns.

    Question 5a. How would you handle situations when consumers are 
being injured by using products incorrectly or contrary to label 
instructions?
    Answer. At the outset, let me say that every accident involves 
three factors: the product, the consumer, and the surrounding 
environment. Depending on the circumstances, it is often hard to pin 
down precisely what role each factor plays in an accident. That is why 
the Commission employs an extensive epidemiological and human factors 
staff to assist us in our approach to protecting consumers. I find it 
hard to generalize about the cause of some injuries by pointing to 
consumers' ignoring label instructions if the labels warn of hazards 
that consumers should not expect to exist. For example, the Commission 
entered into a civil penalty agreement with a manufacturer of infant 
flotation seats that failed without warning, plunging young children 
into water over their heads. The manufacturer had a warning label that 
parents should not leave children unattended in pools with the 
flotation device. That, however, did not address the fact that the 
seats were defective and failed without warning, placing infants in 
life-threatening situations.
    That said, the Commission has a group of talented technical experts 
who often provide advice and guidance to outside groups regarding the 
efficacy of their warning labels. I believe that the market is a better 
informed, safer arena because of CPSC staff's technical input, and, if 
re-confirmed, I will continue to support their efforts.

    Question 5b. What role would the CPSC play in such situations?
    Answer. CPSC's response would be dependent upon the product, the 
hazard, the pattern of injury, and whether the risk is foreseeable.

    Question 5c. Do you believe that warnings are an effective tool in 
communicating hazards to the public?
    Answer. I think the best way to answer this question would be to 
put it into the larger context of how CPSC staff works to address and 
mitigate hazards. CPSC staff follows the standard ``safety hierarchy'' 
method when trying to reduce the risk of injury: (1) eliminate the 
hazard, (2) guard against the hazard, and (3) warn of the hazard.
    In certain situations, a warning can be an effective tool. We have 
seen this in the case of button cell batteries and strollers. But, 
warnings are sometimes less effective in reducing risk than either 
eliminating or guarding against the hazard. There are lots of details 
that can make a warning effective: large font, bright colors, simple 
language, multiple languages, prominent placement, or conspicuous 
graphics. But, warnings cannot be relied upon in all situations to 
reduce unreasonable risks of death and injuries. In some cases, a 
warning may not adequately express the severity of the risk of harm 
presented to the consumer. In other cases, a warning may not be 
effective because the product presents a poor medium for written 
information. For example, the product may be too small. Also, warnings 
are not very effective on products where the consumer at risk cannot 
understand the warning, for example, with infants--which explains why 
Congress enacted the Poison Prevention Packaging Act authorizing the 
agency to issue rules that require child-resistant closures on 
dangerous household chemicals.

    Question 5d. Do you believe there are certain hazards that cannot, 
under any circumstance, be warned or educated against?
    Answer. Yes. Some hazards are so hidden or occur so unexpectedly 
that warnings could not avoid serious injuries or fatalities.

    Question 5e. Procedurally, how do you believe those hazards, which 
cannot be warned or educated against, should be determined by the 
agency?
    Answer. As stated above, CPSC staff follows the standard ``safety 
hierarchy'' method when trying to reduce the risk of injury: (1) 
eliminate the hazard, (2) guard against the hazard, and (3) warn of the 
hazard.
    In determining the effectiveness of product and/or public warnings, 
CPSC staff analyzes the use and utility of the product, the hazard, the 
pattern of injury, changes in reported injuries following design or 
labeling adjustments, and whether the risk is foreseeable.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                          Hon. Robert S. Adler
    Question 1. The CPSC's voluntary recall system--especially the 
agency's ``fast-track'' recall system--provides a quick and effective 
means of getting potentially dangerous products off the market and out 
of consumers' hands. However, the agency has come under growing 
criticism for a slowdown in the pace that recalls are being negotiated, 
as such delays could ultimately harm consumers. In the past four years, 
the agency has had three directors of compliance and I understand the 
position is now empty again. This raises concerns about the effect of 
such turnover on management of the agency. Please provide the Committee 
with information detailing how long it generally takes the Commission 
to negotiate fast track recalls, and whether that time has increased 
over the past several years?
    Answer. I strongly support the agency's Fast Track Program and, as 
Acting Chairman, have taken steps to ensure that it continues to be 
effective. I have requested that CPSC staff undertake a review of the 
program that I have dubbed ``Fast Track 2.0.'' Among other things, I 
have asked for a review of the types of hazards that should be included 
in the program and which should not. I have also asked for a review of 
the types of information that companies should provide when they seek 
Fast Track status and a review of how these recalls generally should 
proceed.
    Under the guidelines for Fast Track, a product recall must begin 
within twenty days of a report to the Commission. In practice, 
according to staff, it currently takes roughly 60 days from the moment 
that a firm notifies the Commission of a problem until its Corrective 
Action Plan is agreed upon. The discrepancy in time frames, according 
to staff, is that firms often report a potential issue prior to 
presenting all of the required information to begin an official ``fast 
track'' recall. This first contact with the Commission is included in 
that 60-day figure. Further, according to staff, ``fast track'' recall 
negotiations do not begin in earnest until the firm presents the 
Commission with:

  <bullet> a full report as defined by 16 C.F.R. Sec. 1115.13(d) (which 
        includes 15 detailed items of information, including when and 
        where a product was manufactured, how many items need to be 
        recalled, the nature of defect, and other important pieces of 
        information),

  <bullet> a fully developed action plan for recall, including types of 
        media to be used, and

  <bullet> a fully drafted press release explaining the nature and 
        details of recall.

    Over the past three fiscal years, the average time from the moment 
that a firm notifies the Commission of a potential problem until the 
completion of that firm's Corrective Action Plan has ranged between 55 
and 60 days. Encouragingly, the time it takes for negotiating and 
issuing press releases (a significant portion of the time that it takes 
to conduct voluntary recalls) has shown a steady decrease in Fiscal 
2014, including an almost 10 percent decrease to just over 20 days.
    All of this said, I continue to believe that Fast Track is a worthy 
program that needs to be improved.

    Question 2. Can you assure the Committee that you will work to make 
sure the fast track system continues to be as effective as it has been 
in the past?
    Answer. Yes.

    Question 3. Are you aware of the letter dated May 30, 2014, that 
former CPSC Chairman Ann Brown sent to Representatives Fred Upton and 
Henry Waxman expressing concerns with the proposed voluntary recall 
rule?
    Answer. Yes.

    Question 3a. Are you aware of the comments to the docket submitted 
by Senators Casey and Toomey and a separate letter by Senator King 
expressing similar concerns with the proposed rule?
    Answer. Yes.

    Question 3b. Do you agree with former Chairman Brown and the 
Senators that the proposed Voluntary Recall Rule could threaten the 
history of collaboration that the CPSC has with its stakeholders?
    Answer. I have read former Chairman Brown's letter, and the 
Senators' letter. I have also reviewed many of the stakeholder comments 
we have received about our proposed rule. I continue to review those 
comments and to pay special attention to those that raise concerns 
about the impact of the proposed rule on the Fast Track program. 
Needless to say, I greatly respect and admire Ms. Brown, and I agree 
with her that Fast Track is an excellent program.
    The CPSC has always and should always continue to work 
collaboratively with its stakeholders on behalf of the American public. 
I see nothing in the proposed rule that would threaten that 
relationship. That said, the Voluntary Recall Notice Rule is only a 
proposed rule, and, in light of its controversial nature, I am 
carefully reviewing the comments from all stakeholders. I retain an 
open mind as to what the final version of the rule might look like.

    Question 4. Regarding the CPSC's recently proposed rule that would 
expand staff's role on voluntary standards setting bodies, are you 
concerned that an individual at the CPSC--whether that person is a 
Commissioner or a staff member who is not the voting member--could 
influence the standards development process?
    Answer. The rule to which you refer grew out of a report from May 
2012 by the U.S. Government Accounting Office (GAO), ``Consumer Product 
Safety Commission: A More Active Role in Voluntary Standards 
Development Should be Considered.'' (See http://www.gao.gov/assets/600/
590990.pdf.)
    The GAO Report recommended that the Commission review its policy 
for staff participation in voluntary standards development activities 
and determine the feasibility of the agency's staff assuming a more 
active role in developing voluntary standards. Specifically, the GAO 
Report recommended that CPSC staff be allowed--not required--in 
appropriate cases to vote on balloted provisions of voluntary 
standards. The Report also suggested that staff be allowed to hold 
leadership positions at various levels of standards development 
organizations, including task groups, subcommittees, or committees. GAO 
concluded that changing the CPSC's regulations to allow staff to 
participate more actively in voluntary standards activities could 
result in stronger voluntary standards without compromising the CPSC's 
or the voluntary standards groups' independence.
    As a result of this GAO Report, Commission staff proposed 
conforming amendments to 16 CFR 1031, the Commission's regulation on 
participation in voluntary standards activities. These amendments 
followed GAO's recommendations to allow staff, on an optional basis, to 
vote on voluntary standards or take a leadership role on voluntary 
standards group committees.
    The proposed rule noted that such activity might result in a more 
effective voluntary standards process and accelerate standards 
development and implementation. Further, such participation could gain 
CPSC staff greater access to and familiarity with the latest 
technologies, and would provide an opportunity for staff to help 
establish standards to advance CPSC's safety goals. In addition, 
``full'' Federal Government participation in standards development 
increases the likelihood that the standards can meet both public and 
private sector needs. 141 Cong. Rec. H14334 (daily ed. December 12, 
1995) (Statement of Rep. Morella). A single standard that satisfies 
both industry and the CPSC would benefit both by simplifying applicable 
requirements--only a single set of standards would apply.
    Finally, optional staff participation in voluntary standards 
development groups by voting and taking leadership roles would be 
consistent with the guidance reflected in OMB Circular A-119 Revised, 
``Federal Participation in the Development and Use of Voluntary 
Consensus Standards and in Conformity Assessment Activities'' (February 
10, 1998). Among other things, OMB Circular A-119 encourages agency 
representatives serving as members of voluntary consensus standards 
bodies to ``participate actively and on an equal basis with other 
members,'' and to ``vote . . . at each stage of the standards 
development process unless prohibited from doing so by law of their 
agencies.''
    The role voluntary standards play in the safety of American 
consumers and the ability of the CPSC to do its job cannot be 
overemphasized. I have long believed that we must work in concert with 
voluntary standards organizations to help those organizations create 
the best standards they can. This is why I am so delighted by the 
progress I have seen in the voluntary standards community over the past 
forty years. Groups such as ASTM, ANSI, and UL have dramatically 
improved their technical skills, their efficiency in drafting 
standards, their openness and transparency, and their outreach to all 
stakeholders--especially consumers--affected by their work. I am 
pleased to see CPSC work so closely with these groups, and I have 
little doubt that our partnership with them will only grow and deepen 
in the years to come in the interest of better standards for consumers 
and product manufacturers alike. That said, it is only a proposed rule 
and I am still reviewing all comments from all stakeholders and retain 
an open mind as to what the final version of the rule might look like.

    Question 5. Given your understanding of the voluntary standards 
process, how can staff's role help benefit or potentially hurt the 
process?
    Answer. Because of the disclaimers required of Commission staff in 
the proposed rule, I see no indication that the proposed rule's 
approach to staff involvement would suggest the Commission will play 
other than a constructive role. The law is fairly clear regarding 
CPSC's approach to voluntary standards. If the Commission, in the 
course developing a mandatory standard, determines that an existing 
voluntary standard adequately addresses a risk of injury and is 
substantially complied with, the Commission must stop its work and 
defer to the voluntary standard. Nothing in this proposed rule changes 
that.
    I appreciate your concern and will be sure to pay particular 
attention to this issue when the final rule is presented to the 
Commission. I continue to review all the comments from all stakeholders 
of the proposed rule and retain an open mind as to what the final 
version of the rule might look like.

    Question 6. Many are concerned that partisanship at the Commission 
has increased, as demonstrated by the many party-line votes the 
Commission has taken since 2008, when the Consumer Product Safety 
Improvement Act was enacted. While the Commissioners have been able to 
find consensus on routine business items before the Commission, on more 
substantive matters such as rulemakings and establishing budget and 
enforcement priorities, a partisan division is all too often evident. 
Why do you think the atmosphere at CPSC has become so partisan?
    Answer. I do not consider consumer product safety to be a partisan 
issue. I believe people serve as CPSC Commissioners with the same goal-
to fulfill the mission of the CPSC and reduce the risk of injury or 
death to consumers from hazardous consumer products. Sometimes we may 
disagree on the path we should take to achieve this goal, but that does 
make the Commission a partisan body.
    I have always worked to establish a good relationship--both 
personal and professional--with my fellow Commissioners, particularly 
with the current Commissioners. I greatly value these relationships. I 
believe we have worked tirelessly and respectfully to achieve common 
ground. If re-confirmed, I would continue these efforts.

    Question 7. Mr. Adler, if you're reconfirmed to the CPSC, you will 
become the most senior Commissioner, and will continue to occupy a role 
with significant influence on the culture of the Commission. Will you 
commit to work to bring about a culture change at the agency, for 
instance, by working with the minority Commissioners to achieve 
consensus--including working with Commissioner Buerkle and Mr. 
Mohorovic, should he be confirmed?
    Answer. Yes. If re-confirmed, I assure you that I will continue to 
work with all of my fellow Commissioners to achieve consensus.

    Question 8. As you know, the position of General Counsel at the 
CPSC had been a non-political career position designed to ensure a 
mechanism of checks and balances. Though this has not always been the 
case, it seems to me that the General Counsel's office should provide 
independent and credible opinions to the Commissioners and be free from 
political influences. After all, each Commissioner is not short of 
staff to provide political counsel. Please explain whether or not you 
believe that the General Counsel's office should provide independent 
and objective views of matters considered by the Commission?
    Answer. I believe a General Counsel, regardless of his or her 
employment status, should provide independent, objective advice. 
Federal employees, career and non-career, are bound by a code of 
ethics, requiring them to be loyal to the law and ethical principles, 
and attorneys are further bound by their own code of ethics. Further, 
the position of General Counsel is one that is filled by a member of 
the Senior Executive Service. Based on my years of working at and 
monitoring the Commission, I have no reason to believe that a non-
career General Counsel would act any differently than a career General 
Counsel in terms of the advice he or she gives to the Commission.

    Question 9. In 2008, by approving the Consumer Product Safety 
Improvement Act, Congress mandated under Section 108 that the CPSC 
establish a Chronic Hazard Advisory Panel (CHAP) to review specific 
phthalates used in children's toys and childcare articles. I am 
concerned that Section 108 of the CPSIA is not being carried out in a 
transparent manner. During the CHAP's review process, the Commission 
decided to conduct a peer review of the CHAP's draft report on 
phthalates and phthalate alternatives completely behind closed doors. 
There have been no public meetings or conference calls over the past 
two years, which is rare for a process under the guidance of the CPSC. 
Because the report is over 24 months late and the process has not been 
transparent to the public--with no public meetings since February 
2012--I want to know what the Commission will do to ensure a full and 
transparent implementation of this Congressional mandate. Will you 
implement an open and transparent process that allows for public input 
on the Panel's report prior to the start of the CPSC's rulemaking 
process?
    Answer. Not later than 180 days after the Commission's receipt of 
the final CHAP report, as mandated by the statute, ``the Commission 
shall, pursuant to section 553 of title 5, United States Code, 
promulgate a final rule [related to the findings of the CHAP].'' This 
includes an open and transparent process that allows for public input 
during the course of promulgating the mandated rule. The rulemaking 
process under section 553 of the APA will give stakeholders and the 
public generally the opportunity to submit information and comments, 
all of which will be publicly available.
    In addition, as former Chairman Inez Tenenbaum previously 
announced, upon receipt of the final CHAP report, the Commission 
intends to publicly release the following additional documents:

  <bullet> CHAP draft Final Report;

  <bullet> Peer reviewers' Report which includes comments on the draft 
        final report submitted to the CHAP, and charge questions 
        submitted to the peer reviewers;

  <bullet> Identities and affiliations of the peer reviewers;

  <bullet> Any other data acquired by the CHAP that has not been 
        previously cleared for public release by the CHAP.

    Also, currently on the CPSC's CHAP web page is every meeting, phone 
call, piece of correspondence, and all data submitted by the public 
since the CHAP was convened, with certain exceptions. For copyrighted 
material, such as journal articles, CPSC staff generally post the 
transmittal letter and the journal citation only. If the article is 
open access, CPSC staff has included a link to the article. For 
government reports available online, the staff has posted the 
transmittal letter, citation, and Web link. All of this information is 
publicly available at: http://www.cpsc.gov/about/cpsia/chapmain.html.

    Question 10. With regard to the Chronic Hazard Advisory Panel, how 
should the CPSC ensure that all alternatives are subjected to the same 
level of scrutiny as the chemicals in question, in order to clearly 
justify which chemical is safer, before issuing a final decision?
    Answer. It is difficult to answer this question without having 
received the CHAP report at this time. However, I am committed to 
following both the letter and the spirit of the direction given to the 
Commission in Section 108 of the CPSIA. I look forward to receiving the 
report and having the Commission commence the rulemaking contemplated 
in the law.

    Question 11. With regard to the Chronic Hazard Advisory Panel, how 
will you ensure that thoroughly tested chemicals in the market place 
today will not be penalized when compared against a less tested 
alternative?
    Answer. It is difficult to answer this question without having 
received the CHAP report at this time. However, I am committed to 
following both the letter and the spirit of the direction given to the 
Commission in Section 108 of the CPSIA. I look forward to receiving the 
report and having the Commission commence the rulemaking contemplated 
in the law.

    Question 12. Please provide the Committee with the full list of 
scientific studies that were evaluated by the Chronic Hazard Advisory 
Panel and then made available to the peer reviewers. Please also submit 
to the Committee a timeline for the release of the report and the 
issuance of a draft rule.
    Answer. Because of the statutory mandate that the CHAP operate as 
an independent panel, and in the interest of scientific integrity, the 
submission to the Commission of the final CHAP report is not in the 
control of the Commission, nor does the Commission have knowledge of 
the scientific studies that the CHAP may have chosen to evaluate. All 
studies submitted by the public for consideration by the CHAP have been 
conveyed to the CHAP.
    Not later than 180 days after the Commission's receipt of the final 
CHAP report, as mandated by the statute, ``the Commission shall, 
pursuant to section 553 of title 5, United States Code, promulgate a 
final rule [related to the findings of the CHAP].'' This rulemaking 
procedure, as contemplated by the Administrative Procedure Act (APA), 
includes an open and transparent process that allows for public input 
during the course of promulgating the mandated rule. The rulemaking 
process under section 553 of the APA will give stakeholders and the 
public generally the opportunity to submit information and comments, 
all of which will be publicly available.
    In addition, as former Chairman Inez Tenenbaum previously 
announced, upon receipt of the final CHAP report, the Commission 
intends to publicly release the following additional documents:

  <bullet> CHAP draft Final Report;

  <bullet> Peer reviewers' Report which includes comments on the draft 
        final report submitted to the CHAP, and charge questions 
        submitted to the peer reviewers;

  <bullet> Identities and affiliations of the peer reviewers;

  <bullet> Any other data acquired by the CHAP that has not been 
        previously cleared for public release by the CHAP.

    Also, currently on the CPSC's CHAP web page is every meeting, phone 
call, piece of correspondence, and all data submitted by the public 
since the CHAP was convened, with certain exceptions. For copyrighted 
material, such as journal articles, CPSC staff generally post the 
transmittal letter and the journal citation only. If the article is 
open access, CPSC staff has included a link to the article. For 
government reports available online, the staff has posted the 
transmittal letter, citation, and Web link. All of this information is 
publicly available at: http://www.cpsc.gov/about/cpsia/chapmain.html.

    Question 13. Given that the CHAP report meets a number of the 
requirements for a ``highly influential'' assessment, and that the 
Commission must comply with the standards established by the Office of 
Management and Budget's Final Information Quality Bulletin (OMB 
Bulletin) for Peer Review, can you assure the Committee that the CHAP 
report peer review will be completed in full conformance with the 
Bulletin?
    Answer. It is my understanding that OMB was consulted with respect 
to its Peer Review Bulletin. Further, CPSC understands the scientific 
importance of the CHAP report and will comply with the requirements 
regarding the report and the ensuing rulemaking set forth in section 
108 of the CPSIA.

    Question 14. With regard to the Chronic Hazards Advisory Panel, 
Chairman Tenenbaum assured Congress that the CPSC was fully committed 
to an open and transparent process. The OMB Guidelines, on page 40, 
outline public participation in line with a transparent process by 
stating: ``the agency shall make the draft scientific assessment 
available to the public for comment at the same time it is submitted 
for peer review (or during the peer review process) and sponsor a 
public meeting where oral presentations on scientific issues can be 
made to the peer reviewers by interested members of the public.'' When 
will the draft assessment be made available for public comment, and 
when will the public meeting take place to allow for oral presentations 
on scientific issues?
    Answer. Not later than 180 days after the Commission's receipt of 
the final CHAP report, as mandated by the statute, ``the Commission 
shall, pursuant to section 553 of title 5, United States Code, 
promulgate a final rule [related to the findings of the CHAP].'' This 
rulemaking procedure, as contemplated by the Administrative Procedure 
Act (APA), includes an open and transparent process that allows for 
public input during the course of promulgating the mandated rule. The 
rulemaking process under section 553 of the APA will give stakeholders 
and the public generally the opportunity to submit information and 
comments, all of which will be publicly available.
    In addition, as former Chairman Inez Tenenbaum previously 
announced, upon receipt of the final CHAP report, the Commission 
intends to publicly release the following additional documents:

  <bullet> CHAP draft Final Report;

  <bullet> Peer reviewers' Report which includes comments on the draft 
        final report submitted to the CHAP, and charge questions 
        submitted to the peer reviewers;

  <bullet> Identities and affiliations of the peer reviewers;

  <bullet> Any other data acquired by the CHAP that has not been 
        previously cleared for public release by the CHAP.

    Also, currently on the CPSC's CHAP web page is every meeting, phone 
call, piece of correspondence, and all data submitted by the public 
since the CHAP was convened, with certain exceptions. For copyrighted 
material, such as journal articles, CPSC staff generally post the 
transmittal letter and the journal citation only. If the article is 
open access, CPSC staff has included a link to the article. For 
government reports available online, the staff has posted the 
transmittal letter, citation, and Web link. All of this information is 
publicly available at: http://www.cpsc.gov/about/cpsia/chapmain.html.

    Question 15. The CPSC issued several proposed rules that could 
fundamentally change the process for how the Commission works with 
regulated entities. For the most controversial proposals, many comments 
have urged the CPSC to work with stakeholders to help the agency in 
meeting its policy objectives. The first of the most controversial 
proposals was a potential change to the 1110 Rule on certificates of 
compliance, and the CPSC wisely took a step back and announced its 
intent to hold a meeting with stakeholders to rethink the proposal. Did 
the CPSC learn that it is more effective to engage with the broad range 
of stakeholders before issuing a proposed rule, perhaps in the form of 
holding a public meeting with stakeholders, an Advance Notice of 
Proposed Rulemaking (ANPR) or both?
    Answer. I believe that stakeholder input plays an integral role in 
the rulemaking process. With respect to the 1110 Rule on Certificates 
of Compliance, I carefully reviewed the issues raised by commenters 
during the comment period, as well as requests from stakeholders. Many 
commenters had very detailed, practical implementation concerns that 
deserved further exploration that I had not seen during the 
Commission's briefing and subsequent public meeting. This is why I 
voted to reopen the comment period and conduct a public workshop with 
stakeholders to gain a better understanding of how to more effectively 
enhance the 1110 Rule.

    Question 16. Do you believe that warnings are an effective tool in 
communicating hazards to the public?
    Answer. I think the best way to answer this question would be to 
put it into the larger context of how CPSC staff works to address and 
mitigate hazards. CPSC staff follows the standard ``safety hierarchy'' 
method when trying to reduce the risk of injury: (1) eliminate the 
hazard, (2) guard against the hazard, and (3) warn of the hazard.
    In certain situations, a warning can be an effective tool. We have 
seen this in the case of button cell batteries and strollers. But, 
warnings are sometimes less effective in reducing risk than either 
eliminating or guarding against the hazard. There are lots of details 
that can make a warning effective: large font, bright colors, simple 
language, multiple languages, prominent placement, or conspicuous 
graphics. But, warnings cannot be relied upon in all situations to 
reduce unreasonable risks of death and injuries. In some cases, a 
warning may not adequately express the severity of the risk of harm 
presented to the consumer. In other cases, a warning may not be 
effective because the product presents a poor medium for written 
information. For example, the product may be too small. Also, warnings 
are not very effective on products where the consumer at risk cannot 
understand the warning, for example with infants--which explains why 
Congress enacted the Poison Prevention Packaging Act authorizing the 
agency to issue rules that require child-resistant closures on 
dangerous household chemicals.

    Question 17. Do you believe there are certain hazards that cannot, 
under any circumstance, be warned or educated against?
    Answer. Yes. Some hazards are so hidden or occur so unexpectedly 
that warnings cannot prevent serious injuries or fatalities.

    Question 18. Procedurally, how do you believe those hazards, which 
cannot be warned or educated against, should be determined by the 
agency?
    Answer. As stated above, CPSC staff follows the standard ``safety 
hierarchy'' method when trying to reduce the risk of injury: (1) 
eliminate the hazard, (2) guard against the hazard, and (3) warn of the 
hazard.
    In determining the effectiveness of product and/or public warnings, 
CPSC staff analyzes the use and utility of the product, the hazard, the 
pattern of injury, changes in reported injuries following design or 
labeling adjustments, and whether the risk is foreseeable.

    Question 19. Section 104 of the Consumer Product Safety Improvement 
Act mandated that the CPSC adopt two mandatory rules on durable infant 
goods rules every 6 months. Given the nature and diversity of durable 
infant products, do you feel as though this mandate by Congress is too 
much? If so, how do you propose working with staff to ensure that 
industry leaders have the resources and time necessary to thoroughly 
vet their concerns through the ASTM process?
    Answer. Section 104 of the CPSIA, is also known as the ``Danny 
Keysar Child Product Safety Notification Act.'' The Act was named after 
Danny because he was entrapped and died in a twice-recalled portable 
crib. I have gotten to know Danny's parents, Linda Ginzel and Boaz 
Keysar, very well and their efforts to keep other infants from 
suffering the same tragedy that happened to Danny make them true 
American heroes in my book.
    It is true that Section 104 mandates a significant amount of work 
to the Commission in the area of durable infant and toddler products. 
However, I believe the work has allowed the Commission to promulgate 
some of the most stringent safety standards in the world for our most 
vulnerable and involuntary risk takers--small children. And while the 
statutorily mandated time frames are short, I believe that the 
Commission has successfully worked with ASTM and the durable infant 
products industry to make sure that all voices can be appropriately 
heard when promulgating these standards. Given the proper resources, I 
believe the ``104 model'' of rulemaking could serve as a template for 
all Commission rulemakings.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                          Hon. Robert S. Adler
    Question 1. Mr. Adler, if you are re-nominated, when you are 
considering a mandatory standard, are you willing to take into account 
not only consumer safety but also: A consumer's right to afford 
products, access products, and assume a reasonable amount of risk?
    Answer. Yes. Our statutes and regulations require that the 
Commission focus its efforts on unreasonable risks of serious injuries 
or death associated with consumer products when undertaking mandatory 
rulemaking, not all risks. We are required by our statutes and 
regulations to factor the effect on a product's cost, availability and 
utility that would result from a mandatory rulemaking.

    Question 1a. A company's ability to survive and the number of jobs 
that will be lost if your standard is put in place?
    Answer. Yes.

    Question 2. A number of questions have been raised about the CPSC's 
proposed rulemaking to revise the voluntary recall rule. There is 
concern that the revised rule, if finalized, may actually delay recalls 
and make the process more adversarial and legalistic. Such a result 
would be unfortunate and not in consumers' best interests, and so I 
wanted to make you aware of my concerns about what has been proposed. 
Recalls are most effectively and efficiently done when they are 
voluntary. Do you agree that changing the rules in a way that is likely 
to make negotiations more adversarial and legalistic could result in 
significant delays, which are ultimately not in the best interest of 
consumers?
    Answer. I am in full agreement that effective recalls are in the 
best interest of consumers. It is for this reason that I voted to 
publish a Notice of Proposed Rulemaking for a proposed Voluntary Recall 
Notice Rule last year. The intent of the proposed rule, as I read it, 
is to improve the quality of recalls to protect consumers.
    While I recognize that some have suggested that the changes 
proposed in the rule may, in some instances, slow the process of 
voluntary recall negotiations, I do not at this point have any evidence 
to that effect. Nothing proposed in our rule will require firms to take 
any actions beyond those they currently do. They will still have to 
provide the same information, propose the same recall plans and the 
same methods of publicizing them--and no more. For example, the current 
Voluntary Recall rule requires that recalling firms sign their 
Corrective Action Plans. See 115.20(a)(1)(ix). The proposed rule 
contemplates only that recalling firms actually uphold the agreement 
they have voluntarily entered into. That said, it is only a proposed 
rule and I am still reviewing all comments from all stakeholders and 
retain an open mind as to what the final version of the rule might look 
like.

    Question 3. The Commission's proposed rulemaking has been justified 
by advocates on grounds that legally binding corrective action plans 
(CAPs) will ensure parties adhere to the terms of the plan. Others have 
described this proposal as ``a rule in search of a problem,'' arguing 
that parties usually adhere to the terms of their agreements. Please 
provide a detailed accounting of instances where parties have violated 
the agreed-upon terms of a CAP.
    Answer. Although it is true that the overwhelming majority of firms 
that conduct voluntary recalls in cooperation with the CPSC do so in 
good faith and live up to the terms of their Corrective Action Plans, 
from time to time some firms fail to do so. In that respect, one may 
liken it to firms insisting on entering into binding contracts even 
with companies they trust and have done business with for years. 
Notwithstanding the small number of non-cooperators, prudence still 
dictates that one take protective measures--especially where the lives 
and limbs of American consumers are involved. In the product safety 
context, even a small number of non-cooperators may still leave 
consumers exposed to millions of individual hazardous product units.
    The changes in the proposed rule are designed to help address the 
small number of recalcitrant firms that ``slow walk'' their agreed upon 
activities, whether they be with respect to setting up a consumer 
recall hotline, undertaking education efforts, or fulfilling a repair 
remedy. Unfortunately, the Commission staff does not maintain a 
database of ``slow walkers.'' Moreover, due to the restrictions of 
confidentiality associated with enforcement activities as well as the 
information disclosure restrictions of 15 U.S.C. Sec. 2055(b), I would 
be unable to name these firms even if CPSC staff maintained such a 
list.
    I believe that the proposed rule will change very little, if 
anything, for the vast majority of firms that engage in voluntary 
recalls with the Commission. Most firms take their responsibilities 
very seriously and should generally be unaffected by the rule change.
    Finally, it is important to note that this is a proposed rule. In 
view of the controversial nature of the proposal, I am carefully 
reviewing all comments from our stakeholders with particular care, and 
I retain an open mind as to what the final version of the rule might 
look like.

    Question 4. If a party were to violate the terms of a corrective 
action plan, what recourses are currently available to the Commission 
to affect a recall?
    Answer. Under existing CPSC rules, voluntary recall plans cannot be 
legally binding. See 16 CFR Sec. 1115.20(a) (``A corrective action plan 
is a document signed by a subject firm. . .which has no legally binding 
effect.'') Accordingly, the options available to the Commission where a 
firm fails to live up the terms of a Corrective Action Plan are 
somewhat limited. Aside from criticism and cajolery, the primary legal 
alternative for the CPSC would be to file a lawsuit, either in Federal 
district court for injunctive relief or with an administrative law 
judge seeking to have a product declared a substantial product hazard. 
These are resource-intensive, time-consuming actions that do not speed 
safety for consumers.
    Perhaps the most significant remedy available to the Commission 
would arise if the non-cooperating firm were to engage in the sale, 
resale, or attempted sale of a product subject to a voluntary recall. 
In such a case, section 19 of the CPSA, 15 U.S.C. Sec. 2068(a)(2)(B), 
would permit the agency to seek civil penalties for these acts. 
However, any other violative activity by a firm, including its failing 
to repair a product for consumers or fulfilling its commitment to 
remove a product from the stream of commerce is not a term of an 
agreement that the Commission can currently enforce as part of a 
voluntary recall action plan.

    Question 5. Serious concerns have been raised about the legal basis 
for the Voluntary Recall Rule, with two important substantive changes 
being a requirement that voluntary recalls be made legally binding and 
empowering staff to require compliance program elements within a 
corrective action plan. What legal authority has Congress given the 
CPSC to make voluntary recalls legally binding? I am not aware of any.
    Answer. If a firm chooses to enter into a binding Corrective Action 
Plan with the Commission, the decision to do so is a voluntary act. 
This is no different from any other contract that millions of parties 
voluntarily enter into. Section 27(g) of the CPSA, 15 U.S.C. 
Sec. 2076(g), specifically authorizes the Commission ``to enter into 
contracts with governmental entities, private organizations, or 
individuals for the conduct of activities authorized by this Act.''
    That said, I again note that this is a proposed rule. I am 
carefully reviewing all comments from all stakeholders and retain an 
open mind as to what the final version of the rule might look like.

    Question 6. What legal authority has Congress given the CPSC to 
impose and regulate internal compliance programs in voluntary recall 
agreements?
    Answer. If a firm chooses to enter into a binding agreement with 
the Commission, the decision to do so is a voluntary act.

    Question 7. I understand that a recent revision to the monthly 
report that companies undertaking voluntary recalls file with the CPSC 
added without notice or explanation a new requirement for such 
companies to monitor resale or auction sites. As Acting Chairman, were 
you aware of the new requirements as they were being developed?
    Answer. Since becoming Acting Chairman on December 1, 2013, I have 
received regular briefings from our Compliance staff. Shortly before a 
public announcement regarding the new form, I learned of the desire by 
CPSC staff to update our online ``CPSC Monthly Progress Report for 
Recalls'' to include the existence of, and importance of, electronic 
media and retailers.

    Question 8. What authority does the commission have to require 
companies to monitor sites where products they no longer own or control 
are being resold?
    Answer. As I understand it, when a firm enters into a voluntary 
agreement to conduct a recall in cooperation with the CPSC, the agency 
has always requested that firms work with the third-party sellers of 
their product to ensure that the recall is effective. This could 
include both ``brick and mortar'' retailers as well as online sellers 
of products. Regardless of whether an individual Corrective Action Plan 
includes an agreement for a recalling firm to monitor sites where their 
product is sold, the CPSC has always encouraged recalling firms to do 
so. The updated ``CPSC Monthly Progress Report for Recalls'' simply 
provides an easier way for firms to document what they have found, if 
they have found anything.

    Question 9. Will companies be required to monitor third-party 
websites where products they no longer own or control are being resold 
even if such activity is not included in a corrective action plan?
    Answer. As I understand it, the Commission has always encouraged 
firms to monitor the sales of their products wherever they are sold.

    Question 10. Isn't the commission responsible for ensuring that 
resale and auctions sites are not selling the affected product?
    Answer. Once a voluntary recall has been conducted with a firm, 
CPSC staff will monitor the marketplace for the sale, or resale, of any 
recalled product--acts that constitute a violation of the Consumer 
Product Safety Act. When we find such sales, or resales, we work to 
address the issue. Currently CPSC is monitoring more than 400 previous 
recalls. With jurisdiction over as many as 15,000 different product 
categories, in the interest of consumer safety, the Commission has also 
looked to its partners in the consumer product community, particularly 
industry, to assist in monitoring the sale, or resale, of products they 
have voluntarily recalled.

    Question 11. How practically are thousands of companies, 
particularly smaller businesses, to undertake monitoring of third-party 
websites where products such companies no longer own or control are 
being resold and what are such companies supposed to do if they find a 
product that has been recalled is being resold?
    Answer. Given the Commission's extremely limited resources, we 
certainly understand the challenges facing small businesses in 
monitoring the marketplace. Businesses often do so for reasons of 
competitiveness, patent protection, and brand loyalty. I hope that a 
company discovering the sale of its recalled products would notify both 
those engaged in such illegal and dangerous behavior and the staff of 
the Consumer Product Safety Commission.

    Question 12. Will companies engaged in voluntary recall be liable 
for the actions of third-party websites?
    Answer. It is difficult to answer categorically questions that may 
be very fact specific and involve issues of contract agreements, legal 
interpretation, and enforcement discretion, but, generally speaking, 
recalling firms are not likely to be held liable for the actions of 
third-party websites over whom they have no legal or other 
relationship. That said, in the interest of consumer safety, the 
Commission has always looked to its partners in the consumer product 
community to assist in monitoring the sale, or resale, of products they 
have voluntarily recalled.

    Question 13. Is it your view that a recalling company is legally 
responsible for the actions of third parties?
    Answer. It is difficult to answer categorically questions that may 
be very fact specific and involve issues of contract agreements, legal 
interpretation, and enforcement discretion, but, generally speaking, 
recalling firms are not likely to be held legally responsible for the 
actions of third parties over whom they have no legal or other 
relationship. That said, in the interest of consumer safety, the 
Commission has always looked to its partners in the consumer product 
community to assist in monitoring the sale, or resale, of products they 
have voluntarily recalled.

    Question 14. Is it the intent of the CPSC to require companies 
engaged in a voluntary recall to monitor third-party websites?
    Answer. It is my understanding that the CPSC, in the interest of 
consumer safety, has always encouraged recalling firms to monitor the 
potential sales, or resale, of products they have voluntarily recalled, 
regardless of where the sale, or resale, may occur. In 2014, a large 
percentage of consumer sales of all products, including many non-
consumer products, take place online. The Commission has always looked 
to its partners in the consumer product community to assist in 
monitoring the sale, or resale, of products they have voluntarily 
recalled, and is likely to continue to do so.

    Question 15. Why was this new requirement for companies undertaking 
voluntary recalls to monitor resale or auction sites not part of your 
proposed voluntary corrective action rule?
    Answer. The Commission's request, in the interest of consumer 
safety, for recalling firms to monitor the sale, or resale, of its 
products wherever that sale, or resale, may take place is not new and 
is not a requirement for all firms. When a firm enters into a voluntary 
agreement to conduct a recall in cooperation with the CPSC, the agency 
has always requested that firms work with all third-party sellers of 
their product to ensure that the recall is effective. This could 
include both ``brick and mortar'' retailers as well as online sellers 
of products. Regardless of whether an individual Corrective Action Plan 
includes an agreement for a recalling firm to monitor sites where their 
product is sold, the CPSC has always encouraged recalling firms to do 
so. The updated ``CPSC Monthly Progress Report for Recalls'' simply 
provides an easier way for firms to document what they have found, if 
they have found anything.
    That said, I again note that this is a proposed rule. I am 
carefully reviewing all comments from all stakeholders and retain an 
open mind as to what the final version of the rule might look like.

    Question 16. The CPSC recently proposed a rule that would expand 
staff's role on voluntary standards setting bodies. Among the proposed 
changes, CPSC staff could participate as voting members of a voluntary 
standard development group. As a commissioner, how do you view the 
agency's role in the voluntary standards setting process?
    Answer. The rule to which you refer grew out of a report from May 
2012 by the U.S. Government Accounting Office (GAO), ``Consumer Product 
Safety Commission: A More Active Role in Voluntary Standards 
Development Should be Considered.'' (See http://www.gao.gov/assets/600/
590990.pdf.)
    The GAO Report recommended that the Commission review its policy 
for staff participation in voluntary standards development activities 
and determine the feasibility of the agency's staff assuming a more 
active role in developing voluntary standards. Specifically, the GAO 
Report recommended that CPSC staff be allowed--not required--in 
appropriate cases to vote on balloted provisions of voluntary 
standards. The Report also suggested that staff be allowed to hold 
leadership positions at various levels of standards development 
organizations, including task groups, subcommittees, or committees. GAO 
concluded that changing the CPSC's regulations to allow staff to 
participate more actively in voluntary standards activities could 
result in stronger voluntary standards without compromising the CPSC's 
or the voluntary standards groups' independence.
    As a result of this GAO Report, Commission staff proposed 
conforming amendments to 16 CFR 1031, the Commission's regulation on 
participation in voluntary standards activities. These amendments 
followed GAO's recommendations to allow staff, on an optional basis, to 
vote on voluntary standard's or take a leadership role on voluntary 
standards group committees.
    The proposed rule noted that such activity might result in a more 
effective voluntary standards process and accelerate standards 
development and implementation. Further, such participation could gain 
CPSC staff greater access to and familiarity with the latest 
technologies, and would provide an opportunity for staff to help 
establish standards to advance CPSC's safety goals. In addition, 
``full'' Federal Government participation in standards development 
increases the likelihood that the standards can meet both public and 
private sector needs. 141 Cong. Rec. H14334 (daily ed. December 12, 
1995) (Statement of Rep. Morella). A single standard that satisfies 
both industry and the CPSC would benefit both by simplifying applicable 
requirements--only a single set of standards would apply.
    Finally, optional staff participation in voluntary standards 
development groups by voting and taking leadership roles would be 
consistent with the guidance reflected in OMB Circular A-119 Revised, 
``Federal Participation in the Development and Use of Voluntary 
Consensus Standards and in Conformity Assessment Activities'' (February 
10, 1998). Among other things, OMB Circular A-119 encourages agency 
representatives serving as members of voluntary consensus standards 
bodies to ``participate actively and on an equal basis with other 
members,'' and to ``vote . . . at each stage of the standards 
development process unless prohibited from doing so by law of their 
agencies.''
    The role voluntary standards play in the safety of American 
consumers, and the ability of the CPSC to do its job cannot be 
overemphasized. I have long believed that we must work in concert with 
the voluntary standards organizations to help those organizations 
create the best standards they can. This is why I am so delighted by 
the progress I have seen in the voluntary standards community over the 
past forty years. Groups such as ASTM, ANSI, and UL have dramatically 
improved their technical skills, their efficiency in drafting 
standards, their openness and transparency, and their outreach to all 
stakeholders. I'm pleased to see CPSC work so closely with these 
groups, and I have little doubt that our partnership with them will 
only grow and deepen in the years to come in the interest of better 
standards for consumers and product manufacturers alike. That said, it 
is only a proposed rule and I am still reviewing all comments from all 
stakeholders and retain an open mind as to what the final version of 
the rule might look like.

    Question 17. The statute is very clear in stressing the importance 
of relying on industry-developed voluntary standards. How do we ensure 
that the Commission would not turn the standards development process 
into a de facto mandatory rulemaking by demanding standards that might 
not be fully supported by the industry?
    Answer. I see no indication that the proposed rule would turn the 
voluntary standards development process into de facto mandatory 
rulemaking. I believe that CPSC involvement, especially by highly 
skilled and knowledgeable technical staff, often helps improve the 
quality of voluntary standards. Additionally, CPSC staff participation 
in the standards process does not automatically mean that the standards 
body will adopt CPSC staff's view or that the Commission will adopt the 
resulting voluntary standard. I appreciate your concern and will be 
sure to pay particular attention to this issue when the final rule is 
presented to the Commission. I continue to review all the comments from 
all stakeholders of the proposed rule and retain an open mind as to 
what the final version of the rule might look like.

    Question 18. If CPSC staff takes a leadership role, or even simply 
votes in support of a voluntary standards, isn't that an endorsement 
standard?
    Answer. Because of the disclaimers required of Commission staff in 
the proposed rule, including that CPSC staff participation in the 
standards process does not automatically mean that the Commission will 
adopt the resulting voluntary standard, I see no indication that the 
proposed rule's approach to staff involvement would suggest the 
Commission has officially endorsed a particular standard. The law is 
fairly clear regarding CPSC's approach to voluntary standards. If the 
Commission, in the course developing a mandatory standard determines 
that an existing voluntary standard adequately addresses a risk of 
injury and is substantially complied with, the Commission must stop its 
work and defer to the voluntary standard. Nothing in this proposed rule 
changes that.
    I appreciate your concern and will be sure to pay particular 
attention to this issue when the final rule is presented to the 
Commission. I continue to review all the comments from all stakeholders 
of the proposed rule and retain an open mind as to what the final 
version of the rule might look like.

    Question 19. The Consumer Product Safety Commission sits at the 
intersection of science and consumer protection. It has come to the 
Committee's attention that there is an important distinction between 
scientific reviews conducted in other countries, such as the E.U., 
versus the scientific standards that we apply in the United States. As 
you know, U.S. agencies apply the ``reasonable risk'' assessment that 
the CPSC must apply based on the legal standards, criteria and 
guidelines under the Federal Hazardous Advisory Act (FHSA) for 
conducting risk assessments and determining what factors to consider in 
those evaluations.
    Specifically, the FHSA identifies safety factors, and mandates 
their application, in order to meet the `banned hazardous substance' 
criteria. This is done by calculating the ``acceptable daily intake'' 
from the No Observed Adverse Effect Level (NOAEL) and the Low Observed 
Adverse Effect Level (LOAEL) to determine acceptable risk for 
developmental/reproductive toxicants. The U.S. standard provides a 
higher degree of safety than the current European regulatory system, 
which is skewed to implement a precautionary approach towards 
regulation that focuses primarily on a potential hazard and does not 
apply the same degree of risk assessment criteria in considering the 
actual use of the chemical.
    How will you ensure that the CPSC strictly follows U.S. safety 
standards as defined by the FHSA and is not influenced by standards, 
such as the precautionary approach, outside the jurisdiction of the 
CPSC and the U.S. regulatory system?
    Answer. My duty is to uphold and enforce the laws and regulations 
that apply to the CPSC, and if re-confirmed, I look forward to doing 
so.

    Question 20. Would you support greater use of stakeholder working 
groups and requests for information as the CPSC examines ways to 
improve the effectiveness of its programs?
    Answer. Yes, with a caveat. One must keep in mind that stakeholder 
groups can easily fall within the provisions of the Federal Advisory 
Committee Act, 5 U.S.C. App. 2, Sec. Sec. 1-16, which brings an array 
of procedural requirements and high costs for agencies. Many years ago, 
Congress abolished the three advisory committees administered by the 
CPSC because of the enormous costs they imposed on our resource-
strapped agency.
    That said, I have always been a strong advocate for the involvement 
of all CPSC stakeholders from large manufacturers and retailers to 
small businesses and inventors, to consumer advocates and individual 
members of the public. Since becoming a Commissioner, I have had an 
open door policy to all stakeholders and have sought to honor every 
request to meet with me. Further, I have always believed in reading 
every comment that is submitted to the agency on an issue that will 
come before me as a Commissioner. If re-confirmed, I look forward to 
finding more ways to improve the effectiveness of our feedback 
mechanisms with all of our stakeholder groups.

    Question 21. The digital age provides new opportunities for more 
direct contact to consumers for distributing important information and 
education. How important are public/private partnerships in the 
strategies for outreach to consumers?
    Answer. Very important. The CPSC is a small agency with a very 
large safety mandate. In order to inform and educate the public, the 
CPSC often relies on our non-governmental partners in the private 
sector and the not-for-profit sector to help us amplify our outreach. 
Whether through the use of social media, media interviews, or in-store 
messaging, CPSC has a rich history of collaborating with associations 
and companies on campaigns such as safe sleep for babies, drowning 
prevention, poison prevention, and window blind safety, to name only a 
few. A number of companies and organizations have effectively used 
social media platforms to inform their customers and constituents of 
product hazards. Because of the significant positive results for 
consumers that often come from these relationships, it is my hope that 
CPSC will continue to explore opportunities to work with industry and 
other groups on information and education campaigns.

    Question 22. How can the CPSC engage and utilize the private sector 
in furthering its mission?
    Answer. It is my hope that CPSC can continue to explore 
opportunities to conduct social media dialogues such as Twitter chats, 
participate in webinars, speak and exhibit at industry conferences, 
produce videos, and use the Neighborhood Safety Network to build on our 
progress in collaborating with the private sector to save lives, 
prevent injuries, and advance the cause of product safety.
    In addition, almost every voluntary standards committee in which 
the Commission participates is made up, in part, of members from the 
private sector. The role voluntary standards play in the safety of 
American consumers, and the ability of the CPSC to do its job cannot be 
emphasized enough. I have long believed that we must work in concert 
with the voluntary standards organizations to help those organizations 
create the best standards they can. This is why I am so delighted by 
the tremendous progress I have seen in the voluntary standards 
community over the past forty years. Groups such as ASTM, ANSI, and UL 
have dramatically improved their technical skills, their efficiency in 
drafting standards, their openness and transparency, and their outreach 
to all stakeholders--especially consumers--affected by their work. I'm 
pleased to see CPSC work so closely with these groups, and I have 
little doubt that our partnership with them will only grow and deepen 
in the years to come in the interest of better standards for consumers 
and product manufacturers alike.

    Question 23. How would you handle situations when consumers are 
being injured by using products incorrectly or contrary to label 
instructions, and what role would the CPSC play in such situations?
    Answer. At the outset, let me say that every accident involves 
three factors: the product, the consumer, and the surrounding 
environment. Depending on the circumstances, it is often hard to pin 
down precisely what role each factor plays in an accident. That is why 
the Commission employs an extensive epidemiological and human factors 
staff to assist us in our approach to protecting consumers. I find it 
hard to generalize about the cause of some injuries by pointing to 
consumers' ignoring label instructions if the labels warn of hazards 
that consumers should not expect to exist. For example, the Commission 
entered into a civil penalty agreement with a manufacturer of infant 
flotation seats that failed without warning, plunging young children 
into water over their heads. The manufacturer had a warning label that 
parents should not leave children unattended in pools with the 
flotation device. That, however, did not address the fact that the 
seats were defective and failed without warning, placing infants in 
life-threatening situations.
    That said, the Commission has a group of talented technical experts 
who often provide advice and guidance to outside groups regarding the 
efficacy of their warning labels. I believe that the market is a better 
informed, safer arena because of CPSC staff's technical input, and, if 
reconfirmed, I will continue to support their efforts.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
